<html>
<title> - NEEDS OF THE FIRE SERVICE</title>
<body><pre>[Senate Hearing 108-898]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-898

                       NEEDS OF THE FIRE SERVICE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

95-529 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 30, 2003...................................     1
Statement of Senator McCain......................................     1

                               Witnesses

Bement, Jr., Hon. Arden L., Director, National Institute of 
  Standards and Technology, Department of Commerce...............     6
    Prepared statement...........................................     7
Bruegman, Randy R., President, International Association of Fire 
  Chiefs.........................................................    21
    Prepared statement...........................................    23
Camp, Hon. Dave, U.S. Representative from Michigan...............    17
    Prepared statement...........................................    18
O'Connor, Kevin, Assistant to the General President for 
  Government and Public Relations, International Association of 
  Fire Fighters (AFL-CIO-CLC)....................................    26
    Prepared statement...........................................    28
Paulison, Hon. R. David, Director, Preparedness Division, 
  Emergency Preparedness and Response Directorate, Department of 
  Homeland Security..............................................     9
    Prepared statement...........................................    12
Shannon, Hon. James M., President and CEO, National Fire 
  Protection Association.........................................    33
    Prepared statement...........................................    35
Stittleburg, Philip C., Chairman, National Volunteer Fire Council    37
    Prepared statement...........................................    39
Weldon, Hon. Curt, U.S. Representative from Pennsylvania.........     3

                                Appendix

Cantwell, Hon. Maria, U.S. Senator from Washington, prepared 
  statement......................................................    47
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Randy R. Bruegman............................................    53
    Kevin O'Connor...............................................    55
    R. David Paulison............................................    63
    Philip C. Stittleburg........................................    59
Response to written questions submitted by Hon. John McCain to:
    Arden L. Bement, Jr..........................................    48
    Randy R. Bruegman............................................    52
    Kevin O'Connor...............................................    53
    R. David Paulison............................................    59
    Philip C. Stittleburg........................................    55

 
                       NEEDS OF THE FIRE SERVICE

                              ----------                              


                       WEDNESDAY, APRIL 30, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:43 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. I welcome my colleagues and 
witnesses to this hearing to examine the needs of Fire Services 
as we begin the process of reauthorizing the U.S. Fire 
Administration.
    The role of Fire Service is being transformed. September 
11, 2001, we all realized the important new role firefighters 
serve on the front line in the fight to preserve our nation's 
security. We witnessed the heroism of the firefighters and 
emergency services personnel, who selflessly rushed into the 
World Trade Center and the Pentagon to save the lives of many 
Americans. Tragically, 343 firefighters and EMS technicians 
paid the ultimate price in the service of their country.
    As we recognize this new role and the dangers it presents 
to our firefighters, we also must be aware of the other 
challenges they face. Today's firefighter must be prepared to 
respond to threats by both urban and wildland fires, natural 
disasters, hazardous materials spills and other accidents, as 
well as the specter of terrorism. Just last year, I witnessed 
the wildland fires that devastated almost 500,000 acres in my 
state, including impacting several communities in the White 
Mountain Apache Reservation in eastern Arizona.
    The Federal agency tasked with the mission of aiding the 
Fire Service is the U.S. Fire Administration. However, this 
agency has recently faced a number of challenges. The agency 
was transferred to the Department of Homeland Security, and 
there is uncertainty about the status of the U.S. Fire 
Administrator position. The agency also faces a budget 
shortfall, which has caused the National Fire Academy to cancel 
36 courses.
    The President's fiscal year 2004 budget is proposing to 
combine the Assistance to Firefighters Grant Program with a 
$3.5 billion program administered by the Office of Domestic 
Preparedness. I look forward to hearing Chief Paulison's 
testimony this morning about how he intends to respond to these 
challenges and what role the Committee can play to help him.
    Another issue that this Committee will continue to examine 
concerns public safety communications interoperability. Many of 
the first responders in Arizona have contacted me with concerns 
that their local communications systems are inadequate for 
contacting each other and Federal and State agencies in 
emergencies. And we've all heard the stories from September 11, 
when the incompatibility of police and firefighters' radios 
impeded communications and rescue efforts.
    We also must examine issues regarding firefighting 
technology. Today's firefighters use a variety of technologies, 
including thermal-imaging equipment, devices for locating 
firefighters and victims, and state-of-the-art protective suits 
to meet today's challenges. The Assistance to Firefighters 
Grant Program is authorized for $900 million for fiscal year 
2004 to assist local fire departments in purchasing this high-
tech equipment, and we must ensure that the American taxpayers' 
funds are used to purchase effective equipment.
    Unfortunately, there are no uniform technical standards for 
new technology used in combating fires. The January 2003 
Consumer Reports article stated that much of the equipment sold 
today is not tested or certified by government or independent 
labs and that the confusion will get worse as new equipment 
floods the market in response to increased government funding.
    Senator Hollings, Brownback, Cantwell, Biden, Carper, 
DeWine, Graham, and I have introduced S. 321, the Firefighting 
Research and Coordination Act, to address this problem. 
Representatives Camp and Weldon have introduced a companion 
bill in the House. Our bill would allow the Federal Government 
to work with the private sector to develop basic uniform 
performance criteria and technical standards to ensure the 
effectiveness of new technologies purchased with Federal funds.
    In addition, it would task the U.S. Fire Administration to 
be a resource for state and local governments in developing 
mutual aid plans, updating the Federal Response Plan, and 
reporting on the need for a strategy for deploying volunteers, 
including a national credentialing system. Also, the bill would 
authorize training programs at the National Fire Academy to 
improve tactics for using new firefighting technology and 
responding to terrorist attacks.
    I thank the Fire Service organizations, especially those 
testifying today, for their support of this legislation. It's 
my hope that the Committee can reach a consensus on this bill 
and include it in our reauthorization legislation as soon as 
possible.
    I welcome all the witnesses here today. And, of course, I'm 
very pleased to have our dear friend and the best friend of 
firefighters in America, Honorable Curt Weldon, in the U.S. 
House of Representatives. Thank you for joining us today, and 
thank you for all you have done. It's been incredible work you 
have done over a many-year period on behalf, not only of our 
firefighters, but on all of the efforts you've made to improve 
their capabilities to combat natural disasters and also for 
planning ahead. Thank you.
    Congressman Weldon, welcome.

                STATEMENT OF HON. CURT WELDON, 
             U.S. REPRESENTATIVE FROM PENNSYLVANIA

    Mr. Weldon. Thank you, Senator. I do not have a formal 
statement, and I will keep my remarks brief. But none of our 
success would have been possible were it not for your 
leadership in the Senate. Way back when this effort started, 17 
years ago, to organize the fire caucus, you were one of the 
first--in fact, it was you and Al Gore who stepped up and said, 
we'll be glad to be co-chairs of the caucus. So for the past 
17-years----
    The Chairman. That's what caused us to lose, I guess.
    [Laughter.]
    Mr. Weldon. I would never approach that one, Senator.
    But it was your leadership that has allowed us to achieve 
the successes that we have achieved today, and we've made many 
successes.
    And let me say, at the outside, that Dave Paulison, who's 
going to speak here in a moment, is an outstanding leader. He 
is a true fire-service professional. His loyalties are the Fire 
Service first, and that's what you and I both wanted in a USFA 
administrator, and he has given that with every breath that he 
has breathed over the past several years.
    But I want to comment, Senator, on a couple of the issues 
you raised. First of all, I think it's outrageous that FEMA 
would cut 36 courses at the U.S. Fire Academy affecting 1,000 
of the state people who train the other local officials across 
America to respond to disasters. What hypocrisy, when we talk 
about increasing the Homeland Security budget by billions, 
which I support and on which committee I am a member in the 
House, and at the same time we tell all the firefighters, our 
first responders, ``But, oh, by the way, a thousand of you 
aren't going to be trained this year because we just can't find 
the measly amount of money to keep those programs intact.'' And 
I don't want to hear FEMA come back and tell us that somehow 
this was mandated. They could have requested a reprogramming if 
they needed more money. They could have come back to us and 
have made the case that these programs are vitally important, 
and they haven't done that.
    So, Mr. Chairman, I think we need to send a signal to the 
White House and FEMA that we're not going to accept those kinds 
of cuts, which really affect directly the people who are in 
command of and are in the leadership positions to all the 
disasters that we're going to be facing for the next several 
years. And so that's my first and most outrageous comment 
regarding the cuts to the USFA.
    The second are the grants. You were very instrumental in 
helping us get this grant program going. It, Senator, has 
become the most well-run program in the Federal Government, and 
the reason is there's no bureaucracy, there's no middle person, 
there's no siphoning off of the dollars by Federal agencies 
looking to build their kingdoms, there's no siphoning off by 
the states. 32,000 fire and EMS departments can go online for 
30 days each year, and they can apply for this money with a 
local match of 10 to 30 percent. And the criteria that were 
developed were developed by the peers in the Fire Service. And 
the evaluation of the credibility of the grants is done by 
firefighters, themselves. I don't think bureaucracy's ever seen 
a program that actually works so well and so logically, and 
that's why we've had such tremendous success.
    My concern is, if we allow the new Office of Homeland 
Security to move this program over, I think there's going to be 
an attempt to take administrative dollars out of this program, 
administrative dollars that are needed to buy handheld 
detection units, new turnout suits that can deal with chemical 
and biological environments, trucks that are aging that need to 
be replaced, healthcare training for firefighters, both 
volunteer and paid, to make sure they're properly prepared to 
deal with the issue.
    And so I would just urge us, using our oversight rule, to 
make sure that we don't allow the bureaucracy, this animal that 
feeds on the trough, that we allow it to take apart the most 
successful program we've seen, and you'll hear that from 
everyone, in getting dollars directly out.
    There's a backlog of grant money in the Homeland Security 
operation. The States haven't spent their money. That is not 
the case with the fire grant program. Every dollar is being 
spent, and the accountability, as it has been reviewed, has 
been outstanding.
    Third, Dave Paulison is a good guy. He's been given 
expanded responsibilities within the new Office of Homeland 
Security. And I support that. But, Mr. Chairman, I would ask 
you to please make sure that we don't take away the Office of 
the U.S. Fire Administrator. The Fire Service needs a point 
person. They need a champion. They need someone who, day in and 
day out, is going to be within the Administration saying, ``But 
what about the impact on the firefighter? What about the impact 
on the paramedic?'' And whether that's Dave Paulison, as a part 
of his current job, or--there needs to be that title, and it 
needs to be kept in place, because politically that sends a 
signal to the 1.2 million men and women across the country that 
they have an advocate in Washington, they have someone that's 
going to stand up for them in every possible situation and say, 
``Wait a minute. How does this impact our local responders 
across America?''
    A couple of other comments based upon what you said, and 
you've always been on the issues. You were the leader on the 
issue of interoperability, on frequency spectrum allocation. I 
was a supporter of your efforts in past Congresses. You were 
out there championing the fact that public safety needs to have 
an allocation of frequency spectrum to deal with the needs of 
the 21st century. And you were the one who was talking about 
the issue of where those dollars are going to go when that 
frequency spectrum allocation, in fact, is being allocated. 
There's no more important issue than that and the 
interoperability issue.
    It's unconscionable today that we have fire departments in 
neighboring towns that can't talk to each other because they're 
on high band or low band or digital frequency systems and don't 
have the interoperable capability. So I would just urge you to 
continue to press that issue. From the House side, we'll 
support you.
    You mentioned tech transfer. You've been a leader on 
defense issues. I'm the vice chairman of the House committee. 
We have developed technology for the military that is not being 
transferred aggressively enough. Why should we just have a 
system that we put an undergarment on the soldier that tells us 
where they are through GPS technology, but also their vital 
signs, their heart rate their pulse, when the firefighter or 
the paramedic could use that same technology. If we'd have had 
that technology up in Boston, we wouldn't have lost six 
firefighters. When two went into a warehouse, their air packs 
ran out, no one knew where they were, no one knew their 
condition, four more went in to rescue them. All six were 
killed. We wouldn't have lost the two in Philadelphia in a 
high-rise when they were two floors above where the chief 
thought they were. So we've go to do a better effort, and with 
your leadership this can happen, of transferring technology 
that we already pay for in the military and transfer it over to 
our domestic defenders.
    And one additional point. It's not under your jurisdiction, 
but, again, you can help us. We saw the terrible tragedy of the 
nightclub fire up in Rhode Island. It's tough to deal with 
buildings that were built before codes were enacted, because 
they're grandfathered; they don't have to have sprinkler 
systems. In some cases, they don't have to comply with the NFPA 
life safety code. So what we did, Jim Langevin and I, the 
Democrat from Rhode Island, introduced legislation in the House 
that provides a tax incentive that says to older 
establishments, ``If you install automatic sprinkler systems 
within 5 years, you can write off the cost of the installation 
of that system.'' When you couple that tax savings with the 
savings they would realize from reduced insurance premiums, 
within 3 to 5 years, any business in America can retrofit and 
protect their property. So these older nightclubs, many of 
which are wood frame and which have really no fire-retardant 
capability or fire-protection capability, would then be able to 
install automatic sprinkler systems.
    Mr. Chairman, the records will show that we've never lost a 
human being in an occupancy that's been properly protected with 
an automatic fire-suppression system. And so I think that 
legislation could go a long way. And it also helps protect our 
firefighters, because the fire is largely extinguished before 
they arrive on the scene.
    So, again, I want to thank you. You've been a real hero in 
so many ways, and the firefighters continue to recognize you as 
one of their own, and we appreciate the role that you've 
played. And I thank you for allowing me to come before you 
today.
    The Chairman. Thank you very much, Congressman Weldon, and 
you're all too modest. And I thank you, and I look forward to 
seeing you this evening.
    Mr. Weldon. Thank you.
    The Chairman. Thank you very much.
    Our first panel is the Honorable Arden L. Bement, who is 
the Director of National Institute of Standards and Technology, 
known as NIST; and Honorable R. David Paulison, who's the 
director of the Preparedness Division, Emergency Preparedness 
and Response Directorate of the U.S. Department of Homeland 
Security.
    Am I pronouncing your name, right, sir?
    Mr. Bement. Yes, sir.
    The Chairman. Welcome, and please proceed. We'll take you 
first and then Chief Paulison.
    Thank you.

       STATEMENT OF HON. ARDEN L. BEMENT, JR., DIRECTOR, 
        NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY, 
                     DEPARTMENT OF COMMERCE

    Mr. Bement. Thank you, Mr. Chairman.
    I would like to submit my written testimony for the record.
    The Chairman. Written testimony will be included in the 
record.
    Mr. Bement. Thank you, sir.
    Industry and the U.S. Fire Service look to NFPA and NIOSH 
as primary sources of equipment performance standards and 
safety information. NFPA has committees that consider the need 
for voluntary consensus standards for equipment performance. 
Many NIST staff are members of NFPA and serve on their 
standards development committees. Technical reports from NIST 
provide NFPA committees and NIOSH with data and procedures to 
help advance national standards. NIST-developed measurement 
methods are also adopted by the American Society for Testing 
and Materials and the International Organization for 
Standardization.
    The Department of Homeland Security's FEMA provides grants 
to fire departments allowing firefighters to better equip and 
prepare for fires and other emergencies. However, many new 
technologies are not yet supported by the existence of 
consensus standards. Individual fire departments are forced to 
assess the performance of these new technologies or rely solely 
on manufacturers' information and demonstrations. 
Interoperability of equipment also suffers from lack of 
consensus standards.
    To help address this issue, NIST and FEMA are working to 
aid the development of technology and methods to evaluate 
equipment for use by the Nation's first responder and emergency 
management communities. Let me give some examples.
    Portable thermal images are used by firefighters to enhance 
vision and identify hot-spots in cool surroundings, such as 
hidden fires, and to identify cool objects, like victims of 
fire or downed firefighters. The performance of the sensors 
implemented in various products has not yet been measured under 
controlled conditions. NIST, with added funding from USFA, is 
developing an apparatus to measure how well thermal-imaging 
hardware is able to aid vision. Standards built on this 
foundation will provide for accurate measurement of the 
performance attributes of firefighter equipment.
    During firefighting, a firefighter's protective clothing is 
wet from the outside by water spray and on the inside by 
perspiration. NIST, assisted by funding from USFA, is 
performing measurements under a range of thermal exposures and 
moisture conditions and has found that wet gear performs 
differently than dry gear with respect to burn protection. 
Manufacturers have come to NIST to utilize our apparatus to 
understand more about the behavior of their products. This data 
will be used by manufacturers to improve protective clothing 
products and can help in the development of future protective 
clothing that has even better resistance to burns.
    The fire-alarm panel in buildings, often found in the lobby 
near the main entrance, is the heart of the building's fire 
information system. Until recently, even the best displays 
offered only rows of lights that indicated the zones in the 
building where fire was detected. Often a key or map was needed 
to interpret the lights. In many cases, it was easier to look 
for the fire than to use the information from the panel 
display. The development of more powerful and affordable 
computer and graphic displays has provided manufacturers with 
the opportunity to expand the display capabilities and the 
amount of information available at the panel. NIST created a 
standard set of graphic icons for these fire command devices. 
In this way, firefighters have only to learn the meaning of one 
set of symbols.
    Last fall, NFPA adopted a set of standard icons for fire 
alarm system displays. NIST is now turning its attention to the 
standards that will be needed to advance the wireless 
transmission of displays of information contained in the 
building emergency systems to responding firefighters even 
before they arrive at the building.
    NIST is the Nation's primary measurement laboratory and has 
always provided a critical role in the development of effective 
consensus standards in support of industry and public needs. I 
expect NIST will continue to contribute substantially to 
improved safety and effectiveness of firefighting in America.
    Thank you, Mr. Chairman, and I'd be happy to answer any of 
your questions.
    [The prepared statement of Mr. Bement follows:]

  Prepared Statement of Hon. Arden L. Bement, Jr., Director, National 
     Institute of Standards and Technology, Department of Commerce
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Arden Bement. I am the Director of the National Institute of Standards 
and Technology (NIST). I appreciate the opportunity to appear today. 
NIST supports the goals of S. 321 and understands the Department of 
Homeland Security is working with Committee staff concerning a number 
of comments.
    NIST conducts research that advances the nation's measurement and 
standards infrastructure and works closely with national voluntary 
consensus standards organizations to support the development of 
consensus standards. These standards are needed by U.S. industry for 
continually improving products and services.
    Equipment for first responders is very specialized. It also 
constitutes a small market that is generally served by small 
manufacturers. Producing new equipment for the market in the absence of 
generally-accepted standards is a high-risk venture. In addition, 
standards that reflect in use conditions for determining the 
performance of firefighter equipment would assist industry in providing 
equipment that meets or exceeds firefighter needs.
    The U.S. fire service looks to the National Fire Protection 
Association (NFPA) and the National Institute for Occupational Safety 
and Health (NIOSH) as its primary sources of equipment performance 
standards and safety information. NFPA has established committees that 
consider the need for equipment performance standards and develop 
consensus standards where views of industry, the fire service, 
government and commercial laboratories, and other interested parties 
are represented. Many of the staff in the NIST Building and Fire 
Research Laboratory and the Office of Law Enforcement Standards at NIST 
are members of NFPA and serve on their standards developing committees. 
NIST provides technical assistance to NIOSH in firefighter fatality 
investigations and thermal sensor evaluation. Technical reports from 
NIST on measurement techniques, methodologies, and results, provide 
NFPA committees and NIOSH with data and procedures to help advance 
national standards. NIST developed measurement methods are also adopted 
by the American Society for Testing and Materials (ASTM) and the 
International Organization for Standardization (ISO).
    In FY2001, FEMA established the Assistance to Firefighter's Grant 
Program following passage of the Firefighter Investment and Response 
(FIRE) ACT that provides fire departments funding through grants for 
needed equipment. These funds are now allowing firefighters to be 
better equipped and prepared for fires and other emergencies. However, 
many new technologies are not yet supported by the existence of 
consensus standards. Individual fire departments are forced to assess 
the performance of these new technologies or rely solely on 
manufacturers information and demonstrations. Interoperability of 
equipment also suffers from lack of consensus standards.
    To help address this issue, a Memorandum of Understanding (MOU) 
between NIST and FEMA was signed in March 2002 and establishes a 
framework for NIST to serve as a standards and measurement science 
resource for the Department of Homeland Security's FEMA in the areas of 
fire, disaster prevention, and homeland security. One of the purposes 
called out in the agreement is to aid the development of standards and 
methods to evaluate equipment for use by the Nation's first responder 
and emergency management communities. Additionally, NIST will continue 
to work with other agencies and directorates of the Department of 
Homeland Security. In particular, the Under Secretary of Technology 
will soon formalize this cooperation with a memorandum of understanding 
between the Technology Administration and the Directorate of Science 
and Technology at the Department of Homeland Security.
    In order to develop consensus standards for new fire fighting 
technologies as described in S. 321, there is a need for several 
interrelated activities.
    First, priorities must be established for the development of the 
standards. In cooperation with the U.S. Fire Administration (USFA), 
NIST has hosted workshops with representatives of the fire service, 
industry, and other laboratories to establish priorities for fire 
service research. Published results of these workshops have helped set 
the current research agenda for both NIST and USFA. Similar workshops 
should be held to establish priority and a timeline for the development 
of measurement techniques, testing methodologies, and consensus 
standards.
    Second, measurement techniques and testing methodologies need to be 
developed for evaluating the performance of firefighter equipment using 
new technologies. NIST is the nation's primary measurement laboratory. 
Our mission is to develop measurements and standards to enhance 
productivity, facilitate trade, and improve the quality of life. NIST 
has specialized laboratory facilities and staff expertise ideally 
suited for the development of these techniques and methodologies for 
many of the new fire fighting technologies.
    Third, a network of private sector laboratories and facilities are 
needed where the measurement techniques and the methodologies can be 
used in a reproducible way, a necessary condition for the success of 
any standard. NIST will work with other organizations to assure that 
the measurement results are reproducible.
    Finally, NIST will work closely with national voluntary consensus 
standards organizations to support the development of the consensus 
standards. An unbiased source of technical information and data, such 
as that supplied by NIST, is critical to the success of this effort.
Current NIST Research in Support of the Fire Service
    NIST is proud of its role as a science and technology resource in 
helping to improve the effectiveness and safety of fire fighting. Below 
is a brief description of its current and recent activities.
    Portable thermal imagers are used by firefighters to enhance 
vision. They are used to identify hot spots in cool surroundings such 
as hidden fires in void space or over-heated fluorescent light ballasts 
lights. They are also used to identify cool objects, like victims of 
fire incapacitated by smoke or downed firefighters in hot surroundings 
during building search and rescue. Unfortunately, the performance of 
the sensors implemented in various products has not been measured under 
controlled conditions. Furthermore, the minimum level of important 
performance attributes, such as image contrast, have not been 
determined.
    NIST, with added funding from USFA, is developing an apparatus to 
measure how well thermal imaging hardware is able to aid vision and 
hazard sensing under a variety of realistic conditions. These 
laboratory measurements will be compared to measurements made in actual 
building fires and in large-scale fire experiments at NIST. The results 
will be used to assure that laboratory measurements are reliable 
indicators of real-world performance. Standards built on this 
foundation will provide for accurate measurement of the important 
performance attributes of firefighter equipment essential for quality, 
reliability, safe, and effective use.
    Another example of our work deals with firefighter protective 
clothing. The NFPA Standard on Protective Ensemble for Structural Fire 
Fighting (NFPA1971) specifies the minimum design, performance, 
certification requirements, and test methods for structural firefighter 
protective ensembles. The test method for measurement of thermal 
protective performance for firefighter protective garment and the 
minimum rating required for safety is part of this NFPA standard. The 
Thermal Protective Performance (TPP) rating is determined by exposing 
dry materials to a single high intensity exposure condition that is 
often related to an extreme fire condition called flashover. This 
standard has contributed substantially to improved safety for 
firefighters, but firefighters tell us they are being burned through 
their gear under lower intensity exposures.
    During fire fighting, a firefighter's protective clothing is wet 
from the outside by water spray and the inside by perspiration produced 
from strenuous activity. NIST, assisted by funding from USFA, is 
performing measurements under a range of thermal exposures and moisture 
conditions and has found that wet gear performs differently than dry 
gear with respect to burn injury protection. Manufacturers have come to 
NIST to utilize the NIST apparatus to understand more about the 
behavior of their products under conditions different from those 
assumed in the present standard. This data generated by manufacturers 
working at NIST will be used to improve protective clothing products. 
In addition, the testing approach used at NIST will be offered for 
consideration for adoption as part of the current standard. The 
apparatus is also being used in exploratory NIST research to evaluate 
the thermal protective attributes of new materials such as carbon nano-
tube composite fabrics. These measurements can help in the development 
of future protective clothing that has even better resistance to burn 
injury with reduced weight.
    NIST works hard to anticipate needs so that information is ready 
when needed by industry to advance their products and provide for 
interoperability. Four years ago, NIST formed a consortium with several 
fire alarm hardware manufacturers. The fire alarm panel in buildings, 
often found in the lobby near the main entrance, is the heart of the 
building's fire information system. Condition measurements and alarms 
from fire detectors placed throughout a building are sent to this 
display. Until recently even the best displays offered only rows of 
lights that indicated the zones in the building where fire was 
detected. Often a key or map was needed to interpret the lights. In 
many cases, it was easier to look for the fire than to use the 
information from the panel display.
    The development of more powerful and affordable computer and 
graphic displays have provided manufacturers with the opportunity to 
expand the display capabilities and the amount of information available 
at the panel using graphic icons. NIST created a standard set of icons 
for these panels and other fire command devices. In this way, 
firefighters would only have to learn the meaning of one set of symbols 
if they were applied on all fire service graphic displays. Last fall, 
working from documents submitted by NIST, the NFPA Technical Committee 
on Testing and Maintenance of Fire Alarm Systems adopted a set of 
standard icons for fire alarm system displays and published these in 
the 2002 Edition of National Fire Alarm Code (NFPA 72). NIST is now 
turning its attention to the standards that will be needed to advance 
the wireless transmission and display of information contained in the 
building emergency systems to responding firefighters even before they 
arrive at a building.
    Interagency research managed by NIST is also helping to protect 
firefighters responding to terrorism incidents. Threat analyses and 
simulations have been conducted to examine chemical warfare agent 
hazard concentrations in a variety of domestic terrorist attack 
scenarios, both for respiratory and percutaneous (skin) threats. 
Results are being supplied to the NFPA committee revising the Standard 
on Protective Ensembles for Chemical/Biological Terrorism Incidents 
(NFPA 1994).
Closing Remarks
    I am delighted that there is recognition by the committee of the 
need for the development of firefighting equipment standards. NIST is 
the nation's primary measurement laboratory and has always played a 
critical role in the development of effective consensus standards in 
support of industry and public needs. I expect NIST to continue to 
contribute substantially to improved safety and effectiveness of fire 
fighting in America.
    Thank you and I would be happy to answer any of your questions.

    The Chairman. Thank you, sir.
    Mr. Paulison, welcome.

        STATEMENT OF HON. R. DAVID PAULISON, DIRECTOR, 
         PREPAREDNESS DIVISION, EMERGENCY PREPAREDNESS 
            AND RESPONSE DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Paulison. Thank you, Mr. Chair.
    I've submitted my written comments for the record, and, 
with your permission, I'd like to make a few brief oral 
comments. Thank you, sir.
    As you're aware, I'm the director of preparedness for 
Emergency Preparedness and Response in FEMA, but I also serve 
as U.S. Fire Administrator for FEMA. I've had the opportunity 
to serve in the Fire Service for over 30 years, and I was the 
chief of Miami Dade County Fire Department for the last 10 
years before coming to Washington, D.C.. I thank you for 
allowing me the opportunity to testify before you today on 
behalf of Secretary Ridge and represent the U.S. Fire 
Administration.
    And I also want to thank the people sitting behind us, from 
the Fire Service, my friends and colleagues, who have gone way 
out of their way to make sure that my term has been as 
successful as it has; and the successes we've had have been due 
to their support, and I appreciate that very much and want them 
to know that.
    As you know and the others know in this room, we lose more 
people to fires than we do to any other catastrophe in this 
country. We lose over 4,000 people a year to fires and also 
have over 22,000 injuries due to fire. And last year, we lost 
102 firefighters responding to alarms in this country. And as 
one who's had to go to someone's house at 3 o'clock in the 
morning and tell the wife or children that their father and 
husband is not coming home, that is not tolerable, and I would 
not like to have any other chief have to go through that 
process.
    As part of the Department of Homeland Security, we work 
with our partners in the Fire Service, the emergency 
responders, and State and local governments to prevent deaths, 
injuries and damage to property through leadership, advocacy, 
coordination, and support in four basic mission areas. The four 
mission areas include: the Assistance to Firefighters Grant 
Program, training, research and data analysis, and, as 
important as the rest, public preparedness and awareness.
    The Assistance to Firefighters Grant Program, as 
Congressman Weldon so aptly covered earlier, covers training 
and safety, apparatus and personnel gear, firefighting 
equipment, and wellness and fitness issues for local fire 
departments. In the last 3 years, we've received over 60,000 
requests from fire departments from across the Nation, totaling 
over $6 billion. In the last 3 years Congress gave us a total 
of 1.2 billion. This year alone, we've received over 20,000 
applications from fire departments for the grants. As we begin 
to administer the 2003 grants to successful applicants, and 
those moneys will start to be awarded June of this year, and we 
will finish that process before June of next year, 2004.
    By the way, as Congressman Weldon pointed out, the 2001 
dollars that you gave us, 98 percent of that money has been 
spent, not just issued by us, but also spent by the fire 
departments. Almost 60 percent of the 2002 grants, which we 
just finished awarding has been spent. And, in 2003, again, 
we're ready to roll those out June 1, and we're excited about 
it and so is the Fire Service.
    As requested by the President's budget in 2004, the Office 
for Domestic Preparedness of the Border and Transportation 
Security Directorate of the Department of Homeland Security 
will manage the fire grant program to offer one-stop shopping 
for grants in the new department. FEMA and I, personally, 
commit that we will work with the Office of Domestic 
Preparedness to ensure the continued success of this vital 
program. This program is vital to the Fire Service.
    For more than 20 years, the United States Fire 
Administration has trained millions of first responders as 
fire, law enforcement, public health, public works people. 
We've trained emergency managers, government officials, school 
administrators, and citizens on how to prepare, respond, and 
recover in all type of disasters. In 2002 alone, we conducted 
over 600 courses and have reached over 250,000 responders from 
the National Fire Academy and Emergency Management Institute. 
And this training was done for all hazards, not just terrorism.
    We provide training through various methods. We do resident 
training. We train 16,000 people a year at the campus at 
Emmitsburg. We do independent study courses through our 
relationships with States and through several distance-learning 
efforts with several colleges and universities. Emergency 
responders, firefighters, emergency managers, and others who 
have taken courses at EMI and at NFA have told us these courses 
have added value to their job performance and professional 
development. The fire chiefs tell us that they have seen a 
significant increase in performance in their departments when 
their students come back from these classes.
    The survey also indicated, and I think it's important, that 
95 percent of the skill sets necessary to conduct support for a 
WMD or a terrorism catastrophic event are already being taught 
at the National Fire Academy with the existing curriculum.
    One of the new developmental programs we're working on is 
to prepare for regional incident management teams that will be 
hosted by the metropolitan fire chiefs around the country and 
will provide support for major incidents. They'll either be 
there prior to or in lieu of Federal incident management teams. 
This provides quicker response capabilities while building 
national capability and regional capability for our country.
    We also focus on data collection. The Fire Administration 
continues to collect, analyze, and publish data in fire 
prevention, occurrence of fires, and control of related fields. 
We work to define and describe the national fire problem, and 
we support the State and local collection of analysis of fire 
data.
    This past fall, in cooperation with the National Fire 
Protection Association, the United States Fire Administration 
completed a needs assessment for the U.S. Fire Service so we 
could gain an understanding of the fire problem area and to 
guide future planning and initiatives. There were no surprises 
in this report that came out from the NFPA. It pretty much 
mimicked what we're learning with the fire grants through our 
applications, that the fire departments in this country need 
basic firefighting gear, and they lack that, and we're working 
hard to continue to provide funds to do that.
    In our research technology area, we work with groups like 
NIST, sitting here along side of me, our partners in developing 
our emergent needs, and also doing testing on existing 
equipment. We also leverage partnerships and technology 
developments to improve fire prevention and promote public 
safety. One example is our partnership with the fire-sprinkler 
community, to re-energize advocacy for residential fire 
sprinklers. Our data shows that localized fire sprinklers, just 
in kitchens, would dramatically reduce the number of civilian 
deaths in this country by as much as 25 percent, and it's an 
excellent opportunity to reduce residential fire loss in the 
U.S. as well as firefighter death and injuries, since 40 
percent of our firefighter deaths in the line of duty occur en 
route to residential fires.
    In closing, we also focus on public awareness. We think 
it's extremely important that the public knows what's going on. 
We do this in CERT programs and through public awareness 
initiatives for our communities. Citizens learn not only to 
respond to others, but also learn how to protect themselves.
    Since 1974, when Congress passed the Federal Fire 
Prevention Control Act and established the United States Fire 
Administration and its National Fire Academy, the United States 
Fire Administration has helped reduce fire deaths 
significantly. Over the last 10 years, fires have declined by 
16 percent, and there's a 22 percent decline in civilian 
deaths, and a 31 percent drop in civilian injuries. But it's 
not enough. We are committed to continue to see this drop. We 
want to end up with zero fire deaths in this country, like we 
should have, and zero deaths of our firefighters.
    Mr. Chairman, thank you very much for allowing me to have 
the opportunity to speak today, and I'm here to answer any of 
your questions.
    [The prepared statement of Mr. Paulison follows:]

 Prepared Statement of Hon. R. David Paulison, Director, Preparedness 
      Division, Emergency Preparedness and Response Directorate, 
                    Department of Homeland Security
    Good Morning, Mr. Chairman and Members of the Committee. My name is 
R. David Paulison. I am the Director of the Preparedness Division in 
the Emergency Preparedness and Response Directorate of the Department 
of Homeland Security. I appreciate the opportunity to appear before you 
today on behalf of Secretary Ridge.
    Each year, fire injures and kills more Americans than the combined 
losses of all other natural disasters. Death rates by fire in the 
United States are among the highest in the industrialized world. The 
U.S. Fire Administration's mission to reduce loss of life and property 
because of fire and related emergencies is a sobering challenge, but 
also a hopeful challenge, since most of these deaths are preventable.
    As a part of DHS, the staff works diligently to prevent these 
deaths, injuries, and the damage to property through leadership, 
advocacy, coordination and support in four basic mission areas: fire 
service training, public education and awareness, technology and 
research, and data analysis.
    To accomplish this mission, we work with the fire service, other 
emergency responders and state and local governments to better prepare 
them to respond to all hazards, including acts of terrorism. We are 
also listening to State and local governments, and working with private 
industry, to provide standardized, practical, compatible equipment that 
works in all possible circumstances. We are assisting first responders 
and emergency managers practice and refine their response plans with 
partners at the local, State and Federal level. We will continue to 
provide training and education programs to prepare for the routine 
hazards as well as the emergent threats posed by WMD and terrorist 
incidents.
    Today, I will focus my remarks on the U.S. Fire Administration, its 
programs and services, how to improve the preparedness and 
effectiveness and safety of our first responders, and summarize our 
current activities and future needs.
Accomplishments
    The U.S. Fire Administration is a national leader in fire safety 
and prevention and in preparing communities to deal with fires and 
other hazards. USFA is working to support the efforts of local 
communities to reduce the number of fires and fire deaths and it 
champions Federal fire protection issues and coordinates information 
about fire programs.
    In terms of our preparedness programs, we recognize the importance 
of training as a vital step toward a first responder community that is 
prepared to respond to any kind of emergency, ranging from a small fire 
to a terrorist attack involving a large number of victims. We continue 
to administer training and education programs for community leaders and 
first responders to help them prepare for and respond to emergencies 
regardless of cause or magnitude. We also provide equipment, vehicles, 
and training and wellness programs through our Assistance to 
Firefighter Grant program to help first responders perform their 
duties.
    This year, Congress appropriated $750 million for USFA to provide 
grants directly to fire departments to build their basic response 
capabilities for all types of emergencies, including suppressing fires. 
This brings our total funding for this grant program to a little over 
$1 billion since the program began three years ago. This benefits the 
community as a whole and benefits other first responder entities by 
building the base capabilities of local fire departments to respond to 
all types of incidents.
    FEMA also continues to provide training in emergency management to 
our firefighters, law enforcement, emergency managers, healthcare 
workers, public works, and state and local officials, at our Emergency 
Management Institute. I would like to give you a few more details about 
these and other USFA activities.
Assistance to Firefighters Grant Program
    The Assistance to Firefighters Grant program provides competitive 
grants to address training, safety, prevention, apparatus, personal 
protective gear and other firefighting equipment needs as well as 
wellness and fitness issues of local fire departments. We have 
streamlined the online application process for fire grants and sped up 
the flow of resources to first responders, while ensuring that the 
funds are used effectively and appropriately. In 2001 and again in 
2002, we received nearly 20,000 applications from fire departments 
across the country. Beginning with the 2001 Grant Program, the 
Emergency Education NETwork (EENET) broadcast valuable information on 
the grant programs and process. Prior to the application period in 
2003, EENET broadcast an actual applicant workshop, which was 
rebroadcast six times during the application period. We heard from many 
organizations that this eased the application process. The 2003 
application process closed on April 11 and again we received nearly 
20,000 applications. We expect to distribute those funds to successful 
applicants beginning in June 2003.
    In 2004, the Office for Domestic Preparedness in the Border 
Transportation and Security Directorate of DHS will manage the fire 
grants program to offer one-stop shopping for grants in the new 
Department. EP& R will work closely with ODP to ensure the continued 
success of this vital program.
Fire Service Training
    The National Fire Academy (NFA) and the Emergency Management 
Institute (EMI) offer a wide variety of training programs to promote 
the professional development of command level firefighters, emergency 
managers, emergency responders and technical staff. Fire departments 
will continue to receive training to respond to terrorist attacks from 
the Department of Homeland Security in addition to training to respond 
to other hazards, such as chemical accidents, floods, or hurricanes. We 
will continue to develop policy, procedures and training for a cadre of 
structural firefighters that will be identified by States in wildland 
fire threat zones.
    One training program under development is to prepare regional 
Incident Management Teams (IMT) to provide support for major incidents 
prior to, or in lieu of, the arrival of a Federal IMT. Simultaneously, 
we are developing the training for the Federal Incident Management 
Teams Program.
    In 2002, EMI conducted 278 resident training activities for 8,968 
students; participants also completed 143,000 EMI independent study 
courses. The National Fire Academy held 340 residential classes for 
7,860 students and provided training to another 87,265 through 
outreach, regional and direct deliveries, distance learning efforts 
with several colleges and universities and on-line training efforts. A 
curriculum review for the National Fire Academy curriculum is scheduled 
for FY 2004 and we expect to see those results by 2005.
    Emergency responders, firefighters, emergency managers and others 
who have taken courses at EMI and NFA have told us these courses have 
added value to job performance and professional development. In fact, 
surveys conducted in FY 2000 and 2001 revealed that our student's 
supervisors have reported an 88 percent improvement in the student's 
job performance following training. Ninety-three percent report that 
EMI and NFA training have contributed to the student's professional 
development and almost 87 percent report that the training has improved 
the department's performance.
    State and local support of fire service training must be increased 
and the federal role is to foster that participation. In the future 
USFA will:

  <bullet> Coordinate the exchange of training materials and 
        information among State and local fire training systems;

  <bullet> Focus on distance learning and alternate training delivery 
        methods such as the National Incident Simulation and Training 
        network; independent study programs and computer-based courses;

  <bullet> Increase the number of Integrated Emergency Management 
        Courses with bio-terrorism scenarios aimed at bringing 
        officials of local jurisdictions together to simulate and 
        critique their responses to terrorism-driven events;

  <bullet> Revise training courses to include the most updated 
        information on risk management, public fire safety education 
        and emergency response;

  <bullet> Partner with associate and bachelor degree programs to align 
        the national academic fire curricula; and

  <bullet> Include multiple delivery formats in future course 
        development so that the nexus of the course may be provided to 
        the field in a variety of adaptable formats.

    During 2002 and early 2003, the USFA held summit meetings in the 
FEMA regions looking for information that defined the needs of the 
first responder community in the new environment that included WMD and 
terrorism preparation and response. Our staff also met with focus 
groups, course developers, and students at the National Emergency 
Training Center for the same purpose. Without exception every outcome 
was the same. Each group identified the skill sets necessary to conduct 
or support a WMD or terrorism catastrophe. Over 95 percent of those 
skills are already being taught in the existing curriculum and courses. 
The message is very clear. We need to:

  <bullet> Continue teaching the curriculum we have on hand;

  <bullet> Update our course materials regularly to reflect emerging 
        issues;

  <bullet> Increase the number of courses available to the first 
        responder community; and

  <bullet> Continue to maximize learning opportunities for all first 
        responders.

    During the past year, the importance of working directly with the 
emergency management, fire service and EMS communities has become even 
more apparent. It is critical that we keep the most likely first 
responders to any terrorism or WMD event fully advised of information 
and circumstances that might affect their response and their 
community's preparation. Partnering with the law enforcement community 
has enhanced our ability to deliver direct warnings that will result in 
improved operations and better outcomes. We look forward to continuing 
our partnership in critical infrastructure protection.
Public Education and Awareness
    USFA continues to deliver fire safety messages to those most 
vulnerable to fire--the very young, the elderly and others. We will 
continue to manage Emergency Response Team activities with an eye 
toward public outreach and community hazards assessment and mitigation 
efforts. USFA will assist communities in establishing Community 
Emergency Response Teams.
    We will continue to broadcast training information via the 
Emergency Education Network (EENET) twice a month to enhance State and 
local preparedness for all hazards, including terrorist incidents. 
Since 1981, EENET has broadcast more than 400 programs to meet the 
needs of all levels of emergency management, from volunteer fire 
fighters to State Emergency Management Directors.
    EENET is an effective way to get timely information or training out 
to a large audience. Coupled with other outreach and training programs, 
EENET is a good way to share information about training and education 
and to keep first responders abreast of emerging issues.
Data Collection
    The Fire Administration continues to collect, analyze, publish and 
distribute data and information related to fire prevention, occurrence, 
control, and related fields; defines and describes the national fire 
problem; and supports State and local collection and analysis of fire 
incident data.
    This past fall, in cooperation with the National Fire Protection 
Association, the USFA completed a needs assessment of the U.S. fire 
service to gain a current understanding of problem areas and to guide 
future planning and initiatives. Combined with the ongoing national 
fire department census, we continue to develop an increasingly complete 
and accurate picture of the nation's fire departments' capability to 
meet the challenge of expanding roles and responsibilities in response 
to all hazards, including acts of terrorism.
Research and Technology
    USFA leverages research partnerships and technology developments to 
improve fire prevention and promote public safety. In April, the USFA 
met with the fire sprinkler community to reenergize our advocacy for 
residential fire sprinklers. I am happy to report that industry agreed 
to work with USFA on this project. Data suggest that localized fire 
suppression systems in kitchens would dramatically reduce the number of 
civilian fire deaths in this country by as much as 25 percent. The cost 
to retrofit a kitchen is minimal. This is an excellent opportunity to 
reduce residential fire losses in the U.S. Since 40 percent of 
firefighter deaths in the line of duty occur at or en route to 
residential structures; the long-term, benefit is that firefighter 
injuries and deaths will also be reduced.
Challenges
    Reducing the loss of life and property caused by fire remains a 
significant challenge. Each year, fire kills more than 4,000 people and 
injures more than 22,000. Annual property losses due to fire are 
estimated at nearly $10 billion. And, firefighters pay a high price. In 
2002, 102 firefighters died while on duty. These losses are 
unacceptable because most can be prevented.
    While the numbers are still too high, great progress is being made 
to reduce the toll from fires. Since 1974, when Congress passed the 
Federal Fire Prevention and Control Act (P.L. 93-498), and established 
the United States Fire Administration and its National Fire Academy--
USFA has helped to reduce fire deaths significantly. Over the last 10 
years, fires have declined by 16 percent. During this same period, a 22 
percent decline in civilian deaths and a 31 percent drop in civilian 
injuries were also reported.
Conclusion
    Thank you, Mr. Chairman, for giving me this opportunity to appear 
before you today. Your continued support is greatly appreciated. I will 
be glad to answer any questions you and other Members of the Committee 
may have.

    The Chairman. Thank you very much.
    Mr. Bement, let's talk about interoperability again, which 
is obviously one of the most compelling difficulties that our 
firefighters and enforcement agencies face. Can you tell us a 
little bit about what NIST has been able to uncover on that and 
recommend?
    Mr. Bement. Yes, sir. We have responded in many ways. One 
is developing summits and workshops to better understand the 
needs for new standards and also to determine how our programs 
complement programs among other Federal agencies. We, of 
course, are actively involved with NTIA in their spectrum 
allocation program in order to better understand how that can 
be improved, but we're also working with industry and the 
standards organizations in evaluating new-generation land 
mobile radio systems, new broadband technology and also cross-
switching technology that will operate among the various bands 
that are currently available. We are also looking at a future 
generation of radio technology such as software-defined radio 
that will be much more interoperable and will provide a 
comprehensive solution to the current problems.
    That's fundamentally what we're engaged in. We're looking 
at both short-term and long-term solutions. We're providing 
test beds for industry to come and evaluate their technology. 
We're working with them through CRADAs and other mechanisms to 
bring new technology into the marketplace.
    The Chairman. Well, we appreciate your work, and I don't 
have to tell you how important this issue is. It's been 
graphically demonstrated quite frequently, and not the least of 
which was during 9/11.
    Chief Paulison, I won't ask you to comment on Congressman 
Weldon's recommendation that we preserve the position of U.S. 
Fire Administrator, because now you've become part of the 
bureaucracy.
    [Laughter.]
    The Chairman. How long have you been in your job?
    Mr. Paulison. Eighteen months, sir.
    The Chairman. In 18 months, what are the two things that 
you think you've most accomplished and the two things that you 
think we need to focus attention on, including from a 
congressional standpoint?
    Mr. Paulison. I think that the Fire Grant process is 
probably one of our most significant accomplishments. We are 
very proud of how we've operated that grant program, and it's 
due primarily to the Fire Service itself. Right now we have a 
hundred firefighters at Emmitsburg going through those grants, 
and we had a hundred last week, and we'll have a hundred next 
week. These are people who volunteer their time to come in and 
assist us. And the grants go directly to the fire departments. 
And it's been a tremendously successful program.
    I think the other accomplishment is raising the awareness 
of the Fire Administration and what we're capable of doing and 
just raising the initiative of the Fire Service itself.
    Some of the issues that you've already talked about, the 
interoperability, you know, as the preparedness director, I'm 
also in charge of administering the interoperability grants 
that we have, and those will be going out in probably the 
first--next month we'll be getting those out to some of those 
cities to develop some best practices, because there is no one 
solution to radio interoperability. But interoperability goes 
much, much further than just radios. Our equipment also is not 
interoperable.
    Coming from Miami, I'm a scuba diver, and I can take my 
diving regulator anywhere in the world and rent a scuba tank 
and it always fits. But our air bottles from one air-pack 
manufacturer to another are not interoperable. I was a general 
contractor in Florida also, and I can go to Home Depot and buy 
a stack of saw blades, and it doesn't matter whether I have a 
Skil saw or if I have a Makita or a Homelite or any other saw, 
they always work. And our air compressors that we buy 
commercially, I can rent one in Florida and drag it to Seattle 
and rent a jackhammer and it always fits, but our hydraulic 
tools are not interoperable.
    Regarding our communications system on scene, we saw what 
happened in several major incidents in this country where we 
get on the scene and we have a police command post and a fire 
command post, and the Government has a command post, and the 
mayor has a command post, and on down the line, and we don't 
talk to each other. So part of interoperability is also our 
setting up an incident command system where we talk to each 
other and we work with each other and we work out of the same 
command post. And all those things are interoperability issues, 
and those are the things we've been dealing with the Fire 
Service on, and that's why you see such a crowd behind us, 
because these are the issues that you're going to hear from 
them. I think those are the two big accomplishments that I'm 
proud of and things that we need to continue.
    The Chairman. Thank you. And we appreciate your efforts, 
Mr. Bement. And I also am keenly aware that spectrum management 
is an issue of congressional action, and we have had hearings 
and we are proposing legislation, and it's a lot more difficult 
than it should be, probably, because of the incredible value 
that's associated with the use of this spectrum, and there's 
this continuous tension between the reservation of spectrum for 
emergency and fire and defense purposes, as opposed to the 
commercial use of it. But I think we're making some progress in 
sorting that out.
    I thank you both. I appreciate you being here. I thank you 
for your good work. And, Chief, you should come out to Arizona 
and visit us. It's much nicer than the weather in Miami, we 
think.
    [Laughter.]
    The Chairman. Come and see out there, OK?
    Mr. Paulison. I think the last time I was out there, you 
had a significant amount of fires.
    [Laughter.]
    The Chairman. That's right.
    Thank you. Thanks, again.
    Congressman Camp is here, and he would like to say a few 
words, and then we will have our next panel.
    Congressman Camp, thank you for joining us. Thank you for 
your advocacy, and thank you for your great work----
    Mr. Camp. Well, thank you.
    The Chairman.--for this worthy cause.

                 STATEMENT OF HON. DAVE CAMP, 
               U.S. REPRESENTATIVE FROM MICHIGAN

    Mr. Camp. Well, thank you, Mr. Chairman, for allowing me to 
testify before your Committee. And, obviously, this subject has 
taken greater importance since September 11, and I really 
congratulate you for convening today's hearing. America's 
firefighters are taking on heightened responsibilities that go 
beyond combating fires, and today our first responders must 
plan for possible acts of terrorism.
    Mr. Chairman, I've introduced the House companion bill to 
the bill that you have introduced in the Senate, the 
Firefighting Research and Coordination Act. I believe this 
legislation will help address current policy questions on how 
the Federal Government can most effectively provide 
firefighters with training and equipment necessary to protect 
lives. And, in my view, this bill gives appropriate weight to 
top fire-service needs; more specifically, supporting the 
development of voluntary consensus standards for firefighting 
equipment and technology, establishing nationwide and state 
mutual aid systems for dealing with national emergencies, 
authorizing the National Fire Academy to train firefighters to 
respond to acts of terrorism and other national emergencies.
    The first objective of the bill focuses on establishing 
equipment and technology standards, and it would allow the U.S. 
Fire Administrator, in consultation with the National Institute 
of Standards and Technology and other such organizations to 
develop voluntary consensus standards for evaluating the 
performance and compatibility of new firefighting technology, 
such as personal-protection equipment, devices for advance 
warning, equipment for enhanced vision, other types of new 
technology. Equipment purchased under the assistance of the 
Firefighters Grant Program must meet or exceed these voluntary 
consensus standards.
    The second objective of the bill addresses what is called 
mutual aid systems or mutual aid compacts, which have been 
widely acknowledged to be an effective and efficient means of 
sharing emergency management resources among different 
jurisdictions. Federal support for mutual aid could better 
prepare States and localities for all types of disasters, 
including acts of terrorism. This bill directs, again, the U.S. 
Fire Administrator, in consultation with the Director of FEMA, 
to provide technical assistance and training to State and local 
Fire Service officials to establish these mutual aid systems 
for responding to national emergencies. Obviously, an important 
example of that comes, in part, as a result of our responses to 
the September 11 attacks.
    The third objective of the Act permits the Superintendent 
of the National Fire Academy to coordinate with other Federal, 
State, and local officials in developing the curricula of the 
academy. New training courses would focus on building collapse 
rescue, the use of technology in response to fires, terrorists 
incidents, and other national emergencies, and strategies for 
dealing with terrorist-caused national catastrophes.
    Last December, the National Fire Protection Association 
released its needs assessment of the U.S. Fire Service Report 
that had some pretty sobering statistics on fire personnel and 
their current capabilities. And obviously, the continued 
emphasis on formal training in the duties they perform is 
essential. This legislation has wide support, as you've heard, 
from the Nation's fire groups.
    Again, I want to thank you for your leadership and allowing 
me to testify today and also thank you for all the efforts that 
you've made in this area for a very long time.
    Thank you for the opportunity.
    [The prepared statement of Mr. Camp follows:]

Prepared Statement of Hon. Dave Camp, U.S. Representative from Michigan
    Mr. Chairman, I appreciate the opportunity to testify before the 
Committee on a subject that has taken on added importance since the 
September 11th terrorist attacks. I applaud your decision to convene 
today's hearing on ``Needs of the Fire Services.'' America's fire 
fighters are taking on heightened responsibilities that go beyond 
combating fires. Today, our first responders must plan for and respond 
to possible acts of terrorism.
    This morning's hearing comes at an appropriate time for the fire 
services. As the U.S. Fire Administration settles into the newly 
created Department of Homeland Security, the Administration and 
Congress are examining which policy approaches can best meet the 
growing needs of the fire services, particularly during this 
transitional period. Mr. Chairman and members of the Committee, I would 
like to submit an approach that I believe yields significant benefits 
to our nation's firefighters.
    Mr. Chairman, as you know, I have introduced the House companion to 
a bill you introduced in the Senate, the Firefighting Research and 
Coordination Act, H.R. 545. I believe this legislation will help 
address current policy questions on how the federal government can most 
effectively provide firefighters with the training and equipment 
necessary to protect lives. In my view, the Firefighting Research and 
Coordination Act gives appropriate weight to top fire service needs. 
More specifically, the bill seeks to:

        1. Support the development of voluntary consensus standards for 
        firefighting equipment and technology;

        2. Establish nationwide and State mutual aid systems for 
        dealing with national emergencies, and;

        3. Authorize the National Fire Academy to train firefighters to 
        respond to acts of terrorism and other national emergencies.

    In large part, the genesis of the Firefighting Research and 
Coordination Act came after the September 11th attacks. After the 
tragic events of that day, fire departments throughout America began to 
grapple with new concerns over how to best train for and respond to 
terrorist acts. The needs of the fire service continue to grow as new 
threats emerge. As a result, Congress has a responsibility to assist 
and protect our firefighters. That is the goal of the Firefighting 
Research and Coordination Act.
    As mentioned, the first objective of the bill focuses on 
establishing equipment and technology standards. It would allow the 
U.S. Fire Administrator, in consultation with the National Institute of 
Standards and Technology, national voluntary consensus standards 
development organizations, and other interested parties to develop 
voluntary consensus standards for evaluating the performance and 
compatibility of new fire fighting technology. Examples of new 
technologies include: personal protection equipment, devices for 
advance warning of extreme hazard, equipment for enhanced vision, and 
robotics and other remote-controlled devices, among others. Equipment 
purchased under the Assistance to Firefighters grant program must meet 
or exceed the voluntary consensus standards.
    Establishing standards for firefighting equipment and technologies 
will help safeguard the lives of firefighters. At present, 
manufacturers of emergency equipment can sell their products with no 
government testing or certification requirements to ensure their 
product meets the needs of firefighters. A January 2003 Consumer 
Reports article entitled, ``Safeguards Lacking for Emergency 
Equipment,'' highlights the problems associated with a lack of 
standards. The article reports ``Firefighter organizations, which also 
represent most of the nation's emergency medical technicians, say they 
worry that there is no law that requires fire departments to buy 
equipment certified for use against chemical or biological agents.''
    The second objective of the bill addresses mutual aid systems. 
Mutual aid compacts are widely acknowledged to be an effective and 
efficient means of sharing emergency management resources among 
different jurisdictions. Federal support for mutual aid could better 
prepare states and localities for all types of disasters, including 
acts of terrorism. The Firefighting Research and Coordination Act 
directs the U.S. Fire Administrator, in consultation with the Director 
of Federal Emergency Management Agency (FEMA), to provide technical 
assistance and training to state and local fire service officials to 
establish nationwide and state mutual aid systems for responding to 
national emergencies. An important example of why model mutual aid 
systems are important to establish comes in part, as a response to the 
September 11th attacks and also to wildfires that have raged in the 
western United States.
    As this Committee noted in its November 18, 2002 report 
accompanying the Firefighting Research and Coordination Act, the Titan 
Systems Corporation issued a report on July 23, 2002, on behalf of the 
Arlington County, Virginia fire department. The report found that self-
dispatching fire and emergency crews were favorable in some respects, 
but were also detrimental. For example, the report states that the 
Arlington County fire department ``faced the monumental challenge of 
gaining control of the resources already onsite and those arriving 
minute-by-minute.'' The report goes on to say that, ``firefighters and 
other personnel came and went from other Pentagon entrances with little 
or no control. Thus, had there been a second attack, as occurred at the 
World Trade Center, it would have been virtually impossible for the 
Incident Commander to determine quickly who might have been lost.''
    Another example of why model mutual aid plans are important comes 
from the Telecommunications Industry Association (TIA)'s 2001 Annual 
Report. On September 11th, approximately 50 public safety agencies 
responded to the attack on the Pentagon resulting in 900 radio users 
attempting communications with various mission requirements to 
consider. The report details how initially, local first responders 
experienced no difficulty in establishing an interoperable 
communications system. But, as the number of secondary responders 
increased at the site, direct interoperability between the first and 
secondary responders was unavailable.
    The third objective of the Firefighting Research and Coordination 
Act permits the Superintendent of the National Fire Academy to 
coordinate with other Federal, State, and local officials in developing 
curricula for classes offered by the Academy. Over one million students 
have received training at the National Fire Academy. Since its 
inception in 1975, the Academy has helped firefighters gain vital 
education and training to the benefit of the American public. Its 
online courses and cooperation with local collages and universities 
expand the reach of the Academy to thousands of firefighters across the 
nation.
    With the nation recovering from acts of terrorism, engulfing 
wildfires, and the possibility of future national emergencies, 
America's firefighters deserve nothing less than quality educational 
opportunities and training to prepare for these disasters. We saw with 
the World Trade Center that building collapse rescue is a critical 
component of a firefighters job. In a December 1, 2001 article that 
appeared in Fire Chief magazine, a member of the Michigan Urban Search 
and Rescue team stated that while the federal government has spent 
millions of dollars to train local first responders with weapons of 
mass destruction, little if any focus has been placed on building 
collapse rescue. ``For some time now, I have advocated that every state 
should have a structural-collapse response that includes a Urban Search 
and Rescue task force system,'' stated the Michigan firefighter.
    The Firefighting Research and Coordination Act authorizes the Fire 
Academy to conduct new types of training in: building collapse rescue, 
the use of technology in response to fires; including terrorist 
incidents and other national emergencies; strategies for dealing with 
terrorist-caused national catastrophes; and applying new technology and 
developing strategies and tactics for fighting forest fires.
    Last December the National Fire Protection Association released its 
``Needs Assessment of the U.S. Fire Service'' report that included 
sobering statistics on fire personnel and their current capabilities. 
An estimated 233,000 firefighters are involved in structural 
firefighting but lack formal training in those duties. Similarly, an 
estimated 40 percent of fire department personnel involved in hazardous 
material response lack formal training in those duties. The 
Firefighting Research and Coordination Act aims to reduce these 
alarming statistics.
    Finally, I want to mention that this legislation enjoys wide 
support among many of this nation's fire groups including the 
Congressional Fire Services Institute, International Association of 
Fire Chiefs, International Association of Fire Fighters, and many 
others prominent fire organizations.
    Thank you again Mr. Chairman for the opportunity to testify before 
the Committee.

    The Chairman. Thank you very much for taking time from your 
very busy schedule to come and join us. Your support and 
efforts are important, and I look forward to continuing to work 
with you and Congressman Weldon. And I thank you very much.
    Mr. Camp. I noticed when you were discussing the weather, 
nobody mentioned Michigan.
    [Laughter.]
    Mr. Camp. But we're starting to move into our good season.
    The Chairman. I have great affection for your State. And I 
thank you very much.
    Mr. Camp. Yes, you do.
    The Chairman. Thanks for coming.
    Mr. Camp. Thank you.
    The Chairman. Our next panel is Chief Randy R. Bruegman, 
the president of the International Association of Fire Chiefs; 
Mr. Kevin O'Connor, assistant to the general president for 
government and public relations, International Association of 
Fire Fighters, AFL-CIO-CLC; the Honorable James M. Shannon, 
president and chief executive officer, National Fire Protection 
Association; and Chief Philip C. Stittleburg, who is the 
chairman of the National Volunteer Fire Council.
    Welcome, gentlemen. Thank you for taking your time.
    Is that the proper pronunciation, Chief Bruegman?
    Mr. Bruegman. Yes, thank you.
    The Chairman. Thank you. Thank you all for coming, and 
we'll begin with you, Chief Bruegman. And if you'll pull that 
microphone over so that the stenographer can--Mr. Bruegman: 
Thank you.

   STATEMENT OF RANDY R. BRUEGMAN, PRESIDENT, INTERNATIONAL 
                   ASSOCIATION OF FIRE CHIEFS

    Mr. Bruegman. Good morning, Mr. Chairman, and Members of 
the Committee.
    I'm Randy Bruegman, chief of Clackamas County Fire District 
Number 1, located just outside of Portland, Oregon. I appear 
this morning as president of the International Association of 
Fire Chiefs, which represents the leaders and managers of the 
American Fire Service consisting of more than 30,000 fire 
departments staffed by 1.1 million firefighters and emergency 
medical personnel.
    America's fire and emergency service is the only organized 
group of citizens situated in local communities throughout this 
Nation like a fabric across this land, trained and equipped to 
deal with all risks and hazards, both natural and manmade.
    I'd like to talk about several issues of importance to us 
this morning, and the first is the Assistance to Firefighter 
Grant Program. I think one of the most important relationships 
between the Fire Service and the Federal Government is the 
Assistance to Firefighter Grant Program, better known as the 
FIRE Act, and you've heard it spoken to several times this 
morning. I come before you today to ask for your help in 
securing its future.
    The FIRE Act has been called, by both congressional and 
administration officials, one of the very best Federal grant 
programs, and we totally agree with that. And there are good 
reasons for its success. And I think Chief Paulison outlined 
several of those.
    First, when you apply for a grant, the fire chief must 
clearly define that he or she has an urgent need. The 
application is subject to a rigorous peer review by Fire 
Service representatives. And, third, a department, before it's 
awarded a grant, the community must agree to a significant co-
payment, and this assures local governmental buy-in. And, 
finally, the Federal funds cannot supplant funds from the local 
government; they are supplemental only.
    The hallmark of the FIRE Act is that funds go directly to 
the local fire department for the intended purpose in a timely 
manner without being diminished or diverted. That's a Federal 
success story that I think our taxpayers can be very, very 
proud of.
    But, as noted several times this morning, we see problems 
ahead. The President's budget proposal for fiscal year 2004 
recommends $500 million in funding for the FIRE Act, and it 
also moves the program from the U.S. Fire Administration to the 
Office for Domestic Preparedness. This transfer is proposed in 
accordance with section 430 of the Department of Homeland 
Security Act, which states, ``The Office for Domestic 
Preparedness shall have the primary responsibility for the 
preparedness of the United States for acts of terrorism.''
    Mr. Chairman, I bring your attention to the authority for 
the FIRE Act, which originated in this Committee and is found 
in section 33 of the Federal Fire Prevention and Control Act of 
1974. That law states that the Director of FEMA shall make 
grants for the purpose of protecting the health and safety of 
the public and firefighting personnel against fire and fire-
related hazards and provide assistance for fire-prevention 
programs.
    Mr. Chairman, the FIRE Act was not designed or intended for 
the sole purpose of enhancing terrorism response. The FIRE Act 
was structured to assist communities to better prepare for all 
risks and all hazards, one which could be an act of terrorism. 
We ask for your assistance from this Committee to keep the FIRE 
Act at the U.S. Fire Administration where it has been so 
successfully managed.
    Second point, Fire Service presence in the Department of 
Homeland Security. We have a very serious concern from the 
leaders of this industry, the Fire Service industry. The 
emergency services--the continued reduction of our presence in 
the Department of Homeland Security is not being addressed. Our 
concern about the FIRE Act, the recent elimination of the U.S. 
Fire Administrator of the U.S. Fire Administration, the 
cancellation, as has been noted several times, of a significant 
number of Fire Academy classes, is of real concern to us.
    The creation of the new Department of Homeland Security is 
a process by which the International Association of Fire Chiefs 
and the Fire Service community supported, and we still do, to 
this day. This new department has the potential to provide 
great advancement for the first responder community. 
Unfortunately, we have reasons to be concerned about the 
representation the Fire Service has in this whole process.
    This Committee understands the important role of the 
American Fire Service and the Emergency Service and the first 
responder community as it relates to major disasters, natural 
or manmade. We ask that you support our request for a voice at 
DHS that is appropriate and proportionate to the Fire Service 
contribution to homeland security and the safety of our 
communities throughout this country.
    HazMat placarding. Recently, we've learned that the 
Department of Homeland Security may seek to substantially 
change or even eliminate the current placarding system for the 
transportation of hazardous materials. America's Fire Service, 
the primary provider of HazMat response in the U.S., relies 
upon the current placarding system to quickly assess a HazMat 
incident and initiate appropriate and effective response. This 
rapid assessment is critical to protecting nearby residents as 
well as the response team from potentially serious effects of a 
HazMat incident. In the absence of a proven replacement system, 
dismantling the current placarding system would be a 
significant mistake that would have serious ramifications for 
the safety of America's communities.
    It appears that DHS is able to issue these regulations 
under emergency regulatory authority vested in the head of the 
Transportation Security Administration that precludes the 
normal notice and review process. These regulations could take 
effect with no outside notice other than consultation with the 
Secretary of Transportation and then a review by the 
Transportation Secretary Board, which is comprised solely of 
Cabinet-level officials from the administration. There's no 
opportunity for oversight or input from Congress or the 
American public. Mr. Chairman, the IAFC and the American Fire 
Service are very concerned about that situation.
    Communications. And you've noted it so aptly in your 
opening remarks. One of the most persistent problems that 
plagues every large-scale emergency response is the issue of 
communication interoperability. Fortunately, Senator McCain, 
your Committee has jurisdiction over this legislation. It 
represents a significant step forward in addressing this for 
us.
    In 1997, the Congress set aside 24 megahertz of radio 
spectrum for public safety agencies. This spectrum is currently 
used by TV channels 63, 64, 68, and 69. Congress directed that 
transfer to the public safety be completed by December 31 of 
2006, conditional on digital television rollout reaching 85 
percent of the American households. Presently, only 1 percent, 
as you are well aware, have digital TVs; and, therefore, that 
rollout doesn't seem to be actually moving forward as we 
anticipated.
    I see I'm running out of time, so I'm going to go ahead and 
end my comments this morning with just a brief thank you for 
your legislation that you've proposed for the transfer of 
technology to the Fire Service. It's extremely important.
    I will end by saying this, Mr. Chairman. We appreciate the 
support that you have given to the American Fire Service. We 
appreciate the support and the understanding that you have 
about the role and responsibility that we have for the safety 
of our citizens, not only at the local level, but from a 
national perspective, as well.
    We have a saying in the Fire Service--or it's not a saying, 
but it's noted, as terminology called ``first due.'' And it 
talks about--``first due'' denotes the companies that are 
dispatched to an alarm and are first to arrive.
    And, Mr. Chairman, I would propose to you today that, in 
the arena of homeland security, we are ``first due.'' The Fire 
Service will be the first to arrive and, in many cases, the 
last to leave. And it will be our efforts during the first 15 
to 30 minutes to hours of a significant incident in this 
country that will dictate the outcome of that incident and will 
dictate the psychological impact and the economic impact in 
this country. We have to be recognized for the role that we 
play in homeland security and the protection of the homeland 
within our geographic borders. And I hope that, with your 
support in the future, we can address several of the concerns 
that we noted this morning.
    Thank you.
    [The prepared statement of Mr. Bruegman follows:]

   Prepared Statement of Randy R. Bruegman, President, International 
                       Association of Fire Chiefs
    Good morning Mr. Chairman and Members of the Committee. I am Randy 
Bruegman, Chief of Clackamas County Fire District No. 1 located outside 
Portland, Oregon. I appear this morning as the president of the 
International Association of Fire Chiefs which represents the leaders 
and managers of America's fire service. The fire service consists of 
about 30,000 fire departments staffed by 1.1 million firefighters and 
emergency medical personnel. America's fire and emergency service is 
the only organized group of citizens situated in local communities 
throughout the nation--like fabric across the land--trained and 
equipped to deal with all risks and all hazards both natural and 
manmade.
The Fire and Emergency Service Community
    America's fire and emergency service is the only organized group of 
citizens situated in local communities throughout the nation trained 
and equipped to deal with natural and manmade disasters. Fire 
departments respond to all risks, all hazards ranging from earthquakes, 
hurricanes, tornadoes and floods, to acts of terrorism, hazardous 
materials incidents, technical rescues, fires, and medical emergencies.
    The fire service protects America's critical infrastructure--the 
electrical grid, interstate highways, railroads, pipelines, petroleum 
and chemical facilities--and is, in fact, even considered part of the 
critical infrastructure. The fire service protects most federal 
buildings, provides mutual aid to most military bases, and protects 
interstate commerce. No passenger airliner takes off from a runway that 
is not protected by a fire department. Hazardous materials transports 
are an integral part of the United States economy, when they spill or 
ignite, the fire service responds to protect lives and property and 
clean-up the mess.
Assistance to Firefighters Grant Program
    One of the most important relationships between the fire service 
and the federal government is the Assistance to Firefighters grant 
program, better known as the FIRE Act. I come before you today to ask 
for your help in securing its future.
    The FIRE Act has been called--by both congressional and 
administration officials--one of the very best federal grant programs. 
We agree. And there are good reasons for its success.
    I recently became aware of a document indicating the success of the 
FIRE Act grant program. The ``Survey, Assessment, and Recommendations 
for the Assistance to Firefighters Grant Program'' is an independent 
report compiled within the U.S. Department of Agriculture. This 
document explicitly and precisely describes the strengths of the FIRE 
Act program.
    In their words, ``The USFA Grants to Firefighters Program has been 
highly effective in increasing the safety and effectiveness of grant 
recipients . . . 99 percent of program participants are satisfied with 
the program's ability to meet the needs of their department . . . and 
97 percent of program participants reported positive impact on their 
ability to handle fire and fire-related incidents. Overall, the results 
of the survey and our analysis reflect that the USFA Grant to 
Firefighters program was highly effective in improving the readiness 
and capabilities of firefighters across the nation.'' I think we all 
recognize the value of these words when coming from one federal agency 
to another.
    I will be happy to provide copies of this document for review upon 
request.
    The current assistance process works. First, when applying for a 
grant, the fire chief must clearly define an urgent need. Then the 
application is subject to rigorous peer review by fire service 
representatives. Third, for a department to be awarded a grant, the 
community must agree to a significant co-payment. This assures local 
government buy-in. Finally, federal funds cannot supplant funds from 
the local government, they are supplemental only. The hallmark of the 
FIRE Act is that funds go directly to the local fire department for the 
intended purpose in a timely manner without being diminished or 
diverted. That's a federal success story for which the taxpayers can be 
proud.
    But we see problems ahead. The president's budget proposal for FY 
2004 recommends $500 million in funding for the FIRE Act; it also moves 
the program from the U.S. Fire Administration to the Office for 
Domestic Preparedness. This transfer is proposed in accordance with 
Section 430 of the Department of Homeland Security Act which states: 
``The Office for Domestic Preparedness shall have the primary 
responsibility . . . for the preparedness of the United States for acts 
of terrorism . . . ''
    Mr. Chairman, I bring your attention to the authority for the FIRE 
Act, which originated in this Committee, and is found in Section 33 of 
the Federal Fire Prevention and Control Act of 1974. The law states 
that the Director of FEMA shall make grants ``for the purpose of 
protecting the health and safety of the public and firefighting 
personnel against fire and fire-related hazards and provide assistance 
for fire prevention programs . . . '' Mr. Chairman, the FIRE Act is not 
designed nor intended for the sole purpose of enhancing terrorism 
response. The FIRE Act is structured to assist communities to better 
respond to all risks and all hazards--one of which could be an act of 
terrorism. Mr. Chairman, we ask for assistance from this Committee to 
keep the FIRE Act at the United States Fire Administration (USFA) where 
it has been so successfully managed.
Fire Service Presence in the Department of Homeland Security
    A very serious concern for the fire and emergency service is the 
continued reduction of the fire service presence in the Department of 
Homeland Security (DHS). In addition to our concern about the FIRE Act, 
the recent elimination of the Administrator of the U.S. Fire 
Administration and the cancellation of a significant number of National 
Fire Academy classes are matters of real concern. The creation of the 
Department of Homeland Security is a process which the IAFC and the 
fire community supported. This new department has the potential to 
provide great advancement for the first responder community. 
Unfortunately, we have reasons to be concerned about the representation 
of the fire service in this process.
    This Committee understands the important role of America's fire and 
emergency service in the first responder community as it relates to 
major disasters--natural and manmade. We ask that you support our 
request for a voice at DHS that is appropriate and proportionate to the 
fire service contribution to homeland security.
Hazardous Material Placarding
    Recently, we have learned that the Department of Homeland Security 
may seek to substantially change, or even eliminate, the current 
placarding system for the transportation of hazardous materials. We 
would like to emphasize the critical role that the current placarding 
system plays in protecting the safety of American communities and the 
safety of HazMat responders. Every year, there are approximately 
850,000 shipments of hazardous materials. Statistics indicate that 
there will be over 17,000 HazMat incidents each year and that almost 
500 of those incidents will be classified as serious--meaning that the 
incident resulted in a fatality or major injury.
    America's fire service, the primary provider of HazMat response in 
the U.S., relies upon the current placarding system to quickly assess a 
HazMat incident and initiate an appropriate response. This rapid 
assessment is critical to protecting nearby residents as well as the 
response team from the potentially serious effects of a HazMat 
incident. In the absence of a proven replacement system, dismantling 
the current placarding system would be a significant mistake that would 
have serious ramifications for the safety of America's communities.
    It appears that DHS is able to issue these regulations under 
``emergency'' regulatory authority vested in the UnderSecretary of the 
Transportation Security Administration that precludes the normal notice 
and review process. These regulations could take effect with no outside 
notice other than ``consultation'' with the Secretary of Transportation 
and then review by the Transportation Security Board which is comprised 
solely of cabinet-level officials from the administration. There is no 
opportunity for oversight or input from Congress or the American 
public. Mr. Chairman, the IAFC and America's fire service is very 
concerned about this situation.
Communications
    One of the most persistent problems that plagues large-scale 
emergency response is the issue of communications interoperability. 
Fortunately Senator McCain, your Committee has jurisdiction over 
legislation that represents a significant step forward in addressing 
this problem.
    In 1997, Congress set aside 24 MHz of radio spectrum for public 
safety agencies. This spectrum is currently used by TV channels 63, 64, 
68, and 69. Congress directed that the transfer to public safety be 
completed by December 31, 2006 conditioned on digital television 
rollout reaching 85 percent of American households. Presently, only 1 
percent of households have digital television. As a result of this 
enormous loophole, the public safety community is unable to utilize 
this badly needed spectrum.
    The IAFC strongly believes that any effort to address the DTV 
transition must include a requirement that television stations 
operating on channels 60-69 vacate the band as quickly as possible, but 
no later than December 31, 2006--the original completion date set by 
Congress. We strongly urge this Committee to address this as a priority 
issue.
SAFER
    Another issue facing fire departments across the country is the 
lack of adequate staffing to appropriately respond to our communities' 
needs. The ``Staffing for Adequate Fire and Emergency Response 
Firefighters Act of 2003'', also known as SAFER, would provide federal 
assistance to local fire departments for the purpose of hiring new 
firefighters. Patterned after the highly successful COPS program, local 
governments would jointly share the costs of hiring new firefighters 
over a three-year period until the local government assumed all 
responsibility for funding the new positions. This legislation has 
garnered bipartisan support in both houses of Congress, as well as the 
support of the major fire service organizations.
    The primary reasons for hiring additional firefighters are very 
simple:

        1. Greatly enhanced efficiency on-scene,

        2. Increased safety, both for firefighters and the victims they 
        are assisting, and

        3. Enhanced planning and training to protect both firefighters 
        and the communities they serve.

    While some jurisdictions require four firefighters to staff a 
single piece of fire apparatus, most staff with only three. By 
increasing to four firefighters per unit we will generate a 100 percent 
increase in operational capacity compared with three-person companies. 
Under federal administrative law and proper safety practices, 
firefighters must operate in teams of at least two people. Therefore, 
fire apparatus staffing of four will yield two working teams of two, 
doubling the capacity of apparatus staffed with only three personnel.
    Linked to this substantial gain in productivity is a commensurate 
increase in safety both for firefighters and for the victims they are 
treating. On emergency responses time is critical and minutes, or even 
seconds, can often mean the difference between life and death. The 
SAFER bill will help local governments provide necessary staffing on 
the initial response and not allow precious time to slip away as the 
first personnel on-scene wait for additional firefighters to arrive.
    Recent economic conditions have forced fire departments to make 
significant budget cuts which are forcing staff reductions across the 
country. Departments have also been directly affected by the military 
call-ups necessary for the war in Iraq. A recent IAFC survey has shown 
that the smallest fire departments are disproportionately affected by 
the call-up of military personnel. These departments are the least able 
to absorb the loss of trained staff.
Firefighting Research and Coordination Act:
    I would like to take this opportunity, on behalf of the IAFC and 
the fire service, to thank you, Chairman McCain, for introducing the 
Firefighting Research and Coordination Act. This act will help 
coordinate necessary standards for new technologies and training in 
order to better prepare first responders for the challenges they face 
daily. Many important groups have been advancing first responder 
standards including, the InterAgency Board for Equipment 
Standardization and Inter-Operability; national voluntary consensus 
standards development organizations, such as the National Fire 
Protection Association; the National Institute of Standards and 
Technology; and other federal, state, and local agencies.
    Chairman McCain has provided Congress with a realistic approach to 
the interoperability issues that plague our community. It is time for 
Congress to pass this legislation.
Conclusion
    Mr. Chairman, the fire service stands today as a bulwark of the 
first responder community; ready to quickly respond to, contain, and 
resolve nearly all emergencies that arise in our local communities. We 
very much appreciate the opportunity to appear before your Committee 
today. We also appreciate the personal commitment you have demonstrated 
to the fire service through your Committee work and your willingness to 
serve as Chairman of the Fire Caucus in Congress.
    I would be pleased to respond to any questions you may have.

    The Chairman. Thank you very much, Chief, for a very 
eloquent statement.
    Mr. O'Connor, welcome.

         STATEMENT OF KEVIN O'CONNOR, ASSISTANT TO THE 
          GENERAL PRESIDENT FOR GOVERNMENT AND PUBLIC 
         RELATIONS, INTERNATIONAL ASSOCIATION OF FIRE 
                            FIGHTERS

    Mr. O'Connor. Good morning, Mr. Chairman.
    I'm Kevin O'Connor, and I serve as the assistant to the 
general president of the International Association of Fire 
Fighters. Prior to joining the IAFF, I had the honor of being a 
professional firefighter and EMT in Baltimore County, and 
served concurrently as president of the Baltimore County and 
the Maryland State and D.C. Professional Firefighters 
Associations.
    On behalf of my general president, Harold Schaitberger, and 
the 260,000 professional firefighters and EMS personnel we 
represent, I am pleased to offer our views on the critical 
needs of the Fire Service. While there are many daunting issues 
facing us, I will limit my remarks to two specific proposals 
that will immediately, significantly, and measurably enhance 
our Nation's domestic preparedness.
    Unfortunately, as you have pointed out, there has never 
been a uniform technical standard for firefighting equipment, 
personal protective clothing, and related gear. Much of the 
equipment available or in use today is neither tested nor 
certified by government or private labs. With the influx of 
Federal money and the growing public awareness of homeland-
security issues, the need for such standards is greater than 
ever. The Firefighting Research and Coordination Act would do 
just that by establishing a scientific basis to evaluate new 
firefighting equipment.
    Equally as significant that legislation would require 
equipment purchased with Federal dollars to comply with these 
standards, S. 321 also seeks to address a major deficiency in 
our emergency response profile by directing the U.S. Fire 
Administration to assist State and local communities in 
establishing mutual aid covenants to pool resources and better 
coordinate response.
    Our lone recommendation is to include the National 
Institute for Occupational Safety and Health in the list of 
organizations to be consulted. NIOSH has been doing exemplary 
work and has unsurpassed expertise in developing standards for 
first responder protective equipment.
    Mr. Chairman, before leaving this issue, I would be remiss 
if I did not commend you for your leadership and tenacity. The 
Nation's firefighters are deeply indebted for your work.
    The vital lifesaving work of firefighters long predates the 
horrific events of 9/11. Firefighters are on the front line for 
America 24/7 each and every day. Today's firefighter is a 
multitasked professional, putting out fires, large and small, 
responding to hazardous materials incidents, engaging in 
technical, high-angle and swift-water rescue. And perhaps most 
important to everyone's day-to-day lives, firefighters and 
fire-based paramedics are the Nation's primary responders of 
pre-hospital emergency medical care. And post 9/11, certainly, 
we have assumed the role of the Nation's first responders to 
terrorism and weapons of mass destruction.
    To successfully fulfill our mission, this Nation must have 
a sufficient number of firefighters properly trained and 
equipped to do their job. Sadly, we do not. And, as a result, 
people die.
    Firefighting is not about fancy rigs or polished brass; 
it's about people. Our profession is inherently labor 
intensive. All studies concur that responding with inadequate 
personnel jeopardizes both the safety of firefighters and the 
citizens we are charged to protect. To operate safely and 
efficiently and to comply with nationally accepted standards, 
we must ensure that each rig is staffed with at least four 
firefighters and there are a minimum of 14 to 17 firefighters 
on every house fire.
    Here are the facts. Over two-thirds of all fire departments 
operate short staffed. Two-thirds. A recent USFA study points 
out that between 60 and 75 percent of all fire departments have 
too few stations to meet response guidelines established by the 
Insurance Services Office.
    How does this relate to terrorism response? The same study 
reveals that only 11 percent of our Nation's fire departments 
can handle a building collapse involving rescue and EMFs 
operations for over 50 people. Consider the enormity of 9/11 or 
Oklahoma City or Hurricane Andrew, and then analyze that 
statistic about 11 percent. It is a sobering picture.
    The exigent fiscal crisis confronting States and local 
government has exacerbated an already bad problem. Layoffs, 
station closings, and reductions in force are occurring in 
every part of the country. Congress would never allow our Army 
to engage in a war with two-thirds of its divisions 
understaffed. Incredibly, this is exactly what we're asking our 
local fire departments to do.
    The solution is the adoption of the Safer Firefighters Act, 
S. 544. While the Federal Government has begun providing much 
needed assistance to local fire departments in recent years, 
none of our current programs currently provide any Federal 
assistance for the most significant need to the American Fire 
Service, firefighting personnel.
    In order to address this critical staffing shortage, a 
bipartisan coalition has introduced the Staffing for Adequate 
Fire and Emergency Response Act. SAFER provides grants to local 
fire departments to hire 75,000 additional firefighters over a 
7-year period. It creates a 4-year program under which fire 
departments would apply for Federal grants, not to exceed 
$100,000 per position, to hire additional firefighters. Local 
jurisdictions would then be required to maintain those 
positions for at least another year. SAFER is a very innovative 
approach to solving the Nation's need for additional 
firefighters and for improving homeland security.
    In closing, Mr. Chairman, as a firefighter, a first 
responder, and someone who represents America's bravest, I'm 
here to tell you that no investment in homeland security will 
do as much to protect our nation and its citizens as the 
enactment of SAFER. Additionally, I join the chorus of my 
colleagues and Congressman Weldon in urging your Committee to 
continue the reauthorization of the U.S. Fire Administration 
and the maintenance of the U.S. Fire Administrator as a Senate-
confirmed position.
    It is, indeed, time for action. We ask that you give the 
resources we need to protect our Nation and its people, and I 
ask that my written testimony be submitted for the record.
    Thank you, Mr. Chairman.
    The Chairman. Without objection, all written testimony will 
be included.
    [The prepared statement of Mr. O'Connor follows:]

    Prepared Statement of Kevin O'Connor, Assistant to the General 
     President for Government and Public Relations, International 
                      Association of Fire Fighters
Introduction
    Good morning, Mr. Chairman. My name is Kevin O'Connor, and I serve 
as the Assistant to the General President for the International 
Association of Fire Fighters.
    Prior to joining the IAFF, I had the honor of being a professional 
fire fighter in Baltimore County, Maryland, and I am very proud to say 
I was a member of our department's busiest and best ladder company. 
During that time, I served concurrently as President of the Baltimore 
County Professional Fire Fighters & Paramedics Association and the 
Maryland State and District of Columbia Professional Fire Fighters.
    On behalf of my General President Harold Schaitberger, and the 
260,000 professional fire fighters and emergency medical personnel we 
represent throughout the United States, and who collectively provide 
fire and emergency response protection to over \3/4\ of the nation's 
population, I am pleased to offer our views on the critical needs of 
the fire service.
    While there are many daunting issues facing the fire service, I 
will limit my remarks to two specific pieces of legislation that will 
immediately, significantly and measurably enhance our nation's domestic 
preparedness. They are: S.321, the Firefighting Research and 
Coordination Act and S.544, the SAFER Fire Fighters Act.
Firefighting Research and Coordination
    The need for uniform technical standards for firefighting 
equipment, personal protective equipment, and other related gear is now 
greater than ever. Much of the emergency response equipment available 
today is not tested or certified by government or other labs. This 
problem is increasing as fire departments prepare to replace old and 
worn equipment, and manufacturers flood the market with new equipment 
in response to increased government spending and citizen awareness of 
homeland security.
    S. 321 would finally establish a scientific basis for measurement 
and testing methodologies for new firefighting equipment. The 
legislation would authorize the United States Fire Administration 
(USFA) to work with NIST, the Interagency Board, and other federal, 
state, local, and private consensus standards organizations to 
accomplish this goal.
    Significantly, the legislation would require equipment purchased 
with federal dollars--including grants from the highly successful FIRE 
Act program--to comply with these standards wherever feasible. In 
addition to encouraging communities to purchase quality equipment, we 
are optimistic that this language will promote the development of safer 
and better equipment as manufacturers strive to comply with new federal 
standards.
    S. 321 also seeks to address the lack of coordination among 
responding agencies by directing the USFA to provide technical 
assistance and training for state and local fire service officials to 
establish nationwide and state mutual aid systems for responding to 
national emergencies.
    We are especially supportive of the concept of creating a national 
credentialing system for emergency responders. Emergency response and 
mutual aid networks have long been plagued by the lack of consensus 
about what fire fighters and fire departments should be capable of. 
S.321 will seek to rectify this serious deficiency by asking the U.S. 
Fire Administration report to consider a credentialing system as part 
of its report to Congress on the deployment of emergency responders.
    The lone recommendation we wish to make regarding S.321 is to 
expressly include the National Institute for Occupational Safety and 
Health (NIOSH) in the list of organizations to be consulted. NIOSH has 
been doing exemplary work certifying respirators for WMD response, and 
has unsurpassed expertise in standards for first responder protective 
equipment.
    Before leaving this issue, I would be remiss if I failed to commend 
you, Mr. Chairman, for your pioneering work on this issue. Prior to 
your involvement, the world of fire fighting standards was generally 
considered outside the scope of the federal government. Your innovative 
approach demonstrates that there is a significant role for the federal 
government to play in this arena, and for this, the nation's fire 
fighters are deeply grateful.
Fire Fighter Staffing
    As you well know, Mr. Chairman, the work of fire fighters in 
protecting our nation long predates September 11, 2001. For nearly 100 
years, the members of the IAFF have been the first on the scene 
whenever and wherever people's lives are in jeopardy.
    Firefighting, or putting the ``wet stuff on the red stuff,'' is but 
one dimension of our work. We are the ones who respond whenever a 
hazardous chemical is released into the environment. We search for and 
rescue people who are trapped or in danger. We are the nation's primary 
providers of pre-hospital emergency medical care. And more recently, in 
addition to all we have been doing, we must also assume the role of the 
nation's first responders to acts of terrorism.
    The mission to protect Americans against terrorist acts poses a 
number of unprecedented challenges for the fire service. Each time the 
alarm rings, we must be prepared for the possibility that it is an act 
of war. Our enemies possess weapons of mass destruction, and appear 
unafraid to use them. If a biological, chemical, or radiological attack 
is unleashed against Americans, it will be fire fighters who will 
respond first. Moreover, terrorism is forcing us to rethink how 
personnel are deployed. Rather than viewing incidents as isolated 
events, we must confront the possibility that each incident is but one 
part of a coordinated attack.
    To meet these crucial and growing demands, we need an adequate 
number of fire fighters. Firefighting always has been and always will 
be essentially about people. It is a labor-intensive operation that 
requires large numbers of properly equipped and trained personnel to 
perform the myriad tasks that must be undertaken at an emergency scene. 
Attempting to respond to a fire or other hazard with only 2 or 3 people 
per piece of apparatus is not only ineffective, it is extraordinarily 
dangerous. Every year in our nation, fire fighters lose their lives 
because there are not enough of them on scene to conduct a safe 
response.
    Unfortunately, responses with 2 or 3 fire fighters have become the 
norm. Studies indicate that 2/3 of all fire departments in America lack 
adequate personnel, and the problem is growing. Even after September 
11th, municipalities are failing to adequately staff fire departments. 
The IAFF receives at least two new requests each week from our locals 
seeking assistance to prevent layoffs, and station and company 
closings. Examples of short staffing are common in every part of the 
country.

  <bullet> In Arizona, due to the $100 billion state deficit, the city 
        of Phoenix plans to eliminate three engine companies and lay 
        off 42 fire fighters if it cannot balance its budget.

  <bullet> In South Carolina's largest cities, including Charleston, 
        fire fighters respond with 3--and sometimes as few as 2--fire 
        fighters per apparatus.

  <bullet> In New York City, a $47 million reduction to the Fire 
        Department would force the closure of 35 to 40 of the city's 
        207 firehouses. Mayor Bloomberg has proposed a plan to reduce 
        the per piece staffing on 39 FDNY companies.

  <bullet> In Buffalo, New York, the city has already closed four fire 
        companies. Still being debated are additional proposals to 
        close more companies and reduce fire fighting personnel by as 
        many as 200 fire fighters.

  <bullet> In Texas, the cities of Dallas and Fort Worth have proposed 
        shutting down companies. And Fort Worth is planning to reduce 
        the number of fire fighters per apparatus from four to three.

  <bullet> Seattle, Washington has proposed eliminating 31 fire 
        fighters.

  <bullet> In the Midwest, Minneapolis, a dynamic cosmopolitan area and 
        a commercial and cultural center, has laid off 44 fire 
        fighters, reducing the fire department size to less than what 
        it was a decade ago. In Dayton, Ohio, four engine companies 
        have been eliminated and the city plans to reduce the number of 
        fire fighters per apparatus from four to three. And, in the 
        little township of Bellaire, Ohio, the Mayor and Town Council 
        have proposed eliminating the fire department because of 
        budgetary woes.

  <bullet> In Springfield Massachusetts, 53 fire fighters have been 
        laid off. In nearby Worcester, Massachusetts, the city is 
        honoring the memory of the six fire fighters who died in that 
        horrific warehouse fire three years ago, by laying off 17 fire 
        fighters.

    These examples are merely the tip of the iceberg. Below the 
surface, there is a massive personnel crisis that is the weak link in 
our homeland defense. Congress would never allow our Army to engage in 
a war with 2/3 of its divisions understaffed. Incredibly, this is 
exactly what we are asking our local fire departments to do in this 
current war on our home soil.
    Quite simply, far too many local fire departments don't have 
adequate personnel to perform their mission. With the new dangers posed 
by terrorists, this situation has reached crisis proportions. Whether 
it be a containment and evacuation mission following release of a 
radiological material in Texas, evacuating a skyscraper in Los Angeles, 
or providing emergency medical care to Members of Congress following an 
explosion in the Capitol, the frightening fact of life is that we 
simply do not have enough people to get the job done.
Staffing Studies
    Frontline fire fighters have always understood the critical role of 
safe staffing. Beyond the anecdotal, numerous studies document the 
extent of fire fighter understaffing and the impact it has on fire 
fighter safety and community security.
    In its seminal report, ``A Needs Assessment of the U.S. Fire 
Service,'' USFA/NFPA found that the vast majority of fire departments 
cannot respond to emergencies in a timely manner, and when fire 
fighters do reach the scene of an emergency, there are not enough 
personnel to do the job safely and effectively. The report found that 
up to 75 percent of our nation's fire departments have too few fire 
stations to meet response time guidelines. In fire departments that 
protect communities with a population of less than a million, it is 
common to respond to emergencies with less than 4 fire fighters per 
apparatus. Further, the report found that only 11 percent of our 
nation's fire departments could handle structural collapse involving 
rescue and EMS operations for over 50 people. Considering the enormity 
of the destruction on September 11th, in Oklahoma City, or caused by 
Hurricane Andrew, it is a sobering and sad that only a small segment of 
our population has real protection from terrorism or natural disasters.
    A study conducted by the Seattle Fire Department found that the 
severity of fire fighter injuries declined 35 percent when staffing per 
apparatus was increased from 3-person crews to 4-person crews. A study 
by the Dallas Fire Department found a direct correlation between 
staffing levels and both the safety and effectiveness of emergency 
response operations. Specifically, the Dallas study found that 
inadequate staffing delays or prevents the performance of critical 
tasks, increases the physiological stress on fire fighters, and 
increases the risk to both civilians and fire fighters. After analyzing 
their data, the authors of the Dallas study concluded, ``staffing below 
a crew size of four can overtax the operating force and lead to higher 
losses.''
    And studies of fire fighter fatalities have consistently identified 
inadequate staffing as a key factor in fireground deaths. Since 1997, 
NIOSH has investigated every fire fighter line-of-duty death as part of 
its Fire Fighter Fatality Investigation and Prevention Program. Far too 
many of these reports have attributed these deaths to inadequate 
personnel on the scene.
    NIOSH has been especially critical of the failure of fire 
departments to assure that there are adequate numbers of people 
stationed outside a dangerous environment during an interior fire 
suppression attack. These outside personnel, known as a Rapid 
Intervention Team (RIT), are equipped and ready to perform rescue 
missions when a fire fighter becomes disoriented or lost during an 
interior attack.
    A recent NIOSH report concluded that a RIT should respond to every 
major fire. The duties of the team were enumerated in the report and 
are quoted below.

        The team should report to the officer in command and remain at 
        the command post until an intervention is required to rescue a 
        fire fighter(s) . . . Many fire fighters who die from smoke 
        inhalation, from a flashover, or from being caught or trapped 
        by fire actually become disoriented first. They are lost in 
        smoke and their SCBA runs out of air, or they cannot find their 
        way out through the smoke, become trapped, and then fire or 
        smoke kills them. The RIT will be ordered by the IC to complete 
        any emergency searches or rescues. It will provide the 
        suppression companies the opportunity to regroup and take a 
        roll call instead of performing rescue operations . . . When a 
        RIT is used in an emergency situation, an additional RIT should 
        be put into place in case an additional emergency situation 
        arises. This additional RIT should be comprised of fresh, well-
        rested fire fighters.

Staffing Standards
    The need for adequate fireground personnel has been formally 
recognized by standardsmaking bodies of both the federal government and 
the fire service industry. Both the Occupational Safety and Health 
Administration (OSHA) and the National Fire Protection Association 
(NFPA), the consensus standards making body of the fire service, have 
promulgated standards designed to achieve safe staffing levels.
OSHA's ``Two-In/ Two-Out'' Standard
    In 1998, OSHA amended its Respirator Standard for employees engaged 
in dangerous occupations that require use of breathing apparatus. The 
revised standard formally endorsed a safe staffing rule known as ``2-
in/2-out'' that left no doubt about the vital link between sufficient 
staffing and fire fighter safety.
    The 2-in/2-out regulation requires that whenever fire fighters 
enter a burning structure or other dangerous environment, they must do 
so in teams of at least two that operate in direct visual or voice 
contact. Additionally, for every group of two fire fighters inside the 
structure, there must be a corresponding number of at least two other 
fully-equipped and trained fire fighters who remain outside the 
structure, monitoring those inside and who are prepared to rescue them.
    Unfortunately, most fire departments do not currently have adequate 
staffing to comply with these safety regulations. The result is that 
all too often fire fighters are sent into dangerous environments 
without sufficient personnel standing by to rescue them if they become 
disoriented, trapped or injured.
NFPA 1710
    In the face of the mounting evidence of a severe shortage of fire 
fighters, NFPA--the consensus, standard making body of the fire 
service--issued its first standard on minimum staffing for fire 
departments in the summer of 2001. NFPA Standard 1710, governing 
deployment and operations for fire and rescue departments, was the 
result of years of thoroughly investigating staffing related line-of-
duty injuries and deaths, and gathering and analyzing data.
    Ten years in the making, NFPA 1710 established consensus standards 
for minimum safe staffing levels for basic fire fighting operations; 
for responses to tactical hazards, high hazard occupancies, and high 
incident frequencies; and for overall, integrated fireground 
operations. If fully implemented, this standard would result in more 
effective and more efficient fire and EMS departments across the United 
States--and in our business that means lives saved.
    OSHA's 2-in/2-out standard and NFPA 1710 clearly articulate the 
minimum staffing levels that fire departments need in order to perform 
emergency operations safely and effectively. Yet, as of today, 
jurisdictions that comply with these standards are in the minority. It 
is for this reason that federal assistance is needed and warranted.
The SAFER Fire Fighters Act
    The solution to the staffing crisis is the adoption of S. 544, the 
SAFER Fire Fighters Act. In recent years, the federal government has 
increasingly recognized its responsibility to assist local governments 
with the cost of protecting Americans against hazards. Both the FIRE 
Act and the programs run by the Office of Domestic Preparedness (ODP) 
have provided training and equipment to local fire departments. Other 
federal programs provide funding for emergency response training 
involving transportation incidents, superfund sites and nuclear 
facilities.
    None of these programs, however, currently provides any federal 
assistance for the most significant need of America's fire service: 
fire fighting personnel. Even the FIRE Act, which was originally 
conceived as a staffing proposal and lists staffing as the first of its 
13 areas, can not currently be used to hire fire fighters due to the 
structure of the program and FEMA's decision to limit its grants to 
certain areas.
    In order to address the critical staffing shortage, a bi-partisan 
group of Members of Congress has introduced the Staffing for Adequate 
Fire and Emergency Response (SAFER) Act. The SAFER Act provides grants 
to local fire departments to fund the hiring of 75,000 additional fire 
fighters over a seven-year period. SAFER would create a four year 
program under which fire departments would apply for federal grants 
that would contribute to the costs associated with hiring new fire 
fighters, not to exceed $100,000 over four years for each fire fighter 
hired. Local jurisdictions would then be required to retain the fire 
fighter position(s) for at least one additional year.
    The SAFER Fire Fighters Act is an innovative approach to solving 
the nation's need for more fire fighters. It is an example of the new 
type of federalism that our country needs to combat terrorism. Numerous 
federal studies and reports bemoan the lack of coordination between the 
different levels of government. The SAFER Fire Fighters Act would be a 
step towards better cooperation and coordination amongst local, state, 
and federal governments to respond strongly and decisively to terrorism 
and other emergencies.
    Although we are aware of no organized opposition to the SAFER Act, 
some Members of Congress have raised some legitimate questions, which I 
would like to address.
    Some argue that paying for fire fighter training and equipment may 
be a legitimate federal government function, but providing aid to hire 
personnel crosses some sort of boundary for appropriate federal 
involvement. But the federal government has long provided financial 
assistance to local government for the express purpose of hiring 
municipal employees, including police officers, teachers and many other 
occupations. President Bush's signature domestic issue, the No Child 
Left Behind Act, is only the most recent in a long line of federal 
programs that provide funding to hire local government workers.
    Other Members question the authorized funding level. They argue 
that $1 billion a year is too much money at a time of fiscal restraint. 
We disagree. Since September 2001, Congress has passed in excess of $55 
billion in supplemental appropriations for homeland security and the 
war on terrorism. Additionally, the President has proposed over $36 
billion for homeland security in FY 2004, which includes the $3.5 
billion First Responder proposal. The funding is available. It is 
simply a matter of priorities.
    As a fire fighter, a first responder, and someone who represents 
America's Bravest, I am here today to tell you that no investment in 
Homeland Security will do as much to protect Americans as enactment of 
the SAFER Fire Fighters Act.
Conclusion
    In conclusion, Mr. Chairman, the IAFF thanks you for your 
leadership on firefighting issues and, in particular, for tackling the 
need for more research and coordination in the fire service. The need 
for S.321 has never been greater. All firefighting equipment should 
meet minimum standards. More mutual aid agreements should be signed. 
And, fire fighters and departments should be credentialed so that 
parties to mutual aid agreements know the capabilities of their 
partners. If S.321 were enacted, fire fighters would respond to the 
next emergency knowing that their equipment work, and having the 
confidence in the capabilities and competency of the fire department 
providing mutual aid. This would be a real benefit to frontline fire 
fighters.
    The other need of the fire service that the federal government must 
address is the shortage of fire fighters. This week marks the twenty-
ninth anniversary of the publication of America's Burning, the first 
comprehensive analysis of the American fire service. In the nearly 
three decades that have past since that hallmark report, the problems 
identified continue and have worsened. In those many years, new threats 
have expanded our responsibilities, while the resources available to us 
have been reduced.
    Domestic terrorism was not a real threat in the 1970s. On September 
11th, we witnessed one of the ``worst case scenarios'' that terrorism 
experts have warned us about. Yet, the string of attacks that we 
suffered in the `90s, including the first attack on the World Trade 
Center, and the Oklahoma City and the Olympics bombings, should have 
alerted us to the threat. We, as a nation, should have been better 
prepared for September 11th.
    Fire fighters have learned the lessons of September 11th. The signs 
won't be ignored as they were in the last decade. We know that the 
nation must confront, and realistically deal with, the next great 
threat to our homeland--an attack using weapons of mass destruction. In 
order to realistically deal with future terrorist attacks, the nation 
must address the staffing crisis in our fire departments. Federal 
dollars spent to purchase training and equipment for fire fighters will 
only go as far as the number of fire fighters. To fully maximize the 
money spent and to ensure adequate homeland security, more fire 
fighters need to be hired.
    Mr. Chairman, help us do our jobs. Provide the resources and 
staffing we need to serve our nation and its people.

    The Chairman. Thank you, Mr. O'Connor.
    Mr. Shannon?

STATEMENT OF HON. JAMES M. SHANNON, PRESIDENT AND CEO, NATIONAL 
                  FIRE PROTECTION ASSOCIATION

    Mr. Shannon. Thank you, Mr. Chairman. I'm honored to appear 
before you today.
    My name is Jim Shannon, and I'm president and CEO of NFPA. 
NFPA is a nonprofit organization founded more than a hundred 
years ago with a mission to save lives through fire-and life-
safety education and training, fire research and analysis, and 
the development of consensus codes and standards that are 
adopted by State and local jurisdictions throughout the United 
States and widely used by the Federal Government and 
internationally.
    As the Congress considers the reauthorization of the U.S. 
Fire Administration and its many important functions, I wish to 
testify today in support of your legislation, the Firefighting 
Research and Coordination Act.
    I also want to bring to your attention a congressionally 
authorized report that found serious gaps in the training, 
staffing, and equipment of the U.S. Fire Service.
    First, let me state emphatically that the reauthorization 
of the U.S. Fire Administration is extremely important to the 
effectiveness of the Fire Service throughout the United States. 
For nearly three decades, the USFA and the National Fire 
Academy have worked successfully with NFPA and the Fire Service 
to reduce the death and destruction caused by fire. While both 
civilian and firefighter deaths have decreased dramatically, we 
must do more to ensure that our Fire Service can meet the new 
challenges of homeland security, including responding 
effectively to biological or chemical accidents or attacks.
    With the move of the USFA to the Department of Homeland 
Security, there are important functions and positions that must 
be retained. For example, the USFA must continue to provide 
public education in fire-prevention activities in partnership 
with safety organizations, particularly those working to reduce 
fire deaths among high-risk groups. It's also critical that the 
Administrator of the USFA remain a Presidential appointee to 
retain that important advocacy position within the executive 
branch.
    This legislation and the companion bill introduced by 
Representative Camp in the House of Representatives will do 
much to focus Federal agencies on the needs of our first 
responders. It will provide additional research and support for 
an already strong process that will inevitably lead to safer 
firefighting. By becoming a full partner in the consensus 
process, the Federal Government can be assured that first 
responders will have the finest equipment and technology 
available. And isn't that what we should demand for those who 
routinely risk their lives on our behalf?
    Now, I ask that you consider the findings from the recently 
published needs assessment of the U.S. Fire Service, a study 
authorized by Congress and conducted by NFPA in cooperation 
with FEMA. The study, which I submit today for the Committee's 
full review, is troubling.
    Now, allow me to focus on three distinct areas: training, 
equipment, and staffing. Here's just a sampling of what we 
found.
    Only one in every 10 fire departments has the local 
personnel and equipment required to respond to a building 
collapse or the release of chemical or biological agents.
    Fifty percent of our firefighters lack formal training in 
technical rescue which involves unique or complex conditions, 
precisely the situations that they would encounter in a 
terrorist attack.
    There are huge gaps in training. There's been no formal 
training for 21 percent of those involved in structural 
firefighting, for 27 percent of those involved in EMS work, and 
for 40 percent who are sent in to deal with hazardous 
materials.
    And we don't protect our firefighters as we should. One 
third of the protective clothing worn by firefighters sent into 
a burning building is more than 10 years old.
    On a typical fire-department shift, 45 percent of first-
responding firefighters lack portable radios--now, 
interoperability is a problem, but 45 percent on a typical fire 
department don't have radios at all--36 percent lack self-
contained breathing apparatus, and 42 percent answer an 
emergency call without a personal-alert safety-system device 
that's critical in locating an injured or trapped firefighter.
    Finally, at least 65 percent of cities and towns nationwide 
don't have enough fire stations to achieve widely recognized 
response-time guidelines, and those guidelines recommend that 
firefighters be on the scene of any situation within 4 minutes 
90 percent of the time.
    Now, not surprisingly, the picture is bleaker in smaller 
communities. And, remember, 75 percent of the country's 
firefighters are volunteers. Twenty-one percent of rural 
communities often respond with too few firefighters to engage 
safely in structural firefighting, as do 38 percent of the fire 
departments in communities with more than 50,000 residents.
    We must do better. We cannot continue to ask our 
firefighters to do more with fewer resources. We should not 
expect the men and women in our armed services to defend our 
nation without proper training, equipment, and staffing; but as 
the country braces for the unknown at home, our Nation's 
firefighters, who are nearly always the first responders in any 
crisis, are woefully unprepared to fully protect our citizenry 
or themselves. And so this need is urgent, and it's overdue.
    Many of our firefighters, most of our firefighters, face 
the same limitations and obstacles that they encountered on 
September 11, and we can no longer ask our firefighters and our 
fire departments to survive entirely on local tax revenues 
supplemented by potluck dinners and auctions and raffle 
tickets. The Federal Government must provide adequate 
assistance to our firefighters to meet the many challenges, 
whether natural, unintentional, or deliberate, as they protect 
us and the security of our homeland.
    Your legislation, Mr. Chairman, would begin to address 
these urgent needs, and NFPA enthusiastically endorses it.
    Thank you very much.
    [The prepared statement of Mr. Shannon follows:]

  Prepared Statement of James M. Shannon, President and CEO, National 
                      Fire Protection Association
    Chairman McCain, Senator Hollings and members of the Committee, I 
am honored to appear before this Committee today. My name is James M. 
Shannon, and I am President and Chief Executive Officer of NFPA (the 
National Fire Protection Association). NFPA is a non-profit 
organization, founded more than 100 years ago, with a mission to save 
lives through fire and life safety education and training, fire 
research and analysis, and the development of consensus codes and 
standards that are adopted by state and local jurisdictions throughout 
the United States and widely used by the federal government.
    Today NFPA has nearly 300 codes and standards addressing safety, 
each accredited by the American National Standard Institute (ANSI) and 
developed by technical experts, the fire service, and others 
participating as volunteers in a consensus process. This process 
ensures that all interested parties have a say in developing standards. 
Congress affirmed its support for voluntary consensus standards in the 
National Technology Transfer and Advancement Act of 1995 (P.L.104-113) 
and reaffirmed that support in the Homeland Security Act of 2002, the 
law that created the new department.
    As the Congress considers the reauthorization of the U.S. Fire 
Administration (USFA) and its many important functions, I wish, Senator 
McCain, to testify today in support of your legislation, Senate Bill 
321 the Firefighting Research and Coordination Act. I also want to 
bring to your attention--and the attention of your colleagues--a 
Congressionally authorized report that found serious gaps in the 
training, staffing and equipment of the U.S. fire service.
    First, let me state emphatically that the reauthorization of the 
U.S. Fire Administration is extremely important to the effectiveness of 
the fire service throughout the United States. In May of 1973, nearly 
30 years ago to the day, the Chairman of the National Commission on 
Fire Prevention and Control, Richard E. Bland, transmitted to President 
Nixon its final report ``America Burning.'' In that report the 
Commission recommended establishment of the United States Fire 
Administration to:

  <bullet> Evaluate the nation's fire problem through data collection 
        and analysis and research

  <bullet> Create a National Fire Academy to improve training and 
        education for fire service personnel

  <bullet> Strengthen public awareness of the fire threat

  <bullet> Provide grants to state and local governments

    For nearly three decades, the USFA and the National Fire Academy 
have been working successfully with NFPA and the fire service to reduce 
the death and destruction caused by fire in the U.S. We have made great 
strides over the past 30 years. While both civilian and firefighter 
deaths have decreased dramatically, we must do much more to ensure that 
our fire departments can meet the new challenges of homeland security, 
including responding effectively to biological or chemical accidents or 
attacks.
    While we support the move of the USFA to the new Department of 
Homeland Security, there are important functions and positions that 
must be retained. For example, the USFA must continue to provide public 
education and fire prevention activities in partnership and cooperation 
with safety organizations, particularly those working to reduce fire 
deaths among high risk groups (children, older adults and persons with 
disabilities). It is also critical that the position of Administrator 
of the USFA remain a Presidential appointment to retain that important 
advocacy position within the Executive Branch.
    The staff at USFA has done a tremendous job in administering the 
Assistance to Firefighters (FIRE) Grant Program. Since its creation in 
FY2001, this program has provided more than $1 billion in financial 
resources directly to fire departments. Nonetheless, fire departments 
applied for more than $7 billion, demonstrating that the needs are 
great. It is crucial that the FIRE Grant Program be maintained as a 
separate and distinct funding source where fire departments can receive 
direct funding from the USFA and avoid unnecessary red tape. I would 
also urge the Congress to fund the program at a level no less than its 
authorized amount of $900 million dollars.
    This legislation and the companion bill introduced by 
Representative Camp in the House of Representatives will do much to 
focus federal agencies such as USFA and the National Institute of 
Standards and Technology on the needs of our first responders. It will 
provide additional research and support for an already strong process 
that will inevitably lead to safer firefighting equipment. By becoming 
a full partner in the consensus process, the Federal Government can be 
assured that first responders will have the finest equipment and 
technology available. And isn't that what we should demand for those 
who routinely risk their lives on our behalf?
    Another key element of your legislation is the requirement that 
equipment purchased through the FIRE Grant Program must meet or exceed 
applicable voluntary consensus standards. This concept is not new. Many 
existing federal grant programs already have similar requirements. For 
example, the Department of Justice's Bulletproof Vest Partnership Grant 
Program requires that vests meet minimum safety and performance 
standards. The voluntary consensus process has served the fire service 
well for many years, and it should serve as the national model.
    However, the development of new technologically-sophisticated 
equipment is only one aspect of improving the nation's fire service. 
Consider these findings from the recently published ``Needs Assessment 
of the U.S. Fire Service,'' a study authorized by Congress and 
conducted by NFPA in cooperation with FEMA. The study, which I submit 
today for the Committee's full review, delivers some troubling 
findings. Allow me to focus on three distinct areas--training, 
equipment and staffing. Here's just a sampling of what NFPA and FEMA 
found:

  <bullet> Only one in every 10 fire departments has the local 
        personnel and equipment required to respond to a building 
        collapse or the release of chemical or biological agents

  <bullet> 50 percent of our firefighters involved in ``technical 
        rescue'' lack formal training, but technical rescue involves 
        unique or complex conditions, precisely the situation they 
        would encounter in a terrorist attack

  <bullet> There are other huge gaps in training--There has been no 
        formal training for 21 percent of those involved in structural 
        firefighting; for 27 percent of those involved in EMS work; and 
        for 40 percent who are sent in to deal with hazardous materials

  <bullet> And we don't protect our firefighters as we should. One 
        third of the protective clothing worn by firefighters sent into 
        a burning building is more than 10 years old.

  <bullet> On a typical fire department shift, 45 percent of first 
        responding firefighters lack portable radios; 36 percent lack 
        self-contained breathing apparatus; and 42 percent answer an 
        emergency call without a Personal Alert Safety System (PASS) 
        device that is critical in locating an injured or trapped 
        firefighter

  <bullet> Finally, at least 65 percent of cities and towns nationwide 
        don't have enough fire stations to achieve widely recognized 
        response-time guidelines. Those guidelines recommend that 
        firefighters be on the scene of any situation within 4 minutes, 
        90 percent of the time

    Not surprisingly, the picture is bleaker in our smaller 
communities. And remember seventy-five percent of the country's 
firefighters are volunteers. Twenty-one percent of rural communities 
often respond with too few firefighters to engage safely in structural 
firefighting. Our research also found that thirty-eight percent of fire 
departments in communities with more than 50,000 residents often 
respond with too few firefighters.
    We must improve these numbers. We cannot continue to ask our 
firefighters to do more with fewer resources. We would not expect the 
men and women in our armed services to defend our nation without proper 
training, equipment and staffing. That's how it should be. But as the 
country braces for the unknown at home, our nation's firefighters, who 
are nearly always the first responders in any crisis, are woefully 
unprepared to fully protect our citizenry or themselves. The need is 
urgent and overdue.
    Our firefighters face the same limitations and obstacles they 
encountered on September 11th. We can no longer ask our fire 
departments to survive entirely on local tax revenue supplemented by 
potluck dinners, auctions and fundraisers. The federal government must 
provide adequate resources and support to our firefighters to meet the 
many challenges--whether natural, unintentional or deliberate--as they 
protect us and the security of our homeland.
    Your legislation would begin to address these urgent needs, and 
NFPA enthusiastically endorses it.
    Mr. Chairman, thank you for the opportunity to testify today. I 
will be happy to answer any questions you or other Members of the 
Committee may have.

    The Chairman. Thank you very much, Mr. Shannon.
    Chief Stittleburg?

         STATEMENT OF PHILIP C. STITTLEBURG, CHAIRMAN, 
                NATIONAL VOLUNTEER FIRE COUNCIL

    Mr. Stittleburg. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today.
    I represent the National Volunteer Fire Council. There are 
approximately 800,000 volunteer firefighters in our nation. 
That means that about 75 percent of all firefighters in the 
United States are volunteers, and about 90 percent of all fire 
departments in the United States are either fully volunteer or 
predominantly volunteer.
    Now, I mention that for the purpose of demonstrating that 
the volunteer sector is a major component of the Nation's Fire 
Service. And, clearly, the Nation's Fire Service is a major 
component of homeland security.
    I'd like to address a number of issues, beginning with the 
FIRE Act. A number of the people who preceded me have already 
addressed that, so I won't dwell on it at length other than to 
say that it's at $1.2 billion now that has been put out to the 
Fire Service, and it's gone directly to the fire departments.
    Speaking from the volunteer sector, that's particularly 
important to us. We serve rural areas. Many of us have small 
departments with very, very limited budgets. And this has been 
a very good start on meeting our needs. Chief Paulison spoke 
about the needs of the Fire Service, in terms of basic gear. 
President Shannon mentioned, likewise, the needs in terms of 
gear and training. The FIRE Act is clearly a prime vehicle for 
trying to address that issue.
    This budget year, of course, started with good news and bad 
news. The good news was that the administration did put $500 
million in its budget for the FIRE Act. The bad news was that 
it didn't put in the $900 million that's the authorized level, 
of course. And the worst news, in our view, is that it proposes 
that it would be administered by the Office of Domestic 
Preparedness.
    Now, in the past, as you know, it's been administered by 
the U.S. Fire Administration. Chief Paulison and his staff have 
done an outstanding job in administering that program. They've 
administered it quickly. They've administered it efficiently 
and are in the process of doing it right now for the third 
year.
    ODP doesn't have the benefit of that experience, doesn't 
have the benefit of that background. They would have to obtain 
and train staff to do it. And, in my opinion, that's basically 
reinventing the wheel.
    The other concern is that ODP tends to work primarily 
through the States, and we have a very deep concern that, with 
ODP, we may eventually see the FIRE Act end up as a part of a 
State-based block-grant program. And that fear is not entirely 
unfounded. There was a proposal, of course, in the fiscal year 
2003 budget to do precisely that. Congress, of course, in its 
wisdom, saw a better way. But that is certainly a deep concern.
    We recommend that the FIRE Act be funded at the $900 
million level and that it be kept in the U.S. Fire 
Administration. It's the best money that could be spent in the 
best fashion that it could be spent.
    Several previous speakers have already addressed the issue 
of the National Fire Academy. I won't, again, go in, at great 
length, to that, other than to say that, to the volunteer 
sector, the Fire Academy classes are very important. The 
training they give, particularly in off-campus training, is 
especially important to us, because it accommodates volunteers 
in terms of scheduling and travel commitments that are very 
helpful to us.
    I think it's important that the Fire Academy be properly 
funded for its mission, but I would strongly suggest that 
classes to the academy not be reinstated by making cuts 
elsewhere. For instance, the Fire Academy has a number of 
cooperative agreements with various Fire Service organizations, 
mine being one of them, and that's a very important part of 
what the National Volunteer Fire Council does, is wrapped up in 
that cooperative agreement with USFA. It enables both of us to 
carry out public education and training and data collection, 
things of that nature. So I would certainly hope that we do not 
see a situation of robbing Peter to pay Paul, where we--in 
other words, solve the problem of how do we make sure that the 
Fire Academy has enough money for classes by cutting out, say, 
cooperative agreements.
    The No. 2 concern I have is the apparent elimination of the 
U.S. Fire Administrator position. And, again, that's already 
been addressed. But I will simply say that that is a key 
position to us. The U.S. Fire Administrator is, indeed, the 
voice of the Fire Service to the President, to Secretary Ridge. 
And it's very important to us that we maintain that voice and 
we keep that fire focus.
    We have concern, also, about how funds for terrorism 
training and equipment may get distributed. We hear, from our 
members, that fire departments at the local level frequently 
are not seeing the money arrive there; and this is especially 
important to the volunteer sector, where much of what we cover 
is suburban and rural areas, which may not be perceived as a 
target. But I would suggest to you, sir, that the very 
perception that things are not a target makes them especially 
vulnerable to becoming a target. There's not a whole lot said 
about the fourth airliner that crashed on September 11; but, of 
course, that was a major incident, also, and that occurred in a 
volunteer, totally volunteer, area. So things can become 
targets in inadvertent ways, also.
    I would suggest to you, sir, that when the funds are 
disbursed to first responders, that we take a very close look 
at the definition of first responder. It seems that prior to 
September 11, nobody could say first responder, and now 
everybody is one. I would suggest to you that the first 
responder definition depends on exposure to risk and response 
time, and that the first responders are fire, law enforcement, 
and EMS, and it's as simple as that.
    The SAFER bill, we likewise support that, but I strongly 
suggest that it must include a component for the volunteer 
sector also. In other words, the SAFER bill is designed for 
increasing staffing. We don't increase staffing just by 
increasing the paid sector of staffing. We must also provide 
that the volunteer sector, which is the largest sector, 
benefits from the SAFER bill by increasing staffing also. We 
don't want to see a desertion from the volunteer ranks into the 
paid ranks and, consequently, a decrease in the volunteer 
sector. Clearly, both the career and the volunteer sectors 
staying healthy is critical to the well-being of the nation's 
Fire Service.
    And, last, sir, I would just like to say that we certainly 
support the Firefighting Research and Coordination Act. It's 
clearly in our interest to make sure that the equipment we get 
performs as advertised, and certainly makes good sense from 
your standpoint, that the money that's getting spent is not 
spent on junk.
    I'd like to close simply by thanking you very much, sir, 
for your leadership in this fashion and your chairing the 
Congressional Fire Service Caucus. Your scheduling this hearing 
today, I believe, clearly demonstrates your dedication and 
understanding of these issues.
    Thank you, sir.
    [The prepared statement of Mr. Stittleburg follows:]

    Prepared Statement of Philip C. Stittleburg, Chairman, National 
                         Volunteer Fire Council
    Mr. Chairman and Members of the Committee, my name is Chief Phil 
Stittleburg and I am Chairman of the National Volunteer Fire Council 
(NVFC). The NVFC represents the interests of the nation's nearly 
800,000 volunteer firefighters, who staff nearly 90 percent of 
America's fire departments. I have served in the volunteer fire service 
for the last 30 years and have been the Chief of the LaFarge Volunteer 
Fire Department in Wisconsin for the last 25 years. I have had 
experiences in all phases of the first responder community, including 
chemical and hazardous materials incidents, information management, 
EMS, rescue and fire.
    In addition to serving as NVFC Chairman, I have represented the 
NVFC on a variety of national standards-making committees, including 
ones that set industry standards on firefighter health and safety. I 
also serve on the National Fire Protection Association's (NFPA) Board 
of Directors and I am an adjunct instructor for the National Fire 
Academy. I earn my livelihood as an attorney, which includes serving as 
an Assistant District Attorney on a half-time basis for the last 29 
years. These positions give me an excellent opportunity to work in 
emergency services in both the law enforcement and fire service 
professions.
    According to NFPA, nearly 75 percent of all firefighters are 
volunteers. In most years, more than half of the firefighters that are 
killed in the line of duty are volunteers. In addition to the obvious 
contribution that volunteer firefighters lend to their communities as 
the first arriving domestic defenders, these brave men and women 
represent a significant cost saving to taxpayers, a savings sometimes 
estimated to be as much as $36 billion annually.
    On behalf of the volunteer fire service, I appreciate the 
opportunity to comment on the needs of the fire service. More 
specifically, I would like to comment on the Assistance to Firefighters 
Grant program, the U.S Fire Administration, the National Fire Academy, 
the Firefighting Research and Coordination Act (S. 321 / H.R. 545), 
terrorism funding for first responders, and the Staffing for Adequate 
Fire and Emergency Response Firefighters Act (S. 544 / H.R. 1118).
    The events of September 11, 2001 made it clear to all Americans 
that the fire service is the first responder to all terrorist attacks 
this country may face. Administration officials and Members of Congress 
continue to warn Americans of the certainty of a future terrorist 
incident. As America's domestic first responders, the fire service will 
be on the front lines of any incident and must be prepared to respond 
to and defend our citizens from the aftermath of a terrorist attack 
involving conventional weapons or weapons of mass destruction. This 
expands our normal services beyond the delivery of fire, EMS, rescue, 
and technical specialty services to our citizens. These services 
already have time and training demands that are escalating annually. 
However, the federal government must not forgo its commitment to the 
basic needs of America's fire service in the name of Homeland Security.
FEMA Assistance to Firefighters Grant Program
    One of the largest problems faced by America's volunteer fire 
service is funding. Thanks to your leadership Chairman McCain, and the 
leadership of many members of this Committee and throughout Congress, 
the Federal government took a giant step in addressing the basic needs 
of America's fire service by creating the Assistance to Firefighters 
Grant program. Every fire department across the country is now eligible 
for funding for safety and firefighting equipment, apparatus, training, 
fire prevention and education, emergency medical service equipment and 
training, and wellness and fitness programs.
    The Assistance to Firefighters Grant program has proven to be the 
most effective program to date in providing local volunteer and career 
fire departments not only with the tools they need to perform their 
day-to-day duties, but it has also enhanced their ability to respond to 
large disasters as well. As we move to prepare for terrorist incidents 
at home, we must first ensure that local fire departments have the 
basic tools they need to do their jobs on a daily basis, before we can 
ask them to be fully prepared to respond to large-scale incidents.
    This program has been successful for a variety of reasons. First, 
it is the only federal program that provides funding directly to fire 
departments for training and equipment. Far too often federal funds 
intended to aid fire departments are diverted to other uses by state 
and local officials.
    In addition, the U.S Fire Administration (USFA), under the 
leadership of Chief R. David Paulison, has spent the last two years 
developing and refining the program and has clearly demonstrated the 
capability to efficiently distribute these funds to local fire 
departments. The USFA Grants Office, which is under extremely tight 
deadlines, has performed remarkably in processing the 20,000 
applications it receives annually and has been very responsive to the 
needs of the fire service. This is no surprise to us because the 
personnel at USFA know the fire service like no other agency and many 
of their personnel come from emergency services backgrounds themselves.
    Finally, members of the fire service have been involved in nearly 
every aspect of the program to ensure that it addresses our current 
needs. We have helped to write the legislation, set the criteria for 
each category, and have staffed panels to grade the applications.
    In February, President Bush included $500 million for the 
Assistance to Firefighters Grant program in his 2004 budget request. 
The Administration also proposed moving the program out of FEMA and 
USFA, which are in the Emergency Preparedness and Response Directorate 
of the Department of Homeland Security, and into the Office of Domestic 
Preparedness (ODP), located in the Border and Transportation Security 
Directorate.
    While $500 million in funding is a good start and this is the first 
time that the program has been in an Administration budget, the NVFC 
feels that Congress needs to fully fund the program at the $900 million 
level. In addition, the NVFC is strongly opposed to the proposal to 
move the program into the Border and Transportation Security 
Directorate of Homeland Security. The NVFC does not understand the 
benefit of moving a program aimed at equipping and training America's 
firefighters out of the lead federal agency for the fire service and 
into a section of the department that exercises little, if any control, 
over federal fire programs.
    The move will require the government to reinvent the wheel, with 
new staff, new training, and new infrastructure, at a time when the 
Federal Government should be completely focused on delivering these 
dollars to our local first responders.
    In its first year of existence (FY 2001), the program received $100 
million in appropriations. In FY 2002, the program received $360 
million in appropriations and awarded nearly 5,500 grants to needy fire 
departments. In FY 2003, Congress appropriated a total of $750 million 
for the program and fire service personnel from across the country are 
reviewing applications as we speak at the National Emergency Training 
Center in Emmitsburg, Maryland.
    Many of these departments who are receiving aid are rural and 
suburban volunteer fire departments that struggle the most to provide 
their members with adequate protective gear, safety devices and 
training to protect their communities. They are being asked to respond 
to emergency calls involving hazardous materials, structural fire 
suppression, clandestine drug labs, search and rescue, natural 
disasters, wildland fires, emergency medical services, and terrorism. 
Many of these emergencies occur at federal facilities and buildings and 
on federal lands. In addition, these incidents can damage America's 
critical infrastructure, including our interstate highways, railroads, 
bridges, tunnels, financial centers, power plants, refineries, and 
chemical manufacturing and storage facilities. We as a fire service are 
sworn to protect these critical facilities and infrastructure.
    Once again, the NVFC strongly urges Congress to fully fund the 
Assistance to Firefighters Grant program at the fully-authorized $900 
million level in FY 2004 and keep it as a distinct program under the 
Federal Emergency Management Agency (FEMA) and the U.S Fire 
Administration (USFA) in the Emergency Preparedness and Response 
Directorate of the Department of Homeland Security.
U.S Fire Administration/National Fire Academy
    In 1971, this nation lost more than 12,000 citizens and 250 
firefighters to fire. Acting to halt these tragic losses, Congress in 
1974 passed P.L. 93-498, the Federal Fire Prevention and Control Act, 
which established the United States Fire Administration (USFA) and its 
National Fire Academy. Since that time, through data collection, public 
education, research and training efforts, USFA has helped reduce fire 
deaths by at least half--making our communities and our citizens safer. 
The NVFC strongly supports reauthorization of USFA and asks Congress to 
do whatever possible to continue to enhance the agency's mission.
    In early April, it was announced that the USFA was forced to take 
an 11 percent budget cut in fiscal year 2003. As a result, the Academy 
has been forced to cut 36 resident courses. This cut represents an over 
40 percent loss in the total amount of courses that will delivered on 
campus between the beginning of May and the end of September 2003.
    The National Fire Academy is the nation's premier fire service 
training facility, which provides our nation's firefighters and 
emergency responders with essential skills and leadership needed to 
keep pace with our ever-expanding role. Besides training responders to 
deal with the new threats of terrorism and weapons of mass destruction, 
the Academy also has continued its core mission to enhance the ability 
of fire and emergency services to deal more effectively with daily 
emergencies in our nation's communities. Much of this training is not 
available anywhere else.
    Besides delivering courses at its Emmitsburg, Maryland campus, the 
Academy offers many courses which are available for direct delivery to 
our local communities through our nation's State Training Agencies. 
This system is especially beneficial to the many in the volunteer fire 
service that do not have the time to attend on-campus programs.
    Obviously, this substantial cut is of great concern to the NVFC. 
Our organization has spent many years fighting to strengthen the U.S 
Fire Administration and the Academy. We find it very disconcerting that 
at the same time large sums of money are finally making their way to 
the states for homeland security, the Fire Academy is cutting its 
budget. Before you can train a firefighter to respond to terrorism 
incidents, they must first be trained as firefighters or fire officers. 
Firefighters should not have to choose between the Fire Academy and 
terrorism training, they need both. These classes must be restored 
immediately and Congress must ensure that the Fire Academy's role is 
enhanced in future years.
    In addition, the cuts have also affected the Fire Administration's 
ability to work in partnership with national and local fire and 
emergency service organizations through cooperative agreements and with 
other Federal agencies. These partnerships help the USFA to accomplish 
its charge to provide public education, training, and data collection, 
and need to be protected.
    Finally, the NVFC is also alarmed at the proposed actions to 
eliminate the U.S. Fire Administrator position. The individual who 
fills this position, serves as the lead advocate and spokesman for the 
fire service within the Administration. He or she is able to carry the 
fire service's message to the President and the Secretary of Homeland 
Security, and vice-versa. We urge the Department of Homeland Security 
to reinstate this position immediately.
    Many fire service organizations, including the NVFC, have worked 
hard to ensure that the U.S. Fire Administrator played an integral role 
in FEMA and now the Department of Homeland Security. We are concerned 
that these recent developments indicate a reversal in the fire 
service's role and stature in the new Department.
First Responder Terrorism Funding
    Terrorism and hazardous materials response training and equipment 
are of vital importance to America's fire service. Even the best-
prepared localities lack adequate resources to respond to the full 
range of terrorist threats this country faces. Many jurisdictions, 
especially those in rural and suburban areas protected by volunteers, 
have little or no capability to respond to terrorist attacks using 
weapons of mass destruction.
    Although the fire service is pleased that Congress has begun to 
send real dollars to the States for first responder terrorism training, 
equipment, and planning, we do have some concerns that I would like to 
address.
    First, we are concerned that the proposed move of the Assistance to 
Firefighters Grant program to the Office of Domestic Preparedness, 
which primarily distributes its funding through the states, will 
eventually lead to consolidating the program into other state-based 
block grants. This consolidation was proposed by the Administration in 
their FY 2003 budget and fortunately was not supported by Congress.
    Second, we have heard from fire service personnel across the 
country that much of this funding that is being sent to the states by 
ODP is not making its way to the local level. This is unacceptable. In 
a July 2002 position paper on the creation of the Department of 
Homeland Security authored by the major fire service organizations, we 
advocated that at least 90 percent of the money reach the local level. 
While we see a role for the states in coordination and in some 
training, the Department needs to make sure that this funding reaches 
local response agencies in an expedited fashion.
    Third, the Department of Homeland Security needs to encourage the 
states to make sure that the fire service is at the table when 
discussing terrorism preparedness and response. In many states law 
enforcement, the National Guard, and emergency management will all 
receive higher priority than the fire service when it comes to 
receiving federal funding.
    Fourth, we have had many concerns regarding the use of the term 
``first responder.'' The definition must be clearly articulated from 
the onset, placing heavy emphasis on response times and exposure to 
risks. First responders are fire and rescue, emergency medical services 
and law enforcement personnel. Period.
    Finally, although we understand the special needs and concerns of 
America's large metropolitan areas, the Department of Homeland Security 
cannot forget smaller communities, whose fire, rescue and EMS personnel 
also need the training and equipment to recognize and respond to these 
incidents. While these communities may not seem to be prime terrorist 
targets, it is this very perception that makes them especially 
vulnerable.
    An often overlooked, yet key component to preparing our nation's 
fire and rescue personnel are our State Training Agencies. These 
agencies are well-established and have a proven track record in the 
training of the fire service. Each year the state fire training systems 
train over 750,000 students nationally, many of them volunteers.
    While ODP's training consortium has developed some excellent 
terrorism programs for first responders, these centers service a small 
number of students at very high costs. We feel that some first 
responder terrorism training dollars need to go to enhance and 
strengthen the state training system. Unfortunately, terrorism training 
dollars are not going to them at all. In fact, the small amount of 
terrorism funding that these agencies received in the past through the 
National Fire Academy has been redirected to ODP. The NVFC is again 
concerned that the Federal government is reinventing the wheel and not 
utilizing the most efficient methods of delivering services to the fire 
service, which is already in place, state and local fire service 
training agencies.
Staffing for Adequate Fire and Emergency Response Firefighters Act (S. 
        544 / H.R. 1118)
    Personnel shortages are another large concern of America's fire 
service. Many departments, in communities of all sizes, struggle on a 
daily basis to adequately staff local fire stations and respond to 
calls. Personnel shortfalls endanger the safety of firefighters and 
hinder the ability of first responders to effectively protect the 
public from fire and other hazards. Many studies and standards indicate 
there needs to be a minimum number of personnel on-scene to perform 
lifesaving measures safely. Other studies indicate proper staffing is 
required to adequately protect property. Simply put, when firefighters 
cannot safely work, they are unable to save lives and property. In 
fact, Congress and the President verbalized the recognition of this 
immediately after the events of September 11, 2001.
    The Staffing for Adequate Fire and Emergency Response Firefighters 
Act (S. 544 / H.R. 1118) authorizes the U.S. Fire Administrator to make 
grants to States and local governments to hire additional career 
firefighters. The NVFC supports passage of this legislation.
    However, we feel that any initiative by Congress to address the 
personnel shortfall in the fire service must include a significant 
recruitment and retention component to account for the nearly 90 
percent of America's communities that are protected by volunteers. The 
recruitment and retention of volunteer firefighters and EMS personnel 
has become the number one challenge facing America's volunteer fire 
service. The ranks of the volunteer fire service have decreased over 10 
percent in the last 20 years.
    The biggest factor contributing to the decline is increased time 
demands on the volunteer. This results from increased training hours to 
comply with more rigorous training requirements, increased fundraising 
demands, people living further away from their jobs, combined with an 
increased volume of calls. Many volunteers firefighters become 
frustrated because they have to spend much of their time raising money 
to buy life-saving equipment, when they could be training or at home 
with their families. The increased call volume is a result of the fire 
services' ever-expanding role into areas such as EMS, terrorism, 
vehicle extrication, natural disaster response and more. In addition, 
in many of our communities the lack of affordable housing makes it hard 
to keep young firefighters in town.
    Some possible solutions that should be considered include: funding 
for national and local recruitment campaigns; tax credits and 
deductions for volunteers; funding for length of service award programs 
and other pension programs for volunteers; incentives for employers to 
allow employees, who are volunteers, time off for training or emergency 
calls; affordable housing programs; tuition assistance for higher 
education; and increased proliferation of on-line training for 
volunteers.
    Finally, another concern our organization has is the growing trend 
of career firefighters being harassed by their local unions for 
volunteering as firefighters in their home communities during their 
off-duty hours. In the past few years, the NVFC has received reports 
from across the country of local union affiliates threatening to take 
action against their members if they do not stop volunteering. In many 
cases, these firefighters give in to the pressure and quit 
volunteering. This situation not only affects the readiness and 
response level of fire departments in smaller communities, but also 
discourages citizens from selflessly serving their community.
    Since September 11, 2001, the President of the United States has 
been encouraging all Americans to commit to service of their neighbors 
and their nation by becoming volunteers. We hope that we can all work 
together to heed the President's call to community service. We 
furthermore urge Congress to include language in the SAFER Bill to 
ensure that a career firefighter, especially those who are hired under 
the provisions of this bill, has the right to volunteer in his or her 
community.
Firefighting Research and Coordination Act
    Finally Mr. Chairman, the NVFC fully supports your legislation, the 
Firefighting Research and Coordination Act, which would allow the U.S. 
Fire Administrator, in consultation with other interested parties, to 
develop voluntary consensus standards for evaluating the performance 
and compatibility of new firefighting technology. The legislation would 
also include the establishment of a scientific basis for new 
firefighting technology standards, improve coordination among Federal, 
State, and local fire officials in training for and responding to 
terrorist attacks and other national emergencies. We stand ready to 
assist you and your staff in your efforts to pass this important piece 
of legislation.
    Mr. Chairman, I thank you for your time and your attention to the 
views of America's fire service, and I would be happy to answer any 
questions you may have.

    The Chairman. You're very kind, Chief.
    I would like to--in either reauthorization of existing 
legislation or in consideration of S. 321, the Firefighting 
Research and Coordination Act, I'd like to--besides the 
permanent appointment of the Administrator and have it a 
Senate-confirmed position, I'd like to have your top two 
priorities, beginning with you, Chief.
    Mr. Bruegman. First priority is to have a greater role in 
the Department of Homeland Security. If we look long-term, all 
these other issues, and there will be many more that we'll have 
to address, will require a Fire Service presence, Fire Service 
knowledge, Fire Service expertise if we're going to have impact 
in respect to the Department of Homeland Security in what will 
be forthcoming over the next several years.
    It's just not about the U.S. Fire Administrator, although I 
agree that it needs to be retained and it needs to be Senate-
confirmed, but it's about the placement of Fire Service 
leadership throughout DHS. We bring to the table, I think, a 
level of expertise, a level of knowledge, that is desperately 
needed within the Department of Homeland Security. As I 
indicated before, we are a critical link to what will occur 
during the next incident, whether it's a terrorist incident or 
it's a natural disaster.
    The second is, I think, the FIRE Act. We know that it has 
been extremely successful. And as President Shannon has 
indicated, the report that NFPA conducted recently, on behalf 
of Congress and the U.S. Fire Administration, I think shocked 
many of us, even in the industry, as to the lack of basic 
equipment that many of our, especially smaller, fire agencies 
have. And I think we have to focus our efforts and our moneys 
on making sure that those agencies are equipped to perform 
their day-to-day functions as safely as possible.
    The Chairman. Thank you, Chief.
    Mr. O'Connor?
    Mr. O'Connor. Well, our first priority, is identified in my 
testimony, and that is the inadequate staffing throughout the 
Nation. I think the second component segues into that, and that 
is the issue of training. Mr. Shannon's testimony very 
eloquently detailed, in numbers and percentage, the lack of 
training in various disciplines that our people undergo, 
whether it be in terms of rescue, EMS, hazardous material, or 
even simply structural firefighting. And, clearly, in order for 
us to be able to do our job effectively, we need that type of 
training.
    It's ironic that this week is the 30th anniversary of 
America's Burning Report that was issued 30 years ago, and it 
identified the needs of the Fire Service, and its deficiencies. 
And in the three decades that have transpired, the issues 
identified in that document still are unmet. And I think that 
when you get down to it, the needs of the Fire Service come 
under the broad rubric of being able to get the job done, and 
that's staffing and training.
    The Chairman. And you share Congressman Weldon's specific 
concern about cancellation of classes?
    Mr. O'Connor. Oh, absolutely. I believe 40 percent of the 
classes at National Fire Academy have been canceled, and 
clearly that's an issue. And I would also agree with Mr. 
Stittleburg that we would like to see that restored, but not at 
the expense of other programs.
    The Chairman. Mr. Shannon?
    Mr. Shannon. Mr. Chairman, I think the broad answer to the 
question is, I think what we need more than anything else is a 
realistic assessment, a battle plan, if you will, as to what it 
would take to get our Nation's first responders fully equipped 
and trained and ready to respond to the type of incidents that 
we're asking them to respond to.
    I cannot tell you how many times in the last 18 months I've 
been with a fire chief or fire officer from a major community 
or a smaller community when their cell phone or their beeper 
has gone off. And when I asked them what it was, it's 
responding to some effort to plan for homeland security. And 
yet they all tell me the same thing. They're putting more and 
more time, they're asked to be better and better prepared, and 
they're given no additional resources to do this.
    And there might be some people still kicking around who 
say, ``Well, this is primarily a local function, and it should 
be handled at the local level.'' But this is a unique situation 
in American history, because, for the first time in American 
history, the people in Washington are best able to assess the 
threat that they're asking the first responders to address. And 
yet I don't think there has been sufficient follow-through--and 
part of it is just because there have been so many conflicting 
priorities, and I know what that's all about--but I don't think 
that there has been sufficient follow-through since September 
11 to ensure that the people we're asking to do the job have 
the resources to do that.
    So I would say I'd like to see the creation of an agreed-
upon battle plan to bring them up to where we all agree that 
they need to be, and I think that has to originate here.
    And I think the second thing is, I feel it is very 
important that the Administrator of the United States Fire 
Administration be a Presidential appointee; because, otherwise, 
I think the reality is going to be that, when the attention is 
turned to other things, the Fire Service will be forgotten. 
And, just as importantly, they'll feel like they're forgotten. 
There will be nobody to whom they can turn when they have an 
issue of importance.
    The Chairman. We take that recommendation very seriously, 
Mr. Shannon. Thank you.
    Chief Stittleburg?
    Mr. Stittleburg. Mr. Chairman, I would say our two 
priorities are, one, full funding of the FIRE Act, and 
continuing to administer it as it has been in the past. It's 
just remarkably efficient.
    Second, as to the SAFER bill, I believe would be our second 
priority, but a significant component be included, as I'd 
mentioned in my testimony, to prevent a diminution of the 
volunteer ranks. And I would suggest that various methods can 
be done to accomplish that. For instance, we have a 1-800-FIRE-
LINE program that could be promoted nationwide to encourage 
people to become volunteer firefighters, tax credits and tax 
deductions for volunteers, funding of LOSAP or pension plans, 
affordable housing, increase of online training capabilities to 
accommodate the flexible work schedules of volunteers.
    So I would suggest to you that that is probably a very key 
component of what we need to look at when we're talking about 
increasing staffing in the Fire Service nationwide.
    The Chairman. Thank you.
    I want to thank all of you. You represent America's heroes. 
We're grateful to you. I want to assure you we will continue 
with serious consideration of this issue before this Committee. 
I see nothing but support throughout the Congress for what 
you're trying to do, and we value immensely your 
recommendations and your advice and counsel, and, without that, 
I don't believe we could effectively serve this very current 
and urgent need that exists throughout the Nation.
    Thank you for coming today. I look forward to seeing you 
this evening.
    This hearing is adjourned.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]
                            A P P E N D I X

              Prepared Statement of Hon. Maria Cantwell, 
                      U.S. Senator from Washington
    Mr. Chairman, thank you for the time to address the importance of 
increased support for the fire service.
    Our country's firefighters are clearly one of the most crucial 
lines of first response in the protection of our communities. This was 
demonstrated strikingly in the tragedy of September 11, 2001, in which 
New York City firefighters, police, and emergency service personnel 
answered their call to duty with great heroism in selflessly rushing to 
the World Trade Center and saving the lives of many Americans. 
Tragically, 343 firefighters and emergency medical services (EMS) 
technicians paid the ultimate price in the service of their country.
    While we strive to prevent any future attack in the United States, 
it is our duty to ensure that we are adequately prepared to respond to 
any future catastrophic act of terrorism. In addition, we must 
recognize that many of the preparations we make to improve the response 
to national emergencies also will aid our firefighters for their 
everyday role in protecting our families and homes.
    As illustrated by the events of September 11, 2001, fire 
departments have substantial responsibilities beyond responding to 
fires. Along with EMS components, fire fighters also are usually the 
first on the scene at car accidents, medical emergencies, hazardous 
materials spills, and acts of terrorism, as well as natural disasters 
like earthquakes and floods. The fire service is also one of the most 
hazardous professions in the country, as thousands of firefighters are 
injured and about one hundred are killed in the line of duty each year.
    Despite the essential and heroic role the fire service plays in 
protecting our communities, fire departments across the country remain 
under-funded and under-staffed. Several proposals before our committee 
to address these needs deserve serious consideration.
    One of the most important achievements in this area is the FIRE Act 
grant program, which, since its 2001 passage, has provided substantial 
funding targeted for fire departments across the country. The nearly 
700 volunteer and municipal fire districts in Washington state rely on 
FIRE Act grant programs to fulfill essential needs. However, this 
program clearly does not meet our needs in Washington state and in the 
nation.
    While $750 million is available for the FIRE Act in fiscal year 
2003, in fiscal year 2002 alone, more than 19,500 fire departments 
applied for a total of $2.2 billion in assistance.
    Disturbingly, in the Administration's fiscal year 2004 budget, 
instead of seeking an increase in funding to meet the needs, only $500 
million is earmarked for firefighters.
    Of further concern, this funding is offered as a portion of the 
$3.5 billion grant program for first responders, not through the FIRE 
Act grant program. We must work to increase this funding, and ensure 
that this funding is not diverted away from the specific needs of 
firefighters.
    A similar concern arises with the inclusion of the Fire 
Administration within the Department of Homeland Security. While I 
support the important role of firefighters in responding to terrorism, 
we must not lose sight of the essential day-to-day life saving services 
our fighters provide for our communities. The deadly and extremely 
costly Western forest fire season last year is another reminder of the 
need to retain a comprehensive view of the services the Fire 
Administration provides, especially in support of protecting rural 
communities.
    The Firefighting Research and Coordination Act is an important 
piece of legislation under consideration in our Committee. As an 
original cosponsor, I strongly support this legislation. As many of you 
know, this bill would establish and authorize funding for programs 
under the Fire Administration to develop voluntary consensus standards 
for new firefighting technology; improve coordination between federal, 
state, and local fire officials; and authorize the National Fire 
Academy to train firefighters for responding to acts of terrorism.
    While we will never be able to prevent firefighter deaths because 
of the risks involved, it is our obligation to help ensure that future 
firefighters are adequately equipped and trained, and are working in 
coordination to respond to any future national emergencies.
    In addition to providing funding to properly train and equip our 
firefighters, America's fire departments need more firefighters to 
effective meet the needs of our communities.
    Legislation such as the Staffing for Adequate Fire and Emergency 
Response Act is an important step for the safety of our communities and 
our firefighters. As many of you know, this bill provides matching 
grants for up to 75 percent of the costs of hiring 75,000 new 
firefighters nationwide. I strongly support this legislation and urge 
my colleagues in the committee and the full Senate to support its 
passage.
    Again, I thank the Chairman for the consideration of this important 
issue and thank our witnesses today for their time and insight.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John McCain to
                          Arden L. Bement, Jr.
    Question 1. S.321, The Firefighting Research and Coordination Act 
would require that equipment purchased through the Assistance to 
Firefighters Grant program meet or exceed applicable voluntary 
consensus standards. Are you aware of any other federal grant programs 
that link federal grant money to standards?
    Answer. Yes, NIST developed body armor performance standards for 
the National Institute of Justice (NIJ)--NIJ Standard-0101.04 for 
ballistic-resistant body armor and NIJ Standard-0115.00 for stab-
resistant body armor. The Office of Justice Programs administers a body 
armor grant program (Bulletproof Vest Partnership Grant Act of 2000, 
see more at http://vests.ojp.gov) that covers up to half the cost of 
bullet-resistant and/or stab-resistant body armor. To be eligible for 
the grant funding, law enforcement or corrections agencies must 
purchase body armor that complies with either of the two NIJ body armor 
performance standards. For the body armor manufacturers, establishing 
compliance with the NIJ standards is voluntary.
    There are two more points about these standards. First, NIJ 
administers a formal Compliance Testing Program that must be used to 
establish compliance with the standards. The Program establishes a 
chain of custody for body armor test specimens, uses only approved 
laboratories, and requires an independent assessment of test results. 
Second, these body armor standards were developed by a Federal 
organization, and while many in the armor industry participated in a 
comment and review phase, the standards development process did not 
require ``consensus.'' In that respect, they differ from the voluntary 
consensus standards developed by organizations such as the National 
Fire Protection Association (NFPA), ANSI, or ASTM, which do require 
consensus. The Federal standards tend to establish a higher level of 
performance, while typical voluntary consensus standards seek to 
broaden the market for products.
    The Office for Domestic Preparedness (ODP), formerly with the 
Office of Justice Programs, now with the Department of Homeland 
Security's Border and Transportation Security Directorate, manages the 
grants program for WMD-related equipment for emergency first 
responders. Currently ODP funding grants are not conditional upon 
procurement of equipment that complies with voluntary consensus 
standards. In fact, there are few standards that address the first 
responder needs in a CBRNE environment, which seriously hinders linking 
grants programs to standards compliance. However, coordination is being 
conducted with the objective of ultimately linking the grants program 
to equipment that complies with the appropriate standards. One example 
is the current effort to incorporate compliance with the NFPA 1994, 
``Standard on Protective Ensembles for Chemical/Biological Terrorism 
Incidents,'' into the ODP grants program.

    Question 2. Could you briefly describe how NIST's research is 
factored into the process that standards development organizations use 
to formulate voluntary consensus standards?
    Answer. NIST's research is integrally linked to the activities of 
standards development organizations and their members through a 
``cradle-to-grave'' process as follows:

  <bullet> NIST Listens to major national bodies in construction and 
        fire communities to identify priority issues to address.

  <bullet> NIST typically organizes workshops of interested parties to 
        define problem, approach and desired products.

  <bullet> NIST and its partners develop technical basis for potential 
        change to practice or standards, typically in the form of a 
        measurement, test method, performance prediction tool, etc.

  <bullet> NIST generally seeks development of performance-based tools 
        and to foster open systems and processes which create the 
        maximum opportunity for innovation and competitiveness.

  <bullet> Likewise NIST participates in international standardization 
        activities and works closely with its international counterpart 
        laboratories to maintain awareness of developments overseas, to 
        help assure open and free markets, and to spot technical 
        barriers to trade.

  <bullet> NIST works with intended users to demonstrate value in use 
        of the emerging product.

  <bullet> NIST participates in technical committees of standards 
        developing organizations, and publicly disseminates its product 
        for peer comment.

  <bullet> National professional, engineering, and standards developing 
        organizations adopt.

  <bullet> Some of the key players NIST works with in this process 
        include NFPA, ASHRAE, ASTM, ACI, ASCE, NIBS, and the affected 
        industrial, trade or professional organizations.

  <bullet> The cycle time for this process from problem definition to 
        change in use--runs from a minimum of a few years to a decade 
        or more.

    Question 3. You mentioned that equipment for first responders is 
very specialized and generally produced by small manufacturers.

    a) How capable are small manufacturers to continue to provide this 
increasingly specialized type of equipment?

    Answer. Very much so, in fact small and medium sized manufacturers, 
SMEs, tend to be very creative and innovative. They are quite adept 
especially at filling initially small new niches for specialized 
equipment. Their success often depends on partnering with others and 
drawing on the broad array of resources available to them in the 
private and public sectors.
    NIST works closely with many such firms. For example, some 72 
percent of NIST's Advanced Technology Program, ATP, projects involve 
SMEs many of which apply in partnership with other firms or 
Universities to bring the required capabilities together to deliver 
innovative products. For example, the Advanced Technology Program has 
recently awarded Valaran Corporation (Princeton, NJ) $1.8 million to 
cover the direct cost of developing the software infrastructure that 
will overcome problems associated with low or unpredictable bandwidth 
and diverse communication appliances. If successful this project will 
significantly enhance communications between first responders, law 
enforcement agents, and other emergency response personnel using 
existing technologies and accelerate the development of new 
communication technologies that will enable new markets for the First 
Responder industry.
    NIST has an active and vital Small Business Innovative Research, 
SBIR, program. A number of projects have dealt with equipment for first 
responders. One ongoing project involves development of new 
communications technology with application to firefighters.
    NIST's Manufacturing Extension Partnership, MEP, program has over 
400 locations nationwide. MEP provides additional services needed by 
many small firms in delivering new products to market and also provides 
a link for those firms with technical issues back to resources 
available in the NIST and other federal laboratories.
    Many small manufactures do not have individual capacity to perform 
or fund research. Where there are common interests, manufacturers have 
come together to conduct jointly funded studies and share the results. 
NIST workshops often stimulate opportunities for such interchange. Many 
manufacturers and material suppliers have taken the opportunity to use 
specialized or unique measurement facilities at NIST to evaluate the 
performance of their present and prototype products. These measurements 
generally provide performance information that is not part of the 
testing that establishes compliance with present standards. For 
example, currently within NIST a new program is being developed to 
assist technology developers in this field. ``NIST Distributed Testbed 
for 1st Responders'' is a collaborative effort with NIST's Information 
Technology Laboratory, Building and Fire Research Laboratory and the 
Manufacturing Engineering Laboratory. This project will support private 
sector firms developing new integrated communications and networking 
technologies to provide critical building situation information to 
first responders.
    As mentioned in our response to question 5 below, the Department of 
Commerce's Technology Administration (TA) has recently signed a 
Memorandum of Understanding with the Department of Homeland Security 
(DHS). This agreement develops a formal working relationship with the 
DHS Science and Technology Directorate and NIST. This effort will 
include a wide range of initiatives including ``interoperability'' 
standards for first responders' equipment and thereby enhance the 
competitiveness of many small manufacturers.

    b) How involved are the small manufacturers in the development of 
standards for first responders equipment?

    Answer. They are quite actively involved since, typically, changes 
in existing or new standards or measures of performance are necessary 
to gain acceptance of their products, and generally there are no 
published performance requirements from first responder organizations 
of the sorts of equipment they seek.
    In the fire protection field there is no central mechanism or 
responsibility for developing performance requirements, test methods, 
standards or compliance of new fire fighting equipment. Consequently, 
the process of innovation is long and typically frustrating. Similarly, 
particularly smaller, fire departments have no place to go for new 
equipment performance requirements and guidance on the capabilities on 
new products that marketers present to them.
    In the fire fighting equipment standards writing committees in 
which NIST participates, we find active participation by manufacturers. 
Equipment standards adopted nationally establish minimum requirements 
for first responder equipment. Often, specialized new equipment is 
targeted initially for those seeking better than minimum capabilities.
    For years, the NIST Office of Law Enforcement Standards, supported 
by the Department of Justice has been serving the law enforcement 
community by providing a central source for development of performance 
requirements, test methods and equipment standards. The scope of OLES 
is now being expanded to include similar support of the new Department 
of Homeland Security's Office of Domestic Preparedness, ODP. This 
should lead to an extension of the same capabilities to the needs of 
all first responders. Our participation in voluntary consensus 
standards committees provides a channel for bringing new developments 
into broader use.

    Question 4. Your testimony describes NIST's research to develop the 
capability of having building emergency systems fire information 
transmitted through wireless communications to the responding 
firefighters before they arrive at a fire. Can you elaborate on the 
benefits of the advanced information to the fire fighters?
    Answer. Today, when firefighters are called to respond to a 
building fire, they know very little about the conditions until they 
arrive at the building. The more reliable information that is available 
to firefighters, the better and safer their response will be. 
Firefighters are killed and injured because they are not fully aware of 
fire conditions in buildings and changes that can occur rapidly. 
Accurate knowledge of conditions and rate of fire growth at an incident 
is critical to fire fighter safety.
    The first task after arrival is to ``size up'' the situation. 
Information is gathered from observation of the building from the 
outside and if it is deemed safe enough, firefighters go into the 
building to investigate condition. For example, part of the fire 
protection for modern buildings is an automatic fire alarm system. This 
system collects data from fire detection devices throughout the 
building. Generally, it is an alarm signal from this automatic system 
that through a central monitoring station notifies the fire department 
of fire in the building. Even though the fire alarm system continues to 
monitor conditions in the building after the initial alarm, only the 
initial fire signal is sent out of the building. Firefighters have to 
respond to the site to extract additional information about fire 
conditions from fire alarm system that is located inside the burning 
building.
    Looking to the future, this situation can be improved with advanced 
technology. All of the information contained in the alarm system can be 
transmitted by wireless communications to the fire station and to the 
responding vehicles. Having a continually updated flow of information 
about conditions in the building would allow responders to match the 
response to the fire. For example, this will allow for earlier response 
of additional equipment when more than the first alarm and pre-
emergency planned response is needed.
    Pre-emergency plans prepared by firefighters for buildings in their 
area can be cast in an electronic form that can receive and display the 
fire information from a building as well as information from other 
building systems. The merging of building design information, fire 
department pre-emergency plans, and the dynamic data from building 
sensors during emergencies, provides the foundation for a future 
firefighter decision support systems. These systems can use predictive 
fire models, based on the fire science developed at NIST and elsewhere, 
to provide reliable guidance to fire officers in their decisions about 
how to best utilize limited resources in an emergency response.

    Question 5. As you stated, NIST signed a Memorandum of 
Understanding with FEMA in March 2002 and is about to sign a memorandum 
of understanding with the Science and Technology Directorate of the new 
Department of Homeland Security. Could you please describe the research 
that NIST will carry out under these agreements?
    Answer. A Memorandum of Understanding (MOU) between the Directorate 
of Science and Technology, Department of Homeland Security (DHS) and 
the Technology Administration, U.S. Department of Commerce was signed 
on May 22, 2003. This MOU sets forth the basic principles and 
guidelines under which the two organizations will collaborate upon 
mutually agreed research and planning activities. The focus will be 
upon NIST's unique capabilities and expertise in measurement science 
and standards development. NIST is also participating in the newly 
chartered ANSI Homeland Security Standards Panel (HSSP), which is 
serving as a focal point for integrating DHS priorities for standards 
development with activities in key standards development organizations.
    Additionally, an Interagency Agreement has been signed between the 
Office for Domestic Preparedness (ODP), formerly of the Office of 
Justice Programs, now part of the Borders and Transportation Security 
Directorate, Department of Homeland Security, and NIST's Office of Law 
Enforcement Standards (OLES) to continue a program managed by OLES for 
the development of a national suite of CBRNE (chemical, biological, 
radiological, nuclear, and explosive) protective equipment standards 
for emergency first responders. Initial funding for this program was 
provided by the Oklahoma City National Memorial Institute for the 
Prevention of Terrorism (MIPT), and subsequently funded by the National 
Institute of Justice. These earlier efforts led to a NIOSH standard for 
Self-Contained Breathing Apparatus (SCBA) and produced an important set 
of guides and databases to help emergency first responders in the 
evaluation and purchase of chemical and biological detection, personal 
protective, and communications equipment. The continuation of this 
program under ODP will be significantly expanded to address nuclear/
radiological threats, decontamination standards, and explosive 
detection standards.
    The Office of Law Enforcement Standards has been working in close 
collaboration with DHS S&T to ensure that the two efforts, those 
sponsored by S&T and ODP will be mutually supporting. Preliminary 
coordination with S&T indicates that OLES will serve as the NIST 
technical point of contact and focal point for program coordination for 
the S&T sponsored efforts, and this will further ensure that these 
efforts will not be in conflict.

    Question 6. One issue related to fire safety research is the need 
for better research into structural materials and how they react to 
fire. Can you describe the research that NIST is conducting in this 
area?
    Answer. NIST, as part of the multi-year WTC R&D program, is 
conducting research into a number of areas to provide the technical 
basis for developing improved performance of structural materials and 
systems exposed to fire, with the following objectives:

  <bullet> To develop an efficient test method for evaluating the fire 
        resistance of bare structural steel.

  <bullet> To provide tools and practical guidance for the design and 
        selection of fire-protective materials and systems, and support 
        for the development and implementation of performance-based 
        standards of fire-protective materials and systems for 
        structural steel.

  <bullet> To develop and support the implementation of significantly 
        improved standards, tools, and practical guidance for the fire 
        safety design and retrofit of structures.

  <bullet> To provide the technical basis for accurate measurement and 
        simulation methodology for inclusion of fire resistance 
        properties of non-load-bearing, gypsum-based walls and ceilings 
        in performance-based fire safety design.

    The burn-through and collapse of non-loading bearing walls and 
ceilings greatly impact the rate at which the fire spreads through a 
building, and the thermal load on the structural materials. Hence, the 
fourth objective above is a prerequisite to developing predictive 
capabilities of the performance of the load bearing structure during a 
fire. Unambiguous measurements on real-scale systems are a critical 
element of the NIST research. Also, such measurements and tests are 
essential to move the results into practice and to achieve timely 
adoption of improvements in building and fire codes.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John McCain to
                           Randy R. Bruegman
    Question 1. S. 321, the Firefighting Research and Coordination Act 
would authorize $2.2 million in FY2004 to allow the federal government 
to work with the private sector to develop basic uniform performance 
criteria and technology standards for new technologies. How important 
are equipment standard for firefighters?
    Answer. The fire and emergency service remains one of the only 
industries in which mandatory equipment standards have not been 
established. These standards are important because they address multi-
dimensional needs for fire departments. Without more stringent 
adherence and incentives for manufacturers to meet industry standards 
and fire department to buy items with standards, fire departments often 
buy equipment and/or components that do not operate with existing 
equipment within their own department or in a case where several 
departments are working together. There are a growing number of good 
consensus standards being developed within the fire community and the 
federal government but there remains no means to appropriately test 
their applicability and there is not accountability to adhere to these 
standards.

    Question 2. How does your organization view the transfer of the 
U.S. Fire Administration to the Department of Homeland Security?
    Answer. The International Association of Fire Chiefs (IAFC) and the 
fire community recognize the vitally import role of first responders 
within the new Department of Homeland Security (DHS). First responders 
will be at the backbone of the reaction to any homeland security breech 
this country may face and we take that position very seriously. A very 
serious concern for the fire and emergency service is the continued 
reduction of the fire service presence in the DHS. In addition to our 
continuing publicly voiced concern about the FIRE Act, the recent 
elimination of the Administrator of the U.S. Fire Administration and 
the cancellation of a significant number of National Fire Academy 
classes sent the wrong message to our community. Although Secretary 
Ridge has pledged to temporarily rectify these problems, the fire 
service got the message; DHS is not taking the best interests of the 
fire service into consideration in making important decisions about 
fire programs. We have good reason to be concerned about the 
representation of the fire service in this process.

    Question 3. In a number of reports, the General Accounting Office 
has criticized the duplication of fire responder training programs by 
federal agencies. How does this duplication affect firefighters?
    Answer. We do not believe there is any, certainly not much, 
duplication of fire service training programs sponsored by federal 
agencies.

    Question 4. It appears that the government is providing some 
funding for new equipment, but yet staffing problems persist. Do you 
envision nay new technologies that may actually reduce the amount of 
staffing needed by fire departments?
    Answer. Firefighting, rescue work, hazardous materials handling, 
emergency medical services and the other activities performed by 
firefighters are labor intensive. New tools, new technologies can 
certainly be helpful but can not supplant the trained, human 
firefighter.

    Question 5. One issue of great concern to me that is discussed in 
your statement is the issue of public safety communications 
interoperability. Besides the spectrum, issue, are there other actions 
that the federal government should take to address this problem?
    Answer. Yes there are. At this time SAFECOM, an e-government 
initiative, is being established in the Department of Homeland Security 
within the Science and Technology Directorate. Emergency first 
responder organizations of state and local government are being 
included in the decision-making process which is essential. We urge 
that your Committee play an active oversight role to ensure that local 
and state first responder organization in fact have an appropriate 
voice in SAFECOM.

    Question 6. From the fire chiefs perspective, do you feel that the 
review process for the Assistance to Firefighter Grant program is 
working properly? Are there improvements that can be made?
    Answer. The peer review process is critical to the success of the 
Firefighter Grant program and is working properly. In fact, the single 
most significant ``improvement'' that can be made to the program is to 
allow it to continue under its present management by FEMA.

    Question 7. Many state and local governments are developing mutual 
aid plans to deal with terrorist attacks and natural disasters. What 
role can the federal government play in efforts by state and local 
governments to improve their coordination efforts?
    Answer. In the aftermath of the terrorist attacks on September 11, 
2001, the federal government made much of the financial assistance it 
provided to state and local governments contingent upon the development 
and implementation of robust mutual aid agreements among local 
jurisdictions and regional entities. This policy was consistently 
applied by FEMA's Office for National Preparedness and the White House 
Office of Homeland Security. As the Department of Homeland Security 
reviews the financial assistance it provides to state and local 
governments for the purpose of enhancing response to terrorist attacks 
and natural disasters, it should continue to enforce this policy.

    Question 8. Can you elaborate on how the current placarding system 
for the transportation of the hazardous materials works and what the 
Department of Homeland Security proposed changes would mean to public 
safety?
    Answer. The current placarding system for the transportation of 
hazardous materials is required by law and administered by the 
Department of Transportation. Firefighters and other first responders 
have been trained in dealing with hazmat incidents and the placarding 
system is very important to the identification of product. Firefighters 
are required by federal law, administered by OSHA, to be trained to the 
awareness level in hazmat response and need annual recertification. The 
IAFC cannot condone the removal of placards from hazmat shipments until 
such time as a proven system is in place and America's firefighters, 
and other first responders, are trained in its use. Otherwise, 
emergency response personnel and the public they protect will be unduly 
endangered.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maria Cantwell to
                           Randy R. Bruegman
    Question 1. Fire departments in my state of Washington, and Across 
the United States, are very dependent on the funds provided through the 
FIRE Act grant program. By mandating that funding be distributed to 
meet the needs of individual fire departments, the FIRE Act program 
ensures specific needs are addressed. However, the Administration's 
fiscal year 2004 budget not only reduces this funding to $500 million, 
but also proposes to shift the program to a separate first responders 
grant that would be distributed by states. What effect do you believe 
this change will have on local fire departments?
    Answer. We strongly believe that moving the FIRE Act program from 
the Federal Emergency Management Agency will have a negative impact on 
America's fire service. Currently, all of the funds appropriated for 
the FIRE Act program reach fire departments for the purposes intended. 
Such is not the experience with formula grant programs that run through 
the states. Section 430 of the Homeland Security Act for 2002 clearly 
states the Federal Emergency Management Agency shall have the primary 
responsibility within the executive branch to prepare for and mitigate 
the effects of nonterrorist-related disasters in the United States. The 
FIRE Act is not a counter terrorism program. It is a program to build 
the base of local fire departments to prepare for and respond to all 
risks, all hazards. This, of course, better prepares these departments 
to respond to incidents caused by terrorists which is just another risk 
in our society.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John McCain to
                             Kevin O'Connor
    Question 1. S. 321, the Firefighting Research and Coordination Act 
would authorize $2.2 million in FY 2004 to allow the federal government 
to work with the private sector to develop basic uniform performance 
criteria and technical standards for new technologies. How important 
are equipment standards for firefighters?
    Answer. Given the current condition of incompatible firefighting 
equipment afflicting the fire service--largely caused by lack of 
equipment standards--it is critical that future equipment meet minimum 
standards that would make them interoperable.

    Question 2. How does your organization view the transfer of U.S. 
Fire Administration to the Department of Homeland Security?
    Answer. Transferring of the U.S. Fire Administration to DHS is 
generally a positive development. It assures that the fire service will 
be recognized as an integral component of our nation's homeland 
security system. Our lone concern stems from the current focus on 
threats from terrorism. While preparing for a terrorist attack must 
remain a top national priority, we must never forget that terrorism is 
only one component of national security, and only one job of the fire 
service. Every day, firefighters respond to thousands of life 
threatening situations throughout the nation. USFA's mandate must 
remain broad enough to address the full range of fire service issues.

    Question 3. In a number of reports, the General Accounting Office 
has criticized the duplication of first responder training programs by 
federal agencies. How does this duplication affect firefighters?
    Answer. While on the surface some training programs may seem 
duplicative, they often address different needs. For instance, both the 
Energy and Transportation Departments provide hazardous materials 
training programs for first responders. However, the DoT training 
program addresses the unique circumstances involved when responding to 
hazmat transportation incidents, while the DoE training prepares 
firefighters for incidents that occur at Dept of Energy Nuclear 
facilities. Care must be taken in any attempts to eliminate seeming 
duplication so as not to dismantle programs that serve unique and 
important roles.

    Question 4. It appears that the government is providing some 
funding for new equipment, but yet staffing problems persist. Do you 
envision any new technologies that may actually reduce the amount of 
staffing needed by fire departments?
    Answer. While technology can make firefighters more efficient, 
firefighting has always been, and it will continue to be, labor-
intensive, requiring distinctly human traits like agility, mental 
dexterity, and overall ability to respond to unforeseen events. We do 
not foresee any technology in the near future that can mitigate the 
need for adequate staffing.

    Question 5. In your testimony, you state that the IAFF is 
``especially supportive'' of creating a national credentialing system 
for emergency responders.

    a) Why is a national credentialing system so important?

    Answer. Unlike the other major emergency response disciplines - 
police and emergency medical care--states generally do mandate specific 
training or skill levels for fire fighters. As a result, firefighters 
may be entrusted with responsibilities that they are not adequately 
trained for. A recent survey conducted by the National Fire Protection 
Association found that 27 percent of fire fighters providing emergency 
medical care and 40 percent of fire fighters performing hazardous 
materials response had no formal training in these fields. The lack of 
a credentialing system poses particular problems during large-scale 
disasters. Local emergency management officials who have orchestrated 
responses to disasters ranging from the World Trade Center attacks to 
Hurricane Andrew have cited the lack of consensus about what afire 
fighter is capable of as a key obstacle in making the best use of the 
mass influx of fire fighters from around the country, many of whom 
arrive on their own, rather than as part of a company.

    b) How should such a system be designed?

    Answer. We believe the U.S. Fire Administration is the best 
organization to examine various options and propose an answer to this 
important question. We therefore strongly endorse the approach 
contained in S.321: asking USFA to issue a report to Congress on 
credentialing and related issues.

    Question 6. Some critics of S. 544, the Staffing for Adequate Fire 
and Emergency Response (SAFER) Firefighters Act of 2003, have stated 
that the grant program for hiring new firefighters will not be 
successful, because the new firefighters will simply be laid off after 
the federal funding ends in the fourth year. While the bill would 
require a grant recipient to keep the firefighter for a fifth year, 
what will ensure that the firefighter remains employed after that?
    Answer. S. 544 has four safeguards to prevent such occurrences. 
First, as part of its application, jurisdictions must include a 
detailed plan that answers how the jurisdiction would pay for the 
position in out years. A jurisdiction that does not have a viable plan 
to retain the position would not receive a grant. Second, the federal 
share of the cost decreases each year of the grant so that by the 
fourth year, the localities will pay 70 percent of the costs. This 
sliding support makes localities more likely to be self-sufficient in 
out years. Third, S. 544 requires federal audits. Lastly, the 
experience of the COPS program shows that jurisdictions generally 
retain personnel with 4 years of experience and training.

    Question 7. S. 544, the Staffing for Adequate Fire and Emergency 
Response (SAFER) Firefighters Act of 2003 is expected to hire close to 
75,000 new firefighters. What evidence do you have that 75,000 is the 
number that is required to solve the firefighter staffing problem?
    Answer. The National Fire Protection Association recently completed 
a comprehensive needs analysis of the U.S. fire service. The NFPA 
estimated that between 75,000 to 85,000 additional firefighters are 
needed to safely and effectively respond to daily emergencies.

    Question 8. If the federal government creates a grant program for 
hiring firefighters, what is to prevent the burden for hiring 
firefighters from shifting from the state and local governments to the 
federal government?
    Answer. S. 544 is designed to assist localities with the initial 
costs of hiring additional firefighters. Because of the sliding level 
of support, it would be virtually impossible to permanently shift the 
responsibility of hiring local firefighters to the federal government.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maria Cantwell to
                             Kevin O'Connor
    Question 1. Fire departments in my state of Washington, and across 
the United States, are very dependent on the funds provided through the 
FIRE Act grant program. By mandating that funding be distributed to 
meet the needs of individual fire departments, the FIRE Act program 
ensures specific needs are addressed. However, the Administration's 
fiscal year 2004 budget not only reduces this funding to $500 million, 
but also proposes to shift the program to a separate first responders 
block grant that would be distributed by states. What effect do you 
believe this change will have on local fire departments?

    Answer. These two proposals would do great harm to the FIRE Act 
grant program and effectively end the first federal program that 
directly assists the nation's 30,000+ fire departments. The unique 
success of the FIRE Act is due to the fact that it is a merit-based, 
peer reviewed, direct grants to fire departments. Each application 
undergoes at least one level of scrutiny and only the most deserving 
departments are awarded grants. If the FIRE Act was converted to 
another form of block grants, the purpose of helping those departments 
most in need would be lost and the overall impact on the fire service 
would diminish. Additionally, funding the FIRE Act at $500 million, 
instead of the authorized level of $900 million, would be a step 
backwards for the program. Considering that the FIRE Act was funded at 
$750 million in the current year and the total requests in just the 
first two years of the program amount to $5 billion, the full $900 
million is entirely warranted.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John McCain to
                         Philip C. Stittleburg
    Question 1. S. 321, the Firefighting Research and Coordination Act 
would authorize $2.2 million in FY 2004 to allow the federal government 
to work with the private sector to develop basic uniform performance 
criteria and technical standards for new technologies. How important 
are equipment standards for firefighters?
    Answer. Standardization has always been of major importance to the 
fire service. With the current efforts toward achieving real 
``interoperability'' the need is becoming even more apparent. The fire 
service, through standards making bodies such as the National Fire 
Protection Association (NFPA), has set standards for our personal 
protective equipment, apparatus, training, and management which the 
fire service relies on when making purchases. Overdue are standards for 
our other firefighting equipment, data collection, credentials, and 
terminology. Often we are forced to rely on the integrity of the 
manufacturer or the salesman.
    Equipment standards are helpful to an incident commander (IC) 
because they provide him the knowledge he needs regarding the abilities 
and equipment that he has requested. In addition, equipment 
standardization saves the department (and the taxpayer) real dollars. 
With standards an agency can purchase an item and be confident of 
interoperability, equipment capability, and use.

    Question 2. How does your organization view the transfer of U.S. 
Fire Administration to the Department of Homeland Security?
    Answer. From the beginning, the NVFC supported the move of the U.S. 
Fire Administration and FEMA to the new Department of Homeland 
Security. In fact, in July 2002, the NVFC and other major fire service 
organizations released an official position paper on the proposed 
Department of Homeland Security. The document, entitled ``Protecting 
our Nation: The American Fire Service Position Paper on the Department 
of Homeland Security,'' was issued to provide guidance to Congress and 
the Administration on the concerns of the fire service regarding the 
functions and structure of the proposed new department and our 
priorities.
    However, we have been concerned that the U.S. Fire Administration, 
and by extension the fire service, has not been as vital a part of the 
new department as we had envisioned. This has been evident in the 
recent attempts to cut classes at the National Fire Academy and the 
proposed elimination of the U.S. Fire Administrator position, which 
would severely hamper the ability of the fire service to carry our 
message to the President and the Secretary of Homeland Security. The 
Department cannot forgo the Federal government's commitment to the 
basic needs of America's fire service in the name of Homeland Security.
    In addition, the NVFC is strongly opposed to the proposal by the 
Department of Homeland Security to move the Assistance to Firefighters 
Grant program into ODP within its Border and Transportation Security 
Directorate. The NVFC does not understand the benefit of moving a 
program aimed at equipping and training America's firefighters out of 
the lead federal agency for the fire service and into a section of the 
department that exercises little, if any control, over federal fire 
programs. The move will require the government to reinvent the wheel, 
with new staff new training, and new infrastructure, at a time when the 
Federal Government should be completely focused on delivering these 
dollars to our local first responders.

    Question 3. In a number of reports, the General Accounting Office 
has criticized the duplication of first responder training programs by 
federal agencies. How does this duplication affect firefighters?
    Answer. The NVFC continues to be concerned about the duplication of 
first responder training programs by federal agencies. More 
specifically, we have serious concerns regarding ODP's training pro 
grams and their unwillingness to work with state training agencies that 
are well-established and have a proven track record in the training of 
the fire service such as state fire training agencies and the National 
Fire Academy.
    Each year the state fire training systems train over 750,000 
students nationally, many of them volunteers. While ODP's training 
consortium has developed some excellent terrorism programs for first 
responders, these centers service a small number of students at very 
high costs. We feel that some first responder terrorism training 
dollars need to go to enhance and strengthen the state training system. 
Unfortunately, terrorism training dollars are not going to them at all. 
In fact, the small amount of terrorism funding that these agencies 
received in the past through the National Fire Academy has been 
redirected to ODP. The NVFC is concerned that the Federal government is 
reinventing the wheel and not utilizing the most efficient methods of 
delivering services to the fire service, which is already in place, 
state and local fire service training agencies.

    Question 4. It appears that the government is providing some 
funding for new equipment, but yet staffing problems persist. Do you 
envision any new technologies that may actually reduce the amount of 
staffing needed by fire departments?
    Answer. Regardless of the new technologies that may reduce the 
amount of staffing needed by fire departments, fire suppression will 
continue to be a labor intensive job and able-bodied people are needed 
to perform many firefighting tasks. This is true for communities of all 
sizes.
    However, there is technology already available that would helps to 
make a firefighter's work safer and reduce the risk associated with 
fire. This technology is fire sprinklers and efforts need to be made at 
all levels of government to promote their use. At the Federal level, 
legislation has been introduced (H.R. 1824), which would provide tax 
incentives for the voluntary installation and retrofitting of buildings 
with automated sprinklers. We encourage Congress to pass this 
legislation.
    Another area where of technology will help increase the 
effectiveness of personnel is in the field of resource management. This 
includes equipment, supply, and personnel tracking both at the 
incident, and during daily routines. This technology exists; the 
problem is that many of the fire agencies do not have sufficient 
computers, networks, or internet connections that allow them to take 
advantage of it.
    Finally, Global Positioning Systems (GPS) will soon be able to 
provide officers the ability to track their firefighter on the 
fireground. However, the fire service lacks the financial resources to 
afford this technology, as well as the standardization that would 
provide true interoperability.

    Question 5. Do you support the development of a national 
credentialing system for first responders?
    Answer. The NVFC supports the establishment of a national 
credentialing system for first responders. In fact, in an August 2002 
report by the NVFC entitled ``The Role of the Volunteer Fire Service in 
the September 11, 2001 Terrorist Attacks,'' one of the major problems 
that was identified was the self-dispatching of agencies to the 
incidents.
    The importance of command and control on the fireground cannot be 
overemphasized. All personnel, career and volunteer, must be aware of 
and conform to standard operating procedures for response to major 
incidents, his imperative that the IC knows what units and which 
personnel are operating on the scene of an emergency incident. Self-
dispatching by fire service personnel is dangerous and should be 
actively discouraged.
    The need for national credentialing has been apparent to agencies 
such as the U.S. Forest Service and the Department of Interior agencies 
since the late 1980's. The municipal, police, fire, and to some extent 
EMS agencies have been slow to catch up due to the perceived lack of 
need for mutual aid and regional planning. The need to work together 
has become more necessary as budgets get tighter.
    Most agencies can handle the ``average'' incident. They now must 
rely on neighboring agencies for assistance on large incidents or 
during times of personnel shortages. As no IC should allow a responder 
to perform work that they lack training or skills in, they have two 
choices. The IC may take a person's word that they are qualified or 
they are forced to refuse to use them. A national credentialing system 
can serve to promote safety, reduce resource requirements, and reduce 
liability.

    a. How should such a system be designed?

    Answer. A good system should be designed that identifies not only 
personal information but training qualifications. The system would take 
advantage of machine readable media, computerization, internet based 
centralization (for standard ID production), and automated data 
collection, credential verification and reporting. The system must be 
low cost to access, low cost for identification, easy and simple to 
use. Natural control points would be the Department of Homeland 
Security, State Emergency Management, through local emergency 
management agencies. An internet based system could allow the local 
department to produce identification cards at a low cost based on rules 
and credentials set by a national system. This could provide both a 
national database of emergency responders and standardization for 
interoperability on a local or regional basis. If the system used is 
optional it will not work. We require a driver's license to drive a 
vehicle, why can we not require an ``emergency responder'' ID for 
saving lives and property?

    Question 6. In your testimony, you recommend that S. 544, the SAFER 
Act, should include provisions for a grant program for volunteer 
firefighter recruitment and retention.

    a) Could you expand on the recruitment and retention programs that 
you envision under such a grant program?

    Answer. The NVFC feels that any initiative by Congress to address 
the personnel shortfall in the fire service must include a significant 
recruitment and retention component to account for the nearly 90 
percent ofAmerica  communities that are protected by volunteers. The 
recruitment and retention of volunteer firefighters and EMS personnel 
has become the number one challenge facing America's volunteer fire 
service. The ranks of the volunteer fire service have decreased close 
to l5 percent in the last 20 years. Combining grant to hire 
firefighters with funding for volunteer recruitment and retention will 
lead to increased staffing in every firehouse in America.
    Some possible programs that could be implemented with recruitment 
and retention grants include: national and local recruitment campaigns; 
the creation and augmentation of length of service award programs and 
other pension pro grams for volunteers; tuition assistance for higher 
education; and affordable housing programs. In addition, Congress 
should consider tax credits and deductions for volunteers and increased 
proliferation of on-line training for volunteers.
    Finally, recruitment money included in the SAFER could be directed 
towards a national campaign in conjunction with the Citizen Corps 
initiative. In the last year, national PSAs and other advertising have 
been encouraging Americans to volunteer in their communities. However, 
there has been little focus on encouraging citizens to join their local 
volunteer fire or EMS departments.

    b) How much would such a grant program cost?

    Answer. A grant program for recruitment and retention should be 
authorized at $75 million per year. That is less than one-tenth of the 
proposed hiring grants authorized in the Staffing for Adequate Fire and 
Emergency Response Firefighters Act (S. 544 /H.R. 1118).

    Question 7. In your statement, you have proposed funding the 
Assistance to Firefighters Grant program at $900 million in FY 2004, as 
opposed to $500 million as proposed by the President. What is the 
impact of the additional $400 million to the nation's volunteer 
firefighters?
    Answer. The proposed cut in funding by the Administration would 
have a very significant impact in our efforts to meet the basic needs 
of volunteer fire departments across this country. These needs have 
been demonstrated in a variety of ways.
    First, on January 22, 2003 FEMA and the National Fire Protection 
Association (NFPA) announced a comprehensive study that examined the 
needs and response capabilities of the nation's fire service. The study 
established a current understanding of problem areas to guide future 
planning and initiatives to enhance fire services and firefighter 
safety. Among other things, the Needs Assessment Study of the U.S. Fire 
Service found:

  <bullet> Just over 13,000 fire engines (pumpers) (16 percent of all 
        engines) are 15 to 19 years old, another 17,000 (21 percent) 
        are 20 to 29 years old, and just over 10,000 (13 percent) are 
        at least 30 years old. Therefore, half of all engines are at 
        least 15 years old.

  <bullet> An estimated one-third of firefighters per shift are not 
        equipped with self-contained breathing apparatus (SCBA). Nearly 
        half of SCBA units are at least 10 years old.

  <bullet> Nearly half of the emergency responders per shift are not 
        equipped with personal alert system (PASS) devices.

  <bullet> An estimated 57,000 firefighters lack personal protective 
        clothing, most in departments protecting communities with less 
        than 2,500 population. An estimated one-third of personal 
        protective clothing is at least 10 years old.

  <bullet> In general, fire departments do not have enough portable 
        radios to equip more than about half of the emergency 
        responders on a shift and most radios lack intrinsic safety in 
        an explosive atmosphere are and not water-resistant.

  <bullet> An estimated 40 percent of fire department personnel 
        involved in hazardous material response lack formal training in 
        those duties, most of them serving in smaller communities.

    In addition, in the current FY 2003 Assistance to Firefighters 
grant cycle nearly 20,000 fire departments requested close to $2.1 
billion to meet basic needs. At a time when billions of federal dollars 
are being spent on preparing first responders for terrorism incidents, 
the federal government cannot lose sight of the fact that fire 
departments must have local fire departments have the basic tools they 
need to do their jobs on a daily basis, before we can ask them to be 
fully prepared to respond to large-scale incidents.

    Question 8. You have mentioned that the USFA has cut 36 courses 
from its curriculum due to budget cuts. Can you discuss the practical 
impact of these reductions to the local fire departments?
    Answer. A few weeks after the NVFC testified before the Senate 
Commerce Committee, the Department of Homeland Security and FEMA 
announced that the cancelled classes had been reinstated. The NVFC is 
obviously very encouraged by these developments but is concerned that 
the Department of Homeland Security has simply diverted funds from 
other fire programs to cover the shortfall. At the same time billions 
of dollars are going to the states for terrorism training, the U.S. 
Fire Administration should not have to choose between funding classes 
at the Academy and funding public education or other key programs.

    Question 9. Are there any special needs that apply specifically to 
districts that rely upon volunteer firefighters?
    Answer. One of the largest problems faced by America's volunteer 
fire service is funding. Many volunteer fire departments struggle to 
provide their members with adequate protective clothing, safety devices 
and training to protect their communities, as mandated by regulations 
and standards. These fire companies, in towns across America, are being 
asked to respond to emergency calls involving hazardous materials, 
structural fire suppression, search and rescue, natural disasters, 
wildland fires, emergency medical services, and terrorism.
    In these difficult times, while volunteer fire departments are 
already struggling to handle their own needs and finances, they are now 
forced to provide more services. Often, local governments are unable to 
afford the extensive training and specialized equipment that these 
activities require. In addition, many volunteer fire companies receive 
little or no tax money and must use fundraising to pay for these items.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maria Cantwell to
                         Philip C. Stittleburg
    Question 1. Fire departments in my state of Washington, and across 
the United States, are very dependent on the funds provided through the 
FIRE Act grant program. By mandating that funding be distributed to 
meet the needs of individual fire departments, the FIRE Act program 
ensures specific needs are addressed. However, the Administration's 
fiscal year 2004 budget not only reduces this funding to $500 million, 
but also proposes to shift the program to a separate first responders 
block grant that would be distributed by states.
    What effect do you believe this change will have on local fire 
departments?
    Answer. Thanks to the leadership of many members of Congress, the 
Federal government took a giant step in addressing the basic needs of 
America's fire service by creating the Assistance to Firefighters Grant 
program. Every fire department across the country is now eligible for 
direct funding for equipment, apparatus, training, fire prevention and 
education, and wellness and fitness programs.
    The Assistance to Firefighters Grant program has proven to be the 
most effective program to date in providing local volunteer and career 
fire departments not only with the tools they need to perform their 
day-to-day duties, but it has also enhanced their ability to respond to 
large disasters as well. As we move to prepare for terrorist incidents 
at home, we must first ensure that local fire departments have the 
basic tools they need to do their jobs on a daily basis, before we can 
ask them to be fully prepared to respond to large-scale incidents.
    This program has been successful for a variety of reasons. Most 
importantly, it is the only federal program that provides funding 
directly to fire departments for training and equipment. Far too often 
federal funds intended to aid fire departments are diverted to other 
uses by state and local officials.
    As you stated, in February, President Bush included $500 million 
for the Assistance to Firefighters Grant program in his 2004 budget 
request. The Administration also proposed moving the program out of 
FEMA and USFA, which are in the Emergency Preparedness and Response 
Directorate of the Department of Homeland Security, and into the Office 
of Domestic Preparedness (ODP), located in the Border and 
Transportation Security Directorate.
    While $500 million in funding is a good start and this is the first 
time that the program has been in an Administration budget, the NVFC 
feels that Congress needs to fully fund the program at the $900 million 
level to meet the increased responsibilities that we face and the 
staggering demand for grant funds.
    In addition, the NVFC is strongly opposed to the proposal to move 
the program into the Office for Domestic Preparedness (ODP), located in 
the Border and Transportation Security Directorate of Homeland 
Security. The NVFC does not understand the benefit of moving a program 
aimed at equipping and training America's firefighters out of the lead 
federal agency for the fire service and into a section of the 
department that exercises little, if any control, over federal fire 
programs. The move will require the government to reinvent the wheel, 
with new staff, new training, and new infrastructure, at a time when 
the Federal Government should be completely focused on delivering these 
dollars to our local first responders.
    In addition, we are concerned that the proposed move will 
eventually lead to consolidating the program into other state-based 
block grants that ODP currently administers. This consolidation was 
proposed by the Administration in their FY 2003 budget and fortunately 
was not supported by Congress.
    Finally, many of these departments who are receiving aid through 
the Assistance to Firefighters Grant program are rural and suburban 
volunteer fire departments that struggle the most to provide their 
members with adequate protective gear, safety devices and training to 
protect their communities. They are being asked to respond to emergency 
calls involving hazardous materials, structural fire suppression, 
search and rescue, natural disasters, wildland fires, emergency medical 
services, terrorism, and more. Our recent experience tells us that 
these small and mid-sized departments will receive little or no funding 
if the program combined with a separate first responders block grant 
that would be distributed by states.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John McCain to
                           R. David Paulison
    Question 1. This Committee held the confirmation hearings for your 
nomination to the position of U.S. Fire Administrator on November 1, 
2001. Now there is some question about the status of the position of 
U.S. Fire Administrator after the transfer of the U.S. Fire 
Administration to the Department of Homeland Security.

    a) What is the status of the position of U.S. Fire Administrator?

    Answer. While the position of U.S. Fire Administrator was retained 
by the enactment of H.R.5005, its status as a Senate-confirmed 
appointment was not. However, S, 1152, the U.S. Fire Administration 
Reauthorization of 2003 (P.L. 108-169), reauthorized the Senate 
confirmed position of U.S. Fire Administrator through FY 2008.

    b) If the U.S. Fire Administrator position is eliminated, who is 
actually running the agency?

    Answer. The U.S. Fire Administrator position was not eliminated. R. 
David Paulison, who had been Senate-confirmed as the U.S. Fire 
Administrator prior to the creation of the Department of Homeland 
Security (DHS) remains so today.

    Question 2. The U.S. Fire Administration (USFA) is suffering from a 
budget shortfall for fiscal year 2003, which almost resulted in the 
canceling of 36 classes at the National Fire Academy. What caused this 
shortfall, and what role did Congressional earmarks play in this 
shortfall?
    Answer. While there were relatively few ``earmarks'' within the FY 
2003 appropriation for the FEMA account that funds the Fire 
Administration, Congress did reallocate existing funds to various other 
programs. USFA costs have increased on an annual basis, while funding 
has remained level. In order to maintain existing classes at the 
National Fire Academy (NFA), the final 2003 program allocations 
required an across-the-board reduction in other programs, particularly 
within Mitigation, Response, and Information Technology programs.

    Question 3. S. 544, the Staffing for Adequate Fire and Emergency 
Response (SAFER) Firefighters Act of 2003, was referred to this 
Committee. Last year, Secretary Ridge said that the ``hiring of 
personnel for emergency response has been, is now, and should be either 
a state or local responsibility.'' What is the Administration's 
position on this legislation?
    Answer. Both President Bush and Secretary Ridge have stated that 
the hiring of local personnel such as firefighters should be viewed as 
a local matter and a local responsibility, and not dependent upon 
Federal funding. Furthermore, the SAFER Act grants are not target based 
on threats and vulnerabilities to terrorism, which is the 
Administration's top priority for responder assistance. The 
Administration believes Federal funding is more appropriate for 
developing new capabilities through equipment, training, and exercises. 
Providing short-term salary grants to fire departments will impose a 
hidden burden on the local governments and communities that will assume 
the long-term payroll costs when the grant funds expire, as dictated in 
the statute.

    Question 4. This Committee is beginning the process of 
reauthorizing the USFA. What issues should this Committee consider as 
we draft this legislation?
    Answer. The U.S. Fire Administration is now fully authorized. The 
President signed into law S. 1152, the U.S. Fire Administration 
Reauthorization Act of 2003 on December 6, 2003.

    Question 5. In its fiscal year 2004 budget, the Administration has 
proposed transferring the Assistance to Firefighters Grant Program to 
the Office of Domestic Preparedness. What is the Administration's 
rationale for this move?
    Answer. In FY 2004, the Assistance to Firefighters Grant Program 
was consolidated with other DHS grant programs in the one stop shop for 
grants in DHS, the Office of State and Local Government Coordination 
and Preparedness, of which the Office of Domestic Preparedness is a 
part. The purpose of this consolidation was to enhance overall 
coordination among all of the grant programs and improve efficiency 
wherever possible.

    Question 6. Senators Hollings, Brownback, Cantwell, Biden, Carper, 
DeWine, Graham and I have introduced S. 321, the Firefighting Research 
and Coordination Act. Are there any recommendations that you have for 
changes that should be made to this legislation as we consider it?
    Answer. S. 321 became Title II of S. 1152, the ``United States Fire 
Administration Reauthorization Act of 2003'' and was signed into law on 
December 6, 2003, and became Public Law 108-126. Title II may be cited 
as the ``Firefighting Research and Coordination Act.''

    Question 7. State and local fire departments in Arizona and across 
the country have raised concerns about the need for communications 
equipments that will allow fire departments to talk to police 
departments, other fire departments, and federal government agencies. 
What role is USFA playing in meeting the public safety communications 
interoperability challenge?
    Answer. The Assistance to Firefighters Grants encourage the 
coordination of specifications with items of equipment purchased under 
the grants. Currently we are waiting for the development and 
implementation of a covering standard or standards regarding equipment, 
training, and communications interoperability. As these are developed, 
we will incorporate those standards into grants and programs.

    Question 8. You have mentioned that a localized fire suppression 
system in kitchens would dramatically reduce the number of civilian 
fire deaths by 25 percent. You further stated that the cost of 
retrofitting a kitchen would be minimal. Can you be more specific about 
the cost of retrofitting and would insurance companies recognize the 
reduced risks through lower premiums?
    Answer. On the average, it is estimated that the cost to provide 
localized sprinkler protection in a typical residential kitchen would 
cost about $500 (labor and materials). The $500 estimate is provided by 
the American Fire Sprinkler Association and is based on localized 
retrofitting (over a stove perhaps) one sprinkler head in an average 
kitchen. Costs would vary depending on the geographic location and the 
size of the kitchen to be protected. It is a fact that most residential 
fires start in the kitchen. It is our hope that the insurance industry 
will give the homeowner a credit for installing localized sprinkler 
protection in the kitchen much the same as some insurance companies do 
for a complete residential sprinkler system. However, in addition, USFA 
is working with NIST and will have a report in November 2004 on the 
efficacy of retrofitting kitchens, design parameters, including 
available water supply, room characteristics, etc. One additional 
comment regarding Q8: USFA is not on record as stating that localized 
fire suppression systems in kitchens would reduce the number of 
civilian fire deaths by 25 percent.

    Question 9. A growing problem is the spread of wildland fires into 
urban areas. What actions are USFA taking to deal with this problem?
    Answer. USFA is a member of the National Wildfire Coordinating 
Group, consisting of policy-makers in the area of wildfire response. 
The wildfire community has the lead on these issues with USFA providing 
support.

  <bullet> USFA has been working with the national wildfire community 
        as well as with State and local wildfire and structural fire 
        departments to improve training and coordination. USFA has 
        developed, in conjunction with the above listed communities, 
        five training programs that are designed to meet the needs of 
        fire departments in the wildland/urban interface. They include 
        command and control, leadership, and firefighting. These 
        programs seek to improve the understanding, safety, and 
        operations of structural fire departments operating within 
        wildland/urban interfaces and at wildfires in general.

  <bullet> USFA now has a full-time permanent staff person assigned to 
        the National Interagency Fire Center in Boise, ID, to maintain 
        a continual presence/liaison between the USFA and the wildfire 
        community.

  <bullet> USFA has an ongoing affiliation with the National 
        Association of State Foresters to further the efforts of both 
        organizations in safety, prevention, and control of wildland 
        fires.

  <bullet> Other USFA wildfire-related projects include the FIREWISE 
        Program and FIRESCOPE Incident Command System. USFA 
        collaborated on the United States Department of Agriculture's 
        draft report to Congress titled, ``The Changing Role and Needs 
        of Local, Rural, and Volunteer Fire Departments Suppressing 
        Wildland Fires in the Wildland-Urban Interface''. In addition, 
        the Assistance to Firefighters Grant Program has begun 
        coordinating with other Federal wildfire agencies.

    Question 10. The Federal Response Plan currently makes the 
Department of Agriculture and the U.S. Forest Service the primary 
agencies for responding to a fire-related disaster. The terrorist 
attacks on September 11, 2001, occurred in urban areas, where USFA may 
have greater expertise. What steps are the Administration taking to 
revise the Federal Response Plan and create a National Response Plan 
that will handle fire-related disasters or terrorist attacks in urban 
areas?
    Answer. USFA is actively participating in the finalization of the 
National Response Plan and was closely involved in the development of 
the National Incident Management System (NIMS). USFA does not directly 
respond to fire-related emergencies, and components of these systems 
need to continue to rely on the State/local responders within fire, 
rescue, EMS, arson, hazardous materials, and incident management 
cadres. Specific issues USFA is working on include development of 
national standards for all risk incident management teams (IMTs) and 
training programs geared specifically toward the use of IMTs have been 
developed and are currently being used in Pennsylvania and Rhode 
Island.

    Question 11. Both the General Accounting Office and fire service 
organizations have cited duplication in the training programs of the 
different federal agencies as a source of confusion for firefighters 
and other first responders. What steps have USFA taken to address this 
issue?
    Answer. It is important to note that in the 2001 Report to 
Congress--A Comprehensive Curriculum Review for the United States Fire 
Administration, the study examined 119 NFA courses, and 753 courses 
delivered in State, local, and college curriculums. The analysis found, 
in some instances, that some USFA/NFA courses were available in local 
colleges or fire training academies, but the local college or academy 
wasn't accessible to every firefighter and officer in the country, only 
those in that particular region/area.
    Duplication in Federal agency training is a common complaint, and 
one that we have wrestled with for several years. Both the National 
Strategy for Homeland Security and Homeland Security Presidential 
Directives 5 and 8 called for better integration of Federal training 
programs. The DHS Office of State and Local Government Coordination and 
Preparedness will be examining this issue in an effort to bring greater 
coherence and coordination to Federally sponsored training.

    Question 12. S. 321, the Firefighting Research and Coordination Act 
would require that equipment purchased through the Assistance to 
Firefighters Grant program would have to meet or exceed applicable 
voluntary consensus standards. What role do voluntary consensus 
standards currently play in the application review process for the 
Assistance to Firefighters Grant Program?
    Answer. The AFG program currently gives competitive advantage to 
grant proposals that include equipment that meets either National Fire 
Protection Association standards or OSHA requirements, as appropriate. 
However, P.L. 108-126 provides that applicants may request that the 
U.S. Fire Administrator waive the requirement (see Title II, Sec. 202).

    Question 13. Has the $1 billion provided in the Assistance to 
Firefighters Grant program accomplished its purpose? Are the fire 
departments better prepared because of it?
    Answer. A voluntary survey of the recipients from 2001 indicated 
that grantees felt better prepared to attack fires. Empirical data is 
still being collected on the extent to which actual response 
capabilities have been enhanced by these funds.

    Question 14. You have mentioned the success of the streamlined 
grant application process for the fire departments. Will this process 
be maintained if the grant program is transferred to the Border 
Transportation and Security Directorate of the Department of Homeland 
Security?
    Answer. As stated previously, the Assistance to Firefighters Grant 
program has been consolidated with other grant programs in the Office 
of State and Local Government Coordination and Preparedness, which is 
now under the Office of the Secretary. USFA works closely with OSLGCP, 
including ODP, on the implementation of the Assistance to Firefighter 
grants, and the automated system has been maintained.

    Question 15. Based upon your work with the firefighters and their 
needs, what would you say is the most pressing need at the moment for 
the nation's fire departments?
    Answer. Basic equipment and training for capacity building 
continues to be the most pressing need for the nations fire service, 
Even as the Department of Homeland Security provides funding to meet 
some of this need, it is critical that local communities continue to 
make investments in their fire service.

    Question 16. Some members of the fire service have raised concerns 
that the mission of the U.S. Fire Administration will change now that 
it is part of the Department of Homeland Security. The concern is that 
the agency will concentrate its focus on anti-terrorism efforts to the 
detriment of its other traditional roles. What is your response to 
these concerns?
    Answer. There is no question that terrorism has become an important 
part of the Department's mission. We are working closely with the 
Department to continue USFA programs for all-hazards planning and 
response while ensuring that our programs also enhance the nation's 
terrorism preparedness. In fact, the Homeland Security Act placed the 
Office for Domestic Preparedness outside of EP&R in order to preserve 
its focus on all-hazards preparedness. Our commitment to that has been 
confirmed repeatedly by Secretary Ridge, and we will work with the 
Secretary and the Office for Domestic Preparedness to fulfill all of 
those important missions.
    The decision to move the administration of the Assistance to 
Firefighters Grant Program (Fire Act) to DHS's Office of State and 
Local Government Coordination and Preparedness, which includes the 
Office for Domestic Preparedness, from the Emergency Preparedness and 
Response Directorate is part of the Department's efforts to provide 
first responders a ``one-stop shop'' for grants and other forms of 
assistance. The purpose of this consolidation was to enhance overall 
coordination among all of the grant programs and improve efficiency 
wherever possible, not to reduce the focus on all-hazard preparedness.
   Response to Written Questions Submitted by Hon. Maria Cantwell to
                           R. David Paulison
    Question 1. Mr. Paulison, in February 2003, I proudly cosponsored 
Chairman McCain's Firefighter Research and Coordination Act that 
focused on the crucial importance of developing effective training and 
coordination among firefighters. I believe that these needs are 
amplified by the events of September 11, 2001, and the anthrax attacks 
of October 2001, a concern that firefighters and other first responders 
in my state of Washington have expressed.
    Can you provide additional insight into how your office is 
addressing these training and coordination needs?
    Answer. The United States Fire Administration (USFA) National Fire 
Academy's (NFA's) strength is its partnership and coordination with 
State and local fire training systems. The USFA/NFA provides many 
courses to each State, as well as $25,000 in grants to support the 
delivery of NFA curriculum. In addition, each State receives nine 2-day 
courses, and each FEMA region receives three 6-day courses per year. 
The USFA/NFA provides the costs for instructors and texts, the States 
and local organization provides the training facilities in that 
partnership.
    To highlight the increased capability of the NFA, in fiscal year 
(FY) 1995, the USFA/NFA trained 8,000 students in residence on the 
Emmitsburg campus, and 7,000 students in off-campus courses. In FY 
2002, we trained the same number in residence, 8,000, but we trained 
87,000 first responders through State and local systems and Distance 
Education methods. Over that same period, the budget has remained 
relatively flat. We are taking better advantage of partnerships and 
technology. We work very closely with Washington State Fire Marshal 
Mary Corso (who is responsible for training in Washington), and with 
each State training director in the country.
    Between 1997 and 2002, the USFA/NFA administered $5 million in 
terrorism training grants each year. In addition to new course 
development, this fund provided $80,000 per State to conduct terrorism 
awareness and response training, including incident command and 
hazardous materials training. In FY 2002, our State Fire Service 
Training Agency partners trained 55,508 students in courses specific to 
terrorism.

    Question 2. Mr. Paulison, the Fire Administration is part of the 
Federal Emergency Management Agency, which is now part of the 
Department of Homeland Security. This has raised concerns that the Fire 
Administration's training, assistance, and research programs may become 
overly focused on terrorism response and prevention. While I strongly 
endorse support for these functions of the Fire Administration, I share 
concerns that traditional Fire Administration services may be 
neglected.
    Please express your thoughts on the future direction of the 
services provided by the Fire Administration in light of its location 
within the Department of Homeland Security.
    Answer. There is no question that terrorism has become an important 
part of the Department's mission. We are working closely with the 
Department to continue USFA programs for all-hazards planning and 
response while ensuring that our programs also enhance the nation's 
terrorism preparedness. In fact, the Homeland Security Act placed the 
Office for Domestic Preparedness outside of EP&R in order to preserve 
EP&Rs focus on all-hazards preparedness. Our commitment to that has 
been confirmed repeatedly by Secretary Ridge, and we will work with the 
Secretary and the Office for Domestic Preparedness to fulfill all of 
those important missions.
    The decision to move the administration of the Assistance to 
Firefighters Grant Program (Fire Act) to DHS's Office of State and 
Local Government Coordination and Preparedness, which includes the 
Office for Domestic Preparedness, from the Emergency Preparedness and 
Response Directorate is part of the Department's efforts to provide 
first responders a ``one-stop shop'' for grants and other forms of 
assistance. The purpose of this consolidation was to enhance overall 
coordination among all of the grant programs and improve efficiency 
wherever possible, not to reduce the focus on all-hazard preparedness.

                                  <all>

</pre></body></html>
